<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED   AGENCIES APPROPRIATIONS FOR 2018
PART 6</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




.                    
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                   ___________________________________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho              BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                     CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio                   DEREK KILMER, Washington
  CHRIS STEWART, Utah                    MARCY KAPTUR, Ohio
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

  
  
  
  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the full committee, and Mrs. Lowey, as
 ranking minority member of the full committee, are authorized to sit as members of all subcommittees.

               Dave LesStrang, Darren Benjamin, Jason Gray,
             Betsy Bina, Jaclyn Kilroy, and Kristin Richmond
                            Subcommittee Staff

                       _______________________________

                                  PART 6

                                                                   Page
  Indian Health Service Budget Oversight 
Hearing...........................................................    1
                                                                      
  High Risk American Indian & Alaska 
Native Programs--U.S. Government 
Accountability Office Oversight Hearing...........................   51
                                                                     
  U.S. Forest Service Budget Oversight 
Hearing...........................................................  117
                                                                   
  Department of the Interior Budget 
Oversight Hearing.................................................  189
                                                                    
  Environmental Protection Agency Budget 
Oversight Hearing.................................................. 385 
                                                                    

          Printed for the use of the Committee on Appropriations

                    _______________________________

                    U.S. GOVERNMENT PUBLISHING OFFICE
  
 26-533                     WASHINGTON : 2017



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                         NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                         MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                  PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                           JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                         ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                               DAVID E. PRICE, North Carolina
  KEN CALVERT, California                             LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                                  SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                          BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania                       BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                                 TIM RYAN, Ohio
  KEVIN YODER, Kansas                                 C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                              DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                          HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                           CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee                   MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington                   DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                                MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                        GRACE MENG, New York
  ANDY HARRIS, Maryland                               MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                                KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                              PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

 
                   Nancy Fox, Clerk and Staff Director

                                   (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2018

                              ----------                              

                                           Wednesday, May 24, 2017.

                         INDIAN HEALTH SERVICE

                               WITNESSES

REAR ADMIRAL CHRIS BUCHANAN, ACTING DIRECTOR, INDIAN HEALTH SERVICE, 
    U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES
ANN CHURCH, ACTING DIRECTOR, OFFICE OF FINANCE AND ACCOUNTING
CAPTAIN MICHAEL TOEDT, M.D., ACTING CHIEF MEDICAL OFFICER
GARY HARTZ, P.E., DIRECTOR, OFFICE OF ENVIRONMENTAL HEALTH AND 
    ENGINEERING

                  Opening Remarks of Chairman Calvert

    Mr. Calvert [presiding]. The committee will come to order.
    Good afternoon, and welcome to th``is oversight hearing of 
the Fiscal Year 2018 budget for the Indian Health Service.
    Funding for Indian Country has been a nonpartisan priority 
of this subcommittee for many years now. Working together, we 
have begun to address the most urgent needs, and we are making 
a difference. Contract support costs are now fully funded 
freeing up funds for operations, affording tribes the capacity 
to run additional programs rather than relying on the Federal 
government to do it for them.
    Funds to meet extraordinary medical costs for victims of 
disasters or catastrophic illness, which used to run out in the 
middle of the year and led to the common refrain in Indian 
Country do not get sick after June, and now finally estimated 
to last the entire year.
    More children are receiving proper dental care. More teens 
are receiving the help and support they need to battle 
substance abuse and suicide. More providers are being recruited 
because we are helping to pay back their student loans. More 
new care facilities are opening their doors each year. The list 
of accomplishments goes on and on, and we are deeply proud of 
our work.
    But we also recognize that we still have a long way to go 
before the health disparities in the American Indian and Alaska 
Native population, compared to the Nation as a whole, become a 
thing of the past. That is why I am disappointed by the fiscal 
year 2018 budget proposal for the Indian Health Service, which 
would cut the Agency's budget by $301 million, or 6 percent 
below the amount we just appropriated for fiscal year 2017.
    The proposal contains none of the increases enacted for 
fiscal year 2017. It contains no additional funds to keep pace 
with tribal and Federal pay costs, medical inflation, and 
population growth in order to maintain current level of 
service. It contains no funds to replace the dilapidated 
staffing quarters, or repay additional student loans, or make 
any extra effort for that matter to save the Agency from low 
recruitment and retention rates.
    For the first time since 2011, when the subcommittee began 
to annually appropriate enough funding to reduce the 
maintenance backlog, the budget request proposes to drive the 
backlog upwards again.
    The average age of Indian Health Service facilities is four 
times the nationwide average. At current spending rates, any 
facility constructed in 2015 will not be replaced for 400 
years. And yet, the budget request proposes to cut the 
construction budget by $18 million.
    Earlier this year, the Government Accountability Office 
added the Indian Health Service to the list of the highest risk 
programs across the Federal government. Whether that addition 
will rally support for IHS or, conversely, sink Agency morale 
and recruitment even further and exacerbate the Agency's 
problems, remains to be seen. But what is clear is this. The 
United States has a moral and legal responsibility to provide 
the highest possible standard of healthcare to American Indians 
and Alaska Natives.
    This responsibility is grounded in the earliest treaties 
between the sovereign and equal nations, and it must not be 
compromised at the expense of lower priorities in the Federal 
budget. Let me be clear. Congress must not balance the budget 
on the backs of American Indians and Alaska Natives.
    With us today from the Indian Health Service to explain the 
budget request and answer questions are Rear Admiral Chris 
Buchanan, Acting Director of the Indian Health Service, Dr. 
Michael Toedt, acting chief medical officer, and Ann Church, 
acting director, Office of Finance and Accounting. Thank you 
for being here today and for your public service to Indian 
Country.
    Before we turn to your opening statement, I will ask our 
distinguished ranking member, Ms. McCollum, for any opening 
remarks.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you very much, Mr. Chairman, and 
welcome to those of you who are going to be testifying later. 
As the chairman clearly stated, last week we heard testimony 
from Native American witnesses about the need for adequate 
resources for healthcare services. They gave us their firsthand 
accounts describing their experiences and their challenges 
faced by their communities.
    Native Americans and Alaska Natives suffer some of the 
worst health disparities of all Americans, and live on average 
4.4 years less than anyone else in the U.S., all race 
populations in the United States. Additionally, suicide rates 
are four times higher than the national average, and suicide is 
the second leading cause of death for Native American youth.
    We know that much needs to be done to address these 
problems to improve the lives our Nation's indigenous people. 
Our goal today is to outline and understand the Indian Health 
Service's challenges and to look for ways we can work with you 
to address that. That said, I agree with the chairman, and I am 
personally deeply disappointed in the fiscal year 2018 
President's budget that cuts the Indian Health Service by $300 
million below the 2017 enacted level. Moreover, this reduction 
will significantly compound if the Patient Protection and 
Affordable Care Act is eliminated.
    Multiple tribal leaders expressed concern about this last 
week, knowing that a large portion of the American Indians and 
Alaska Natives could lose coverage, decreasing revenue streams 
upon which the services for the Indian Health Service rely.
    Funding for the Indian Health Service has been an area of 
broad bipartisan cooperation, as you can tell by the chairman's 
comments. And although we have provided increases in the Indian 
Health Service appropriation over the last several years, 
current events in the Great Plains region signal that more 
needs to be done. The continuing problem in the Great Plains 
region are a clear indication that IHS should be focusing its 
efforts on strengthening the organization and recruiting and 
retaining permanent staff.
    The 2017 statement of managers, ``We are very clear about 
our dedication providing access to healthcare for IHS patients 
all across the system. We stated our expectation that the IHS 
should aggressively work down the current health construction 
priority system and examine ways to effectively close the 
service gap.''
    This budget clearly, clearly does the opposite. It is 
reprehensible that the Administration's budget request includes 
$98 million, or 18 percent, reduction for Indian health 
facilities, especially when the average age of federally 
operated IHS facilities is 31 years, with some facilities older 
than 40 years without any repair or renovation. Furthermore, 
this budget does not include an increase provided by this 
Congress in the 2017 budget for things such urban Indian 
healthcare programs, dental, mental health, alcohol, and 
substance abuse.
    This budget also eliminates the Tribal Management Grant 
Program to assist tribes in assuming all or part of the IHS 
program services, functions, or activities, and only includes 
$2 million for accredited emergencies, when $29 million was 
added in 2017. Tragically, these cuts to IHS are just one part 
of President Trump's cruel and reckless budget. His proposal 
rips apart the social safety net with cruel cuts that fall on 
vulnerable children, families, and seniors, including Native 
Americans.
    In a Nation as prosperous as the United States, 
purposefully inflicting harm on vulnerable people is just plain 
immoral. Instead, we should be working together to build a 
stronger America for tribal nations and our Nation as a whole 
by making smart, sustainable investments in infrastructure, 
public schools, healthy environment, and safe streets.
    This should also be our guide in approaching comprehensive 
solutions and holistic approaches to address health, education, 
and the quality of life needs of Native Americans. 
Unfortunately, this proposed Indian Health Service budget falls 
short on the mark. I look forward to working with all of my 
subcommittee colleagues to craft a bill that will appropriately 
fund the IHS.
    We have a moral and legal responsibility to Native 
Americans, and when we fall short, it is just not a violation 
of treaty agreements that we hold with Native Americans, but it 
is a violation of the trust we share.
    Mr. Chairman, I thank you for holding this hearing. I thank 
you for your comments in your opening statement, and I look 
forward to working with you on these important issues, and 
doing our best to build back healthy tribal communities.
    I yield back.
    Mr. Calvert. Thank you. Thank you, Ms. McCollum, and I 
appreciate your remarks.
    We are going to have a series of votes, so we are going to 
have Admiral Buchanan's testimony, and then we are going to 
recess for a vote. Admiral, you are recognized.

            Opening Remarks of Acting Director RADM Buchanan

    Rear Admiral Buchanan. Thank you. Good afternoon, Mr. 
Chairman, members of the subcommittee. I am Chris Buchanan, the 
acting director for Indian Health Service. Here with me today 
are three of my colleagues, Captain Michael Toedt, chief 
medical officer, Ann Church, the acting director of the Office 
of Finance and Accounting, and Mr. Gary Hartz, director of the 
Office of Environmental Health and Engineering.
    Today I am providing testimony on the President's fiscal 
year 2018 budget request for IHS, which will allow us to 
maintain and address our Agency's mission to raise the 
physical, mental, social, and spiritual health of American 
Indians and Alaska Natives to the highest level.
    IHS is responsible for providing Federal health services to 
approximately 2.2 million Americans and Alaska Natives from 567 
federally-recognized tribes in 36 States through a network of 
662 hospitals, clinics, and health stations. These health 
services are provided directly by IHS, by the tribes, and 
tribal organizations under the authorities of the Indian Self-
Determination Education and Assistance Act. Our budget plays a 
critical role in providing a path to fulfill our commitment to 
ensure a healthier future for American Indian and Alaska Native 
people.
    The fiscal year 2018 President's budget proposes a total 
discretionary budget authority for IHS of $4.7 billion, which 
is $59 million below the fiscal year 2017 annualized continuing 
resolution. The budget reflects the Administration's high 
priority commitment to Indian Country, protecting the direct 
healthcare investments, and reducing IHS' overall program level 
by only .9 percent in the context of an 18 percent reduction 
within the overall HHS discretionary budget.
    In order to prioritize funding for the direct healthcare 
services to our population and newly-constructed joint venture 
healthcare facility scheduled to open in fiscal year 2017, the 
budget includes a reduction to funding levels for facilities, 
infrastructure projects, and management activities of $75 
million below the fiscal year 2017 annualized continuing 
resolution.
    IHS, like all of you, remains committed to addressing the 
behavioral health challenges, including high rates of alcohol, 
substance abuse, mental health disorders, and suicides, in 
American Indians and Native American communities. The budget 
for these services is maintained at the fiscal year 2016 level 
for a total of $288 million.
    The IHS, in partnership with tribes, uses evidence-based 
practices at the local levels to reduce the incidences of 
preventable diseases and improve the health of individuals, 
families, and communities across Indian Country. Programs such 
as public health nursing, health education, and community 
health representatives play an integral role in delivering 
culturally appropriate services.
    The fiscal year 2018 budget assumes $1.2 billion in 
estimated health insurance reimbursements from third-party 
collections. These third-party collections allow IHS and 
tribally managed programs to meet accreditation and compliance 
standards, and expand the provisions of healthcare services by 
funding staff positions, purchasing new equipment, and 
maintaining and improving buildings.
    The budget request includes $20 million to support staffing 
and operating costs for two joint venture construction program 
projects that include the Choctaw Nation Regional Medical 
Clinic in Oklahoma and the Flandreau Health Center in South 
Dakota. In addition, the budget includes funding to support 
three facility projects that include the Alamo Health Center in 
New Mexico, the Rapid City Health Center in South Dakota, and 
the Dilkon Alternative Rural Health Center in Arizona.
    The budget supports self-determination by continuing the 
separate indefinite appropriations account for contract support 
costs, or CSC, through fiscal year 2018, and includes an 
estimated $718 million to fully fund CSC. Maintaining the 
flexible funding authority of an indefinite appropriation 
allows IHS to guarantee full funding of CSC as required by law 
while protecting the Service's funding for the direct service 
tribes.
    Finally, we are working aggressively to address the quality 
care issues at three of our facilities in the Great Plains 
area: Winnebago, Rosebud, and Pine Ridge. The challenges are 
longstanding, especially around recruitment and retention of 
providers. The deficiencies cited in the reports by CMS are 
unacceptable. Providing high quality of care to our IHS 
patients is my priority, and we have intense efforts under way 
right now to correct the problem cited by CMS at these 
hospitals. In November 2016, we launched the Quality Framework, 
an implementation plan to strengthen the quality of care that 
IHS delivers to patients we serve.
    Despite all these challenges, we are firmly committed to 
improving quality safety and access to healthcare for American 
Indians and Alaska Natives in collaboration with the HHS, our 
partners across Indian Country, and the Congress. I appreciate 
all the efforts in helping us provide the best possible 
healthcare services to our people we serve to ensure a 
healthier future for American Indians and Alaska Natives.
    Thank you, and we are happy to answer any questions you may 
have.
    [The statement of Admiral Buchanan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Calvert. Thank you for your testimony, Admiral. We are 
going to recess for probably about a half an hour. We have five 
votes, and we will come back immediately after the last vote.
    We are recessed.
    [Recess.]
    Mr. Calvert. The committee will come to order.
    We have a hard stop at 3:30 today and two hearings to get 
through, so I will try to keep things moving. I ask that 
members consider deferring at least some of their questions for 
the record so we can keep to our schedule today.
    I will start off. Let me see. Which question do I want to 
ask first? [Laughter.]


                          gao high risk report


    Admiral, do you have any concerns about any of the GAO 
recommendations on this high-risk report?
    Admiral Buchanan. I would like to explain some of the 
activities that are related to the GAO risk report. We accept 
those findings from GAO wholeheartedly. There were some that we 
did not agree with, but the majority of those we did, and we 
can provide detailed information related to each specific 
finding going forward.
    The way the GAO identified their reports were basically in 
five different areas related to oversight, Federal activities, 
workforce planning. Some of the things that IHS has been doing 
can be lumped into two big areas as far as quality and PRC 
activities. Quality, we have been implementing the Quality 
Framework as the GAO has recommended. We have identified those 
high-risk areas that we want to focus on, so making----
    Mr. Calvert. Well, since you made that offer to provide the 
subcommittee with information, we would love to have a written 
status update on every IHS related recommendation in the GAO 
High Risk Report. It is important we stay on top of this.
    Admiral Buchanan. Yes, sir.
    [The information follows:]

                          GAO High Risk Report
    IHS takes GAO's recommendations very seriously. IHS plans to focus 
on making audit resolution a key priority in improving the management 
controls of the IHS, and to sustain those improvements. IHS will 
continue to work directly with your staff to provide status updates on 
this topic on an ongoing basis.

    Mr. Calvert. Your 2018 budget proposes no increases for pay 
costs, medical inflation, population growth in an effort just 
to maintain current levels of service. Previous budgets have 
estimated current services costs to be upwards of $200 million. 
What is the estimated increase necessary to maintain current 
services in fiscal year 2018?
    Admiral Buchanan. Great question. I do not have that 
information right in front of me, but I would be happy to 
provide that information to the record.
    [The information follows:]

                      Maintaining Current Services
    Approximately $200 million would cover the costs of medical and 
non-medical inflation, pay, and population growth.

                          MAINTENANCE BACKLOG

    Mr. Calvert. Yeah. Well, you got a tough job, do you not?
    Maintenance backlog. The 2018 budget proposes a $15 million 
decrease in the maintenance budget. For the past 2 years, we 
have provided sufficient maintenance funding to start driving 
the backlog downward again, even if by a little bit. What is 
your estimated size of the maintenance backlog?
    Admiral Buchanan. Thank you for the question. The 
maintenance backlog, as you were referring to, is the 
maintenance and improvement area. And we definitely use the 
maintenance and improvement activities to drive our costs. 
Those usually are offset by third party collections going 
forward. Specific information I would defer to, with your 
permission, Gary Hartz to provide that answer for us.
    Mr. Calvert. Gary.
    Mr. Hartz. Thank you, Mr. Calvert.
    Mr. Calvert. Speak into----
    Mr. Hartz. Thank you, Mr. Calvert. The----
    Mr. Calvert. Please say your name for the record, sir. 
Thank you.
    Mr. Hartz. My name is Gary Hartz. I am the director of 
environmental health and engineering for the Indian Health 
Service, and have served in that position now for a number of 
years.
    Mr. Calvert. Thank you.
    Mr. Hartz. Thank you for the question. The backlog of 
essential maintenance alteration and repair currently is right 
at about $515 million.
    Mr. Calvert. Since you are here, will the maintenance 
backlog go up or down at the requested funding level for 2018?
    Mr. Hartz. The industry standards pretty much outline that, 
you know, as you have aging facilities or even new facilities, 
you are looking at about a 3 to 4 percent increase in that 
backlog if not adequately addressed.
    Mr. Calvert. So, if it is not adequately addressed, so the 
backlog will go up.
    Mr. Hartz. That is what the standards pretty much outline, 
and we compare our facilities and our health centers to that of 
the industry of the healthcare industry. The answer is 
affirmative.
    Mr. Calvert. What is the estimated funding level necessary 
to keep driving the backlog downward? You mentioned 3 to 5 
percent. How much money does that equate to?
    Mr. Hartz. That would be the annual amount that I 
mentioned. When you look at what is needed by the National 
Research Council, they say that you should be taking a look at 
your asset inventory value, and that typically should run 
somewhere between 2 to 4 percent of your asset inventory value.
    Mr. Calvert. What number would that be?
    Mr. Hartz. It is a quite large number, sir.
    Mr. Calvert. What is that?
     Voice. Provide it----
    Mr. Calvert. Yeah, if you could provide that for the 
record?
    Mr. Hartz. We will absolutely, 10-4.
    [The information follows:]

                      Estimated Maintenance Costs
    The estimated annual maintenance cost to address the necessary 
repair, preventive maintenance, materials, direct labor and contract 
costs for the IHS/Tribal plant inventory value of $4.81 billion would 
be $100-$200 million.

           2016 FACILITY NEEDS ASSESSMENT REPORT TO CONGRESS

    Mr. Calvert. The 2016 Facility Needs Assessment Report to 
Congress states that at the existing replacement rate, a new 
2016 facility would not be replaced for 400 years. Please 
explain that.
    Mr. Hartz. Sure. Based on an appropriation level, and that 
was submitted in 2016. Based on an appropriation level of $85 
million a year, which is what we received in 2016, we were 
receiving at that point. We actually a got a bump in 2016, but 
when we did the report it was $85 million.
    And if you look at the square footage that the Indian 
Health Service operates within to deliver healthcare for 
American Indians and Alaska Natives, both Federal and tribal 
programs, and you take a look at the cost to build and you run 
the calculations, sir, it comes out to just a little under 400 
years.
    Mr. Calvert. Well, I have a series of questions relating 
the construction backlog. And I do not want to embarrass 
anybody, but we need to get these answers. I am going to submit 
those to you for written response.
    But obviously, with the facilities as old as they are, this 
is a significant problem, along with others. With that, I will 
recognize Ms. McCollum.

                                STAFFING

    Ms. McCollum. Thank you, Mr. Chair. We are tracking the 
same way. You are talking about facilities, and I am going to 
talk about the people who go in the facilities, and let us talk 
about staffing.
    The Trump Administration has directed all agencies to 
submit a long-term workforce reduction plan by June 30th, 2017. 
If you look at the March GAO report of 2016, the report states 
that IHS informed them that the insufficient workforce was the 
biggest impediment to ensuring patients' access to timely 
primary care.
    So, are you finding other agencies that are better able to 
offer salary and benefit packages? Are those agencies 
recruiting your staff? You know, kind of fill us in. What are 
the current number of vacancies in the Indian Health Service, 
and are you having problems with turnover rate?
    I have some other follow-up questions, but just on 
staffing.
    Admiral Buchanan. Thank you for the question. We have a 
staff of around 15,000 people. We have approximately 3,000 
vacancies. We have a vacancy rate of 20 percent. Some of our 
high vacancies include, of course, our healthcare providers for 
sure. Our physicians are at 30 percent.
    Ms. McCollum. We have a physician shortage of 30 percent.
    Admiral Buchanan. Yes, ma'am.

                       RECRUITMENT AND RETENTION

    Ms. McCollum. Compared to the VA and other Federal agencies 
and Federal groups--the DOD offers healthcare, for example--
where are you on the pay scale? Are they competition for you? 
Are you the same?
    Admiral Buchanan. That is a great question. Some of the 
activities we have been doing regarding recruitment and 
retention, as I mentioned in the Quality Framework, is trying 
to get more providers into the system, and we have got some 
creative initiatives going. Some of those that you are 
referencing would relate to the VA. Under Title 38 we have some 
of those same authorities that the VA has.
    Ms. McCollum. Given the fact that you have a 20 percent 
shortage of employees, you have a 30 percent shortage in 
physicians alone, what has been your response as you are 
preparing this June 30th report to the Trump Administration? 
Are you telling the Administration that you do not have 
problems as far as you have too much workforce, but you have 
too little workforce? I do not see how you could be submitting 
a reduction plan to the White House when you have a 20 percent 
shortage, a 30 percent shortage in physicians. What is the 
dialogue between you and the White House on this?
    Admiral Buchanan. That is a great question. You know, this 
budget is a tough budget for sure, truly tough budget going 
forward. We had to make tough decisions on this budget. So, you 
know, we are committed to meeting the mission of the Indian 
Health Service.
    Ms. McCollum. Okay. I do not mean to put you on the spot to 
answer that, but one would hope that the White House is open to 
hearing that not all agencies are the same to do across-the-
board workforce reductions.

                          GAO HIGH RISK REPORT

    The GAO report of 2017 highlighted the adverse effects of 
the inconsistency area office and facility leadership on the 
oversight of facility operations and supervision of personnel. 
That goes to the fact that you have a workforce shortage.
    For example, the Great Plains area, which is an area where 
we are really focused on seeing some radical improvement, you 
were the acting director in 2016. There were four area 
directors between 2011 and 2016 before you came there. Four 
different area directors. Seven chief executive officers at the 
Rosebud Service Agency. Ten executive officers at the Omaha 
Winnebago Hospital. Three executive officers at Pine Ridge 
Service Unit.
    Can you please tell us what you are trying to do, because 
you went in there at a time of crisis, to stabilize the 
leadership, to create an environment where the correct 
decisions can be made in a timely fashion to turn this around? 
And, again, how is the workforce shortage affecting your 
ability to recruit and retain.
    I show this as an example to back up why I was making the 
points before that the Administration has to pay careful 
attention when they are asking for long-term workforce 
reductions, especially as to how it will affect the IHS.
    Admiral Buchanan. Great question, and thank you for that. 
One of the things that we found in the Great Plains, and 
specifically in my time, there was leadership, as you 
mentioned, there was a high turnover going forward. Some of the 
things that we addressed and put into place is the Quality 
Framework, as I mentioned, knowing that we needed 
organizational capacity and accountability going forward.
    And specifically with that priority in the Quality 
Framework is to recruit and retain qualified staff, provide 
accountability, identify quality measures to make sure that we 
are providing it consistently. Some of the items that were 
identified in GAO and some of the CMS findings include strong 
governance. And that is one of the things we put in place for 
accountability and spread that throughout not only the Great 
Plains area, but throughout IHS.
    Ms. McCollum. Well, Mr. Chair, I have lots of other 
questions on third party payments and what happens if the 
Special Diabetes Program does not get authorized, but I will 
submit them for the record.
    Thank you.

                           PATIENT WAIT TIMES

    Mr. Calvert. Thank you. Thank you, Ms. McCollum. Real 
quickly before I pass it over to Mr. Cole, does IHS track 
patient wait times like the Veterans Administration does?
    Admiral Buchanan. We do track patient wait times at the 
local level, but we actually have an initiative as related to 
the Quality Framework. That is one of our patient experience 
priorities is wait time measurements.
    Mr. Calvert. How do they compare?
    Admiral Buchanan. I would love to defer that question with 
your permission to Dr. Toedt.
    Mr. Calvert. How do they compare to the VA, Doctor?
    Dr. Toedt. Thank you for the question. So, the Indian 
Health Service, respectfully, we do not consider as one broad 
brush. You know, we have Federal, tribal, and urban clinics. We 
have hospitals. We have health centers. Urban programs 
sometimes do not directly see patients, but rather provide care 
coordination and different levels of access. So, we are not 
identical to the VA and cannot have a direct comparison.
    However, we have been looking at examples from the public 
and private sector, including DOD and the VA, and we are 
approaching this to deliver metrics that make sense for our 
system. One of the ways we are doing that is through a patient 
experience survey. And we are asking our patients if they are 
able to get an appointment when they wanted it. We are also 
asking patients if they have, when they arrive their visit, do 
they have to wait long for their providers.
    Mr. Calvert. In the interest of time, will you get us a 
copy of that survey when it is completed, please?
    Dr. Toedt. Yes, sir.
    Mr. Calvert. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Calvert. Mr. Cole.

                         FY 2018 BUDGET REQUEST

    Mr. Cole. Thank you very much, Mr. Chairman, and I want to 
thank witnesses for being here. I certainly do not have any 
doubt, Admiral, Captain, Ms. Church, about your commitments in 
this area at all, so any remarks I make are certainly not 
addressed to any of you. And, frankly, I do not have any doubt 
about our friend, Secretary Price, either. My friend, the 
chairman, and I actually visited with him.
    I will submit this for the record. I think you already have 
it, though.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Cole. We showed him, you know, what our Federal 
expenditures per capita for Native Americans, Medicaid 
recipients, Medicare recipients, and veterans. And as you can 
imagine, I mean, spending on Native American health is at the 
absolute bottom, and not by a little bit, but by a lot. So, 
this is clearly a place, no matter how hard this committee has 
worked, and it has on a bipartisan basis over recent years. We 
have not been able to get anywhere near where we would like to 
be.
    So, a $300 million cut really is not defensible or 
acceptable. And, you know, whether the Administration knows it 
or not, this budget reflects that it does not care very much 
about Indian healthcare.
    So, I think part of the root of our problem here is 
twofold, and the chairman and I have had this discussion. One, 
because this is an old healthcare system, long pre-dating 
Medicare and Medicaid. I mean, most of our medical things are 
taken out of mandatory funding, and this committee, hard as it 
tries, has limited amounts of dollars. And so, you know, one of 
the things we need to look at long term is, frankly, getting 
out of the discretionary business and funding Native American 
healthcare the way everybody else's healthcare is funded.
    And the second thing, if we cannot do that, and, again, the 
chairman and I have visited about this, this is not a very big 
pot of money for this committee. It is about $31 billion, if I 
recall, $30, $31 billion, and with a range of responsibilities.
    At least over at Labor-H, we have got $160 plus billion, at 
least right now. And, you know, it would be a lot easier in 
something that large to honestly make the kind of significant 
strides that I think we need to make here.
    So, I appreciate, and I really do because, again, you guys 
have devoted your life to this. And I admire the service, I 
really do, because I do not think we have given you anywhere 
near the resources to do the job at hand. If we are going to 
redo Indian facilities once every 400 years, that expresses a 
great deal of optimism about the future of the United States 
when we can see that far ahead. [Laughter.]
    But, so I guess that is the silver lining in that 
statement.
    We do have, too, as you know, tremendous variation. This 
committee through the CODEL a number of years ago. I know Mr. 
Simpson was on it, and my good friend, Ms. McCollum was on it, 
and we saw what was really a first world healthcare system that 
the Chickasaws have because they put a lot of their own money 
in it. And then we went to some of these facilities that later 
were listed in the Great Plains. We were at Rosebud, and we 
were at Pine Ridge.
    And so, I mean, the care difference, you know, was just 
dramatic, and the difference was nothing wrong with the people 
in those two places. They just did not have anywhere near the 
resources they needed. And obviously, in the remote locations, 
it is very difficult to get personnel to come and stay there.
    How you administer a system that diverse with that 
different a capability, frankly, at the tribal level is an 
interesting question. But the bottom line is the Chickasaws are 
doing a lot more because they can, but they should not have to. 
This is a treaty obligation.
    I am not a lawyer, but when I look at numbers like this, if 
you could not take the United States government to court, which 
the Indians have done before on contract services, and win, I 
would not be surprised because we certainly have not kept up 
our end of the obligations here.
    So, I do not really have any questions for you because I do 
not think they are fair to put you in that position. And I do 
admire, you know, all of you and your fellows, who I think, 
again, we have let you down. You have not let us down.
    But the Administration needs to take sight of this, and 
they are now in the responsible quarter. And beginning this 
challenge by cutting the available resources, absolutely 
unacceptable. I mean, it will be over my dead body. I am not 
look for efficiencies here.
    But we are going to do everything we can to try and reverse 
these numbers, or I will, and then I think beyond that, we are 
going to just have to find a better way. And I would invite the 
Administration in all seriousness to sit down and let us 
explore that better way, because I do not think this committee, 
no matter how hard it works with the amount of money it has, 
can ever get us to where we need to be.
    So, we need to think of some sort of structural change that 
will put the appropriate amount of resources here. And, you 
know, forcing you guys to come here and either beg for nickels 
and dimes or defend what I think what are indefensible cuts I 
think is not the right way to go. There has got to be a better 
policy solution than we have stumbled onto here.
    And fortunately, this committee has the leadership and the 
will on a bipartisan basis to try and think through those 
issues, and, you know, my commitment is to continue to work on 
this. But, again, the message I would deliver back to the folks 
at OMB, because I suppose who dreamed this up, is I would like 
some of you guys to come to Pine Ridge and to come to Rosebud, 
and go look at some of the conditions that American Indians are 
living in in places like that, and then tell me how you could 
defend this, and I do not think they can.
    This is one of those cases where have got a bunch of number 
crunchers, and that is great. We all need number crunchers. No 
offense, Ms. Church. I did not mean that directed at you 
obviously. [Laughter.]
    But, you know, they just do not have any connection with 
the real world, they really do not, or they would not present a 
budget like this. You do. You are our number cruncher, you 
know. [Laughter.]
    But just, again, I apologize honestly that you were put in 
this situation that you had to come here and defend this 
because I know you would all want a more robust budget, and a 
budget that was adequate to the challenges that you 
legitimately have.
    And this is a population that now lives 4 and a half years 
less than the average American, some places over 20 years less, 
Indian men, white men. I think, in Montana that is the number. 
Higher rates of disease than any other part of our population, 
you know, more challenged in every other way. And to think we 
are going to sit here and cut this is just, I mean, honestly, I 
very much hope Congress does not ever do anything like that.
    I mean, we have got a bad enough record over the course of 
240 years. This committee has done what it can under bipartisan 
leadership in the last few years to try and reverse that, which 
I am very proud of this committee and the members on both sides 
of the aisle, the chairmen we have had on both sides of the 
aisle, two of which are sitting right next to me now. And we 
can do better than this.
    So, I admire your bravery for being here and your 
professionalism. I hold you all in very high esteem. But I can 
tell you, whoever came up with this budget I do not hold in 
high esteem, and will do everything I can to make sure it does 
not stand.
    With that, I will yield back.
    Mr. Calvert. Thank you, Mr. Cole. I appreciate it.
    Next, Ms. Pingree.

                            OPIOID EPIDEMIC

    Ms. Pingree. Thank you, Mr. Chair, and I know the chair has 
asked us to limit our questions, and I can submit most of mine 
for the record.
    Frankly, I do not think I can improve on my colleagues here 
today on both sides of the aisle and their huge concerns about 
this budget, and the difficulties under which you have to 
operate. The idea that we would be making cuts to an already 
underserved population is really unthinkable.
    The only thing I will highlight in the mix of things that 
just do not look good in here is no more resources to deal with 
the opioid epidemic. We already know how challenging that is in 
States throughout the country, and it is even more challenging 
in Indian Country. I know that the tribes in my State have told 
us of very long wait times. In the State of Maine, you have to 
go to North Carolina to get inpatient treatment. I mean, that 
is just impossible, and it is very hard to come back if you do 
get to inpatient and then reintegrate into your community and 
try to make sure that you can stay off of opioids.
    I noticed in the budget justification here, which is just 
an unthinkable number, it says that there has been a 454 
percent increase in drug-related deaths since they started 
counting in 1979. That is just an unfathomable number, and 
obviously we should be doing much more here.
    I will submit my questions for the record and add that in 
as, you know, another important consideration, and echo 
everyone's appreciation for the work you do, and hope that we 
can change the numbers in this budget.
    Thank you.
    Mr. Calvert. I thank the gentlelady. Mr. Simpson.

                         FY 2018 BUDGET REQUEST

    Mr. Simpson. Thanks, Mr. Chairman. Since we just got the 
budget yesterday, I have not had a lot of time to go through 
the budget and the justification. I do not know whose book that 
is, but I want one because I want to sit down and be able to 
look at what the justifications for some of these things are.
    And let me tell you, frankly, I could not have said it 
better than my good friend Mr. Cole, so I will not try. But the 
Administration's budget is just in general terms disappointing, 
especially after all the work we have done on this committee 
over the last several years to try to make sure we address 
Indian health services, that we get them the care that they 
need.
    And we have done it, frankly, at great expense for a lot of 
other programs within this budget. You know, the backlog 
maintenance that is growing in a lot of areas, we have said 
that is not as important as Indian healthcare, and a lot of the 
other programs. To see this Administration kind of retreat on 
that is obviously disappointing to us.
    I am not one who believes that just throwing more money at 
something solves the problem. If you have got better ways of 
delivering services to our Native American brothers and 
sisters, I am all for that. But even if you could deliver the 
resources that we currently appropriate in the most efficient 
manner that could possibly be used, we are still way behind. 
Regardless of how we do it, we do need more resources.
    And ultimately the President makes recommendations. That is 
his job. And it is our Constitutional responsibility to do the 
appropriations. And I am sure this committee will look at the 
overall budget and look through the justifications of what has 
been proposed, and will come up with a budget that continues to 
move us forward.
    I feel confident in Chairman Calvert--it is all on his 
back----
    [Laughter.]
    Mr. Simpson [continuing]. That we will move forward in 
advancing, that which we have tried to do for some time. The 
other thing we have discovered over the years as we have looked 
at this, Indian Health Service was our highest priority because 
if you do not have your health, you do not have anything.
    But there are so many other problems in Indian Country, 
whether it is Indian education, whether it is law enforcement 
in Indian Country, we have to address these issues. So, we were 
kind of hoping that we were moving ahead on Indian Health 
Service so that we could also concentrate on Indian education, 
which we did in the last budget.
    We look forward to working with you. And, again, it is not 
a criticism of any of you, not even of the bean counters. I 
mean, I love you, and you do a great job. [Laughter.]
    But we look forward to working with you to try to improve 
healthcare in Indian Country across this country. Thank you.
    Mr. Calvert. Thank you, Mr. Simpson. Mr. Kilmer.

                    BACKLOG IN SANITATION FACILITIES

    Mr. Kilmer. Thanks, Mr. Chair, and thanks for being with 
us. We sat through a couple of days of testimony with tribal 
leaders from around the Nation. One of the issues that came up 
a number of times was the significant backlog in sanitation 
facilities. I guess that is part of the reason I was surprised 
to see a proposed cut of 25 percent for construction of 
sanitation facilities. I think the Department has identified a 
backlog of 2,800 projects that would cost a total of $2.8 
billion, primarily dealing with sewer systems and safe drinking 
water.
    I have got one specific question, and I will submit it for 
the record. There is a sewer system in our district, located on 
the Ho Tribe's reservation, that was approved in 2013, and the 
Department only just now issued an RFP. I would like to get 
some understanding of what caused the delay and whether these 
proposed cuts would further delay something that is already 
very long overdue.

                         FY 2018 BUDGET REQUEST

    Mr. Kilmer. In general, do you feel like this budget 
actually makes progress on meeting those needs of a lot of 
tribes who have a lot of very significant needs when it comes 
to safe drinking water and sewage treatment?
    Admiral Buchanan. The budget, again, really a tough, tough 
budget. We have consulted with the tribes. We understand their 
concerns for sure going forward. None of the cuts that were 
identified were easy to make, but you have my commitment to 
continue to move forward on the mission with the Indian Health 
Service.
    Mr. Kilmer. Thanks. In the interest of time, I will yield 
back, but I will submit additional questions about the Ho 
Tribe's project for the record. Thanks.
    Admiral Buchanan. Thank you.
    Mr. Calvert. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. I understand my 
question was already addressed by Ms. McCollum. But I will echo 
the sentiments of the chairman, Chairman Simpson, and Mr. Cole 
about the need for us to do better for you.
    Thank you.
    Mr. Calvert. I thank the gentleman. I just want to make one 
final comment. This is the beginning of a process. We all 
respect all three of you. You are doing the best you can under 
these circumstances. We will do our best to make some changes 
in this budget proposal obviously and to improve the situation 
in Indian Country. That is our mandate, and that is our intent.
    Ms. McCollum. Mr. Chair?
    Mr. Calvert. Yes, Ms. McCollum.
    Ms. McCollum. Before you close this off, I want to say, the 
chairman and I asked some pretty tough questions, and as you 
said, it is a pretty tough budget. But we have to put them out 
publicly to send a signal to the White House of our 
displeasure. But I think Mr. Cole was right in saying our 
displeasure is not directed at the fine work that you do as 
Federal employees working for the Indian Health Services.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you. This concludes our hearing on the 
fiscal year 2018 budget for Indian Health Service. Again, I 
want to thank you all for your testimony today and your efforts 
to lead the Indian Health Service during a time of great change 
and obviously even greater challenges.
    This hearing is now adjourned. We will move right into our 
next hearing with the Government Accountability Office and a 
closer look at tribal programs under our jurisdiction that GAO 
has recently added to the biannual high-risk report.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Wednesday, May 24, 2017.

OVERSIGHT HEARING--HIGH RISK AMERICAN INDIAN AND ALASKA NATIVE PROGRAMS 
                    (EDUCATION, HEALTHCARE, ENERGY)

                               WITNESSES

MELISSA EMREY-ARRAS, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME 
    SECURITY TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE
KATHLEEN KING, DIRECTOR, HEALTH CARE TEAM, U.S. GOVERNMENT 
    ACCOUNTABILITY OFFICE
FRANK RUSCO, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT TEAM, U.S. 
    GOVERNMENT ACCOUNTABILITY OFFICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert [presiding]. Good afternoon, and welcome to 
this oversight hearing on programs within the subcommittee's 
jurisdiction that the Government Accountability Office recently 
added to its list of highest risk programs across the Federal 
government.
    Since 1990, the GAO High Risk List has highlighted those 
government programs most in need of attention from Congress and 
the executive branch. The High Risk List differs from most GAO 
reports because once a program is put on that list, it has to 
earn its way off. Some programs have been on the list since its 
inception, leading some to draw the comparison to the 1977 
Eagles hit Hotel California, where you can check out anytime 
you like, but you can never leave. [Laughter.]
    However, since 1990, 23 other programs have earned their 
way off the list, and so doing that have turned into models of 
how government should work, and saving billions of dollars 
along the way. Today we will talk about three more programs I 
expect to soon follow in those footsteps.
    Since 2011, the GAO has published 14 reports pertaining to 
education, energy, and healthcare programs that serve federally 
recognized Indian tribes and their members. Those reports 
contain 41 recommendations for improvements. Thirty-nine 
recommendations are still open. Failure to implement these 
recommendations has literally put people's health and safety at 
risk, which is precisely why these programs have been added.
    For example, the GAO discovered that the Department of 
Interior has failed to conduct annual health and safety 
inspections and make repairs at many of the 185 elementary and 
secondary schools under its purview. Also, for example, the GAO 
found that the Indian Health Service provides inadequate 
oversight of its hospitals, and is unable to ensure that 
patients receive quality care. At a few locations, the 
situation has gotten so bad that the Centers of Medicare and 
Medicaid Services has cited the hospitals for putting patient 
health and safety in imminent jeopardy.
    This subcommittee has stepped up its efforts in recent 
years to improve the situation in Indian Country, particularly 
in the very areas we hear about today. To some, the addition of 
these programs on the High Risk List may seem like a setback. 
But I see this is an opportunity not only to raise awareness 
and support throughout Congress, but also to challenge this 
subcommittee and the new Administration to provide the 
resources and the oversight to get these programs back on 
track, and the GAO has provided the roadmap to get there.
    Now, some of our colleagues in Congress have argued against 
funding programs with significant management problems. I 
certainly can sympathize, and in some cases even agree. But in 
other cases, management problems are a function of limiting 
funding. We all know that it takes money to hire and retain 
good people. The programs we will hear about today are 
challenged by both poor management and limited funding. Teasing 
these apart so that we can chart a responsible path forward is 
the challenge before us today.
    We are joined today by three members of the GAO leadership 
team who will testify about their important work.
    First up will be Melissa Emrey-Arras, director of Education 
Workforce and Income Security, who will discuss education. 
Next, we will hear from Frank Russo--Rusco I should say--
director of National Resources and Environment, who will 
discuss the BIA energy program. And last, but not least, 
welcome Kathleen King, director of Health Care, to talk about 
the Indian Health Service.
    We will hear opening statements from each of you before 
turning to questions and discussion with members of this 
committee. Before we begin, though, I would like to first ask 
our distinguished ranking minority member, Ms. McCollum for any 
opening remarks she may wish to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman, and I would like to 
join you in welcoming the panel to the subcommittee this 
afternoon, and fully would like to acknowledge your remarks and 
agree with them.
    It is essential that the Federal government meet its trust 
responsibilities to Native American Indians, and oversight of 
Indian programs is a very important piece to ensuring that 
these commitments are appropriately met. I am very pleased that 
the GAO has been closely investigating the numerous challenges, 
as the chair put it, facing the delivery of healthcare and 
education, especially by the Bureau of Indian Education and the 
Indian Health Services, who we just heard from.
    The management issues and lack of accountability are 
reoccurring themes, and GAO has really helped to document the 
need for reform. This critical need was amplified in February 
when GAO added the Federal management of Indian programs to its 
High Risk List, something that was appropriate and long 
overdue, in my opinion.
    Just last week, this committee held two days of tribal 
public witness hearings. We listened and learned about the 
unthinkable hardships in Indian Country, and we also heard the 
message loud and clear. More work is needed to be done to 
improve healthcare and education services.
    But it is very unfortunate that this Administration has put 
forward a budget that cuts Indian programs. Indian Health 
Service is cut by $300 million, and the Bureau of Indian 
Affairs by $372 million. These cuts, in my opinion, are cruel 
and they are unnecessary, and, if enacted, would jeopardize the 
health and wellness of our Indian brothers and sisters.
    So, today's hearing, Mr. Chair, is very timely, and I think 
the GAO will continue to be an important resource and partner 
as we carry out our oversight role. The findings from your 
investigations that we are going to hear from help both 
agencies that this committee works with, and it will help the 
committee to start fixing broken programs, or should I say 
broken promises. I look forward to discussing the findings 
today.
    Thank you, Mr. Chair, for the courtesy of an opening 
statement.
    Mr. Calvert. Thank you. We are going to recognize Ms. 
Emrey-Arras. Welcome back to the subcommittee, and thanks again 
for being here today. You are recognized for 5 minutes to give 
your testimony.

                   Opening Remarks of Ms. Emrey-Arras

    Ms. Emrey-Arras. Thank you, Chairman Calvert, Ranking 
Member McCollum, and members of the subcommittee. Thank you for 
inviting me here today to discuss a new area we added to our 
High Risk List this year, improving Federal management programs 
that serve tribes and their members. We added this area to our 
High Risk List this past February in response to serious 
problems in Federal management and oversight of Indian 
education, energy, and healthcare programs, which were 
highlighted in several of our prior reports.
    There are nearly 40 recommendations from these prior 
reports that have not been implemented. Overall, our High Risk 
Program has served to identify and help resolve serious 
weaknesses in areas that involve substantial resources and 
provide critical services to the public.
    In order for this area to be removed from our High Risk 
List, which is our ultimate goal here, Interior and HHS need to 
show improvement on five key elements, and we have a star here 
that demonstrates the five separate areas. Those are leadership 
commitment, having capacity to resolve risk, having an action 
plan, doing monitoring, and demonstrating progress.
    Since this is a new area, it does not have a star created 
yet for it. However, in our next High Risk Report in 2019, we 
will have a star specific to this new area, which will show the 
actual status at that point in time and whether or not any 
progress has been made.
    I will now highlight some of the concerns we have with 
Indian education.
    In our High Risk Report, we identified serious weaknesses 
in BIE's oversight of school spending. For example, in 2014 we 
found that BIE did not have written procedures and risk 
criteria to ensure that schools use Federal funds to educate 
students. Further, we found that BIE staff lacked expertise and 
training to effectively oversee school spending. As a result, 
we found several instances of misused funds, including over $1 
million for one school that was improperly transferred to 
offshore accounts.
    We also identified unsafe school conditions in our High 
Risk Report. Specifically, in 2016, we found that deteriorating 
facilities and equipment contributed to unsafe conditions at 
BIE schools. At one school, we found seven boilers that failed 
inspection because of safety hazards, such as elevated levels 
of carbon monoxide and a natural gas leak. And you can see the 
failed inspection tag there. Though they endangered student 
safety, most of the boilers were not repaired until 8 months 
after the inspection.
    In addition to our prior work, we also have two new reports 
for this subcommittee that are being released today that raise 
new concerns about safety inspections and school construction. 
In terms of safety inspections, we found that no office 
routinely monitors the quality of inspection reports, and we 
found that 28 of 50 inspection reports we looked at were 
incomplete, inaccurate, or unclear.
    For example, we found reports in which inspectors did not 
inspect all of the buildings. In one of the reports we 
reviewed, an inspector noted that he did not inspect a dorm 
because he did not have the key. The head of the safety office 
told us that this is not a valid reason for not inspecting a 
building. We also found cases of inspectors incorrectly giving 
school officials a year to fix broken fire alarms instead of 
the required 24 hours. Additionally, inspectors submitted 
nearly a third of all inspection reports to schools late after 
Indian Affairs' required 30-day timeframe. Some reports were 
more than 4 months late.
    In response to our new findings, we are recommending today 
that Interior monitor the quality and timeliness of school 
inspection reports.
    In a separate report also being released today for this 
subcommittee, we found significant problems with the school 
construction process. Specifically, we found that Interior has 
not consistently used accountability measures to ensure that 
construction projects are completed on time, within budget, and 
meet school needs.
    We found that of 49 recent projects, 16 were 3 or more 
years late, one was almost 10 years late, 10 were 20 percent or 
more over budget. Interior does not always use accountability 
measures, such as warranties, to have builders replace 
defective parts because project managers do not always 
understand how to use these measures. So, the warranty 
provisions may be in the contracts, but they are not being 
employed.
    As a result, we are recommending today that Interior 
develop guidance to help staff learn how to use accountability 
measures in school construction projects. We plan to monitor 
Interior's efforts to address both our prior recommendations 
and the 12 new recommendations in today's reports.
    Thank you.
    [The statement of the U.S. Government Accountability Office 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Calvert. Thank you.
    Next, Mr. Rusco.

                   Opening Remarks of Mr. Frank Rusco

    Mr. Rusco. Thank you, Chairman Calvert, Ranking Member 
McCollum, and members of the subcommittee. I am also grateful 
to be here today to discuss BIA's management of its 
responsibilities regarding energy development on tribal and 
Indian lands.
    As you know, the United States has recognized the sovereign 
status of tribes, and currently recognizes 567 tribes as 
distinct independent political communities that possess certain 
powers of sovereignty and self-government. In 2016, Congress 
founded an Indian Trust Asset Reform Act that through treaties, 
statutes, and historical relations with Indian tribes, the 
United States has undertaken a unique trust responsibility to 
protect and support Indian tribes and Indians.
    These fiduciary responsibilities reflect commitments made 
in treaties and agreements under which Indians surrendered 
claims to vast tracts of land to the benefit of the people of 
the United States. This history has established enduring and 
enforceable Federal obligations to which our national honor has 
been committed.
    So, I raise that just because I think context is important 
here. And I am going to say a lot of things about the 
performance of the BIA in meeting its fiduciary 
responsibilities, and it is not meeting its fiduciary 
responsibilities very well. But I believe this context is 
essential in our work to keep an eye on that, that the high-
risk area is about what the agencies are doing. And our efforts 
are to improve what the agencies do with the money they have. 
And having listened to the statements of the committee members 
in the last hearing, I understand that that is not the whole 
story. But I want that context to be reflected in the work we 
do.
    I have two handouts that I want to talk about just briefly, 
and one of them is in the hearing statement--this one is--and 
the other one is not.
    So, you know, there are a lot of energy resources on Indian 
and tribal lands, and so the first handout, that is a map of 
the United States of the lower 48. And it shows shale oil and 
gas resources and then where they intersect with tribal lands. 
And there are more than 20 tribes that have oil and gas 
resources, just shale oil and gas resources, on their lands, 
and several of them have coal.
    And in addition, something that is not on the map is that 
more than 200 tribes have the capacity needed to create utility 
scale renewable power generation. And, you know, this is 
important because, you know, Federal funding is scarce, and it 
always has been and always will be. And tribes that have made 
improvements often have done that by developing some kind of 
economic base, and these opportunities represent that.
    And so, when I talk about how the agencies are not doing 
their jobs effectively enough to help tribes that choose to 
develop these resources, that is what is at stake, the tribes' 
ability to develop their own resources, their own economic base 
in order to actually take over some of the responsibilities. 
And when they do, they can do a better job perhaps.
    So, tribes and their members can determine how to use their 
energy resources, but many of those resources are held in trust 
or a restricted status. And because of that, BIA must review 
and approve leases, permits, and other documents required for 
development.
    We found many deficiencies in BIA's management of Indian 
resources in several areas. And before I get into a couple of 
examples, I will say that we put the Interior's management of 
oil and gas development on Federal lands on the High Risk List 
in 2011 because there were many of the same deficiencies we 
found.
    And we have seen since then a lot of progress. Interior has 
made a great deal of progress in resolving a lot of those 
recommendations that got them on the High Risk List, and I 
would like to talk about some of those in this hearing because 
those are things that if the Agency does these things, they can 
solve some of the problems, and they are not all related to the 
budget. Well, they are related to budget.
    Let me be specific. One of the biggest problems is a lack 
of the staff with the right skills in the right place at the 
right time to review permits and environmental assessments, or 
do environmental assessments, and to do the kinds of 
permitting, evaluation, and realty to figure out who owns what 
resources. And we find that all over on Federal lands.
    So, BLM has struggled with having the right staff with the 
right training. And the problem is they are competing for some 
of these positions with industry, so they are out there trying 
to hire petroleum engineers, and industry is going to pay 
$100,000 more a year. So, what do you do, and how do you fix 
that?
    Well, you know, government employment is not private 
employment. There are some benefits, so you have to do the best 
you can with those. And Interior, since we put them on the High 
Risk List, has gone to OPM, and they have gotten special 
authority to pay more for key areas, like petroleum engineers 
or natural resource experts, who otherwise would not go and 
live at some small regional town with a small regional office 
because, you know, where would their kids go to school? Where 
would their spouse find employment?
    But they have gone and they have gotten extra pay 
authority. They have used the tools. They did that through OPM. 
They also went to Congress and they asked for money to pay for 
more staff, and they got that for offshore staff, and they got 
some extra appropriations. They use that effectively. They 
hired more people, and they closed some of those gaps.
    And when they did that, we said, all right, you are showing 
leadership commitment. You are doing the things you can do. You 
are asking Congress for help when you need it, and so they are 
making progress on their star. And so, I have every reason to 
believe that BIA, with the right leadership commitment, could 
do some of the same things.
    So, I will not take up a huge amount of time with examples 
that we found, but I want to talk about one thing in 
particular, and that is in response to tribal requests for 
increased coordination across agencies. And if you look at the 
second handout, you can see there are 14 agencies and 22 
activities that are related to energy. And that does not even 
include all the State agencies and bodies you have to deal with 
when you want to develop energy. And then, there is the tribal 
government.
    So, it is immensely more complex than even doing this on 
Federal lands, which is more complex than doing it on private 
or State lands. And from a regulatory basis, it is a mess. And 
Interior has taken some steps, initial steps, to form a new 
office, the Indian Energy Service Center. This is a great idea. 
It is a great idea because where there is a complex regulatory 
framework, you really need experts in a centralized area who 
can resolve problems and give good advice to people who are 
trying to get things done. And I will give you an example.
    The Federal Energy Regulatory Commission is the final 
permitting authority for interstate pipelines. And sometimes, 
depending on where you are going and what things you are 
crossing, whether you are crossing parks or water, navigable 
waters or whatever, you might be dealing with 13 other 
agencies. And FERC is a one-stop clearinghouse for information 
on how to get through that regulatory process.
    So, if you are going to build a pipeline, you go to FERC 
first. You do a pre-application. They tell you you need to go 
here, you need to do environmental assessments here, you need 
to go over here, you need to check with the Fish and Wildlife 
Service. And not only that, but FERC coordinates with those 
agencies to make sure that that those things are getting done. 
And in Indian Country, an application can come to one of those 
resource agencies, and people, they just sit on it, and it 
takes forever to get things going.
    So, this Indian Energy Service Center, if it is done 
correctly, could provide some of the solution. But the problem 
is when they set it up, they did not set it up to try to 
include all the agencies that are involved. So, we recommended 
that they do coordinate with those, and they have taken steps 
to start to build some relationships and agreements.
    The last thing I will say about that, and then I will 
conclude my statement, is that to fully staff that body will, 
as they envision it with 48 FTEs, would take about twice what 
their appropriation has been in the last couple years, and they 
have asked for twice what they got. And so, it does not mean 
that they cannot do good with what they have, but I think to 
get the most out of it, they are going to keep asking to fill 
these spots. And, you know, what happens after that is none of 
my business. [Laughter.]
    And I am happy to answer any questions. Thank you.
    Mr. Calvert. Thank you. Thank you for your testimony.
    Ms. King.

                  Opening Remarks of Ms. Kathleen King

    Ms. King. Chairman Calvert, Representative McCollum, thank 
you so much for inviting me to be here today to talk about our 
work on the Indian Health Care Service. And much of what I was 
going to say has already been said by you and members of the 
committee. [Laughter.]
    So, I am going to abbreviate my remarks and just focus on a 
few key things.
    Since 2011, we have issued 7 reports on IHS. We made a 
number of recommendations. Some of them have been implemented, 
but most have not. And we have 14 outstanding recommendations.
    Our reports have found serious shortcomings in the quality 
of care rendered at IHS facilities and a lack of oversight. 
What IHS does is devolve a lot of responsibilities down to the 
area offices without national standards, and there is not a 
feedback loop coming back to headquarters for them to know what 
is going on.
    So, they do not know what is going on with quality of care, 
and they also do not have any standards or way of knowing what 
is going on with regard to patient wait times for primary care. 
We think that is a serious shortcoming, and that they should 
have national standards, and they should have a way of knowing 
what is going on out in the field.
    We have also done some work on the PRC program and found 
some shortcomings there as well. There is a formula, a base 
formula for the PRC program that dates back to the 1930s. No 
one can tell us the origin of this formula, but it results in a 
lot of disparities across the areas ranging from when we did 
our work to a low of $299 per capita to $801 per capita. This 
is inequitable because IHS could not say to us that there were 
differences among the areas in terms of health needs.
    We made a matter to Congress some years ago saying that 
Congress should direct the IHS to develop a more equitable 
formula for the PRC program, and legislation was introduced on 
that, but not enacted.
    IHS did adopt another one of our recommendations which we 
thought was very significant. Under the PRC program, it used to 
be that they paid physicians and other non-hospital providers 
what they charged. In some cases, they negotiated contracts or 
had discounted rates, but in most places they were paying what 
physicians charge, and that is not typical in the health 
insurance industry. We made a recommendation that they reduce 
the payments to the same as Medicare paid, and they did adopt 
that, and as part of that, we estimated that they would save 
$32 million. So, that was a positive step.
    We have also made a number of recommendations to improve 
the management of the PRC program and to encourage IHS to 
expand their outreach efforts to get people enrolled in other 
third party insurance, such as Medicaid, because when people 
enroll in that insurance, two good things can happen for IHS. 
One, if they seek care at an IHS facility, IHS can bill for 
that revenue and keep it, and that enhances their PRC revenue. 
Or if someone takes their Medicaid or other insurance and goes 
elsewhere and gets care, that reduces the demand on IHS. So, 
that is another important step.
    With that, I think I will stop because I know you will have 
questions for us.
    Mr. Calvert. Thank you for all your testimony. It is 
obviously extremely concerning what is going on out in Indian 
Country. We will have a number of questions for the record, but 
I will lead off with a couple of questions that seem to be 
appropriate.

                 GAO HIGH RISK REPORT: TRIBAL PROGRAMS

    I think I will start with you, Melissa. What changed from 
2015 to 2017 that prompted GAO to add tribal programs the list?
    Ms. Emrey-Arras. I think the number of reports that we had 
during that timeframe and the significance of those findings 
really caused concerns for us, and made us realize that this 
was really a high-risk issue. And it did not help that there 
were so many open recommendations that had not been resolved.
    Mr. Calvert. How frequently does GAO meet with the agencies 
to monitor progress?
    Ms. Emrey-Arras. We talk with the agencies regularly about 
their recommendations and the like. I would say at a minimum, 
at least every 6 months, but it is frequently quite often more 
than that. We often talk with them in the course of our ongoing 
studies as well.
    Mr. Calvert. Okay.
    Mr. Rusco. And in addition to that, being on the High Risk 
List means that that there will be a meeting with OMB, the 
Secretary of the Interior, the deputy secretaries, and all the 
assistant secretaries of the relevant bureaus. And in that 
meeting, we will talk about where they are in high risk, and 
they will talk about what they are doing to get off it, and OMB 
will be there to try to add some accountability. So, that also 
happens.

                         ASSISTANCE TO AGENCIES

    Mr. Calvert. When asked, does GAO provide any help? Do you 
provide any help if some of these agencies ask for help?
    Mr. Rusco. Well, so we provide our recommendations, and we 
will clarify what we mean if asked. But we cannot really tell 
them in detail how to resolve problems, and then still come 
back later and audit them and say whether they are doing a good 
job. [Laughter.]
    So, we are careful about that. [Laughter.]
    Mr. Calvert. You know, you have got a couple of these 
charts up. There is one that looked like----
    Ms. McCollum. It is a nightmare.
    Mr. Calvert. It looks like Obamacare, does it not? 
[Laughter.]
    No, I am just kidding.
    Ms. McCollum. Well, the ACA works. [Laughter.]
    Mr. Calvert. But anyway, this extremely complicated chart. 
How do you explain that? There has to be some efficiencies that 
can be found. So, you do not give any advice, but where do they 
go? I mean, this has got to be cleaned up. So, who do they work 
with to do that?
    Mr. Rusco. You know, this is a case where I think there are 
two things. We need to look further into that, you know, and 
see where there might be efficiencies, and specifically where 
coordination could resolve a problem, or where there is maybe 
multiple agencies doing something.
    But I will give you one example. There are two Indian 
energy loan guarantee programs, and one is in Interior, and one 
is in DOE. DOE's has never been funded, but Interior's is 
funded. DOE has loan programs. They have all the expertise to 
run loan programs. And we have not looked at the Interior's 
loan programs, but I have looked at DOE's loan program since 
their inception in 2005, and it took them forever to get up to 
speed. And when they finally did, they have a solid group of 
professionals who can evaluate loans and make them, but that 
took years to do.
    And so, one of the things that we would look at is do you 
really need two Indian energy loan guarantee programs, or could 
you use the resources from one and save some money that then 
that money could go to increasing the amount of loans, because, 
you know, honestly, the annual amount in the Indian Energy Loan 
Guarantee Program, that would fund one large energy project. 
And so, you know, you could use all the money you can get.
    And so, we have not looked at that, so that is not a 
recommendation, but that is the kind of place we would look. We 
would look for that sort of efficiency.

                           OFFSHORE ACCOUNTS

    Mr. Calvert. This goes to management, and that goes to 
leadership and finding somebody maybe outside to look at this 
entire process and improve upon it. One last question. $1 
million dollars to an offshore account? Explain that.
    Ms. Emrey-Arras. Sure. It actually happened in 11 separate 
transactions, and it went to three Asian countries, but 
primarily Indonesia. And they were not able to recover the 
money.
    Mr. Calvert. And who did this?
    Ms. Emrey-Arras. The thought was that it might have been 
some kind of hacking or cyber, you know, crime. However, the 
bank accused the school of not having properly secure computers 
to do these transactions, and so the account was compromised.
    Mr. Calvert. So, nobody----
    Ms. Emrey-Arras. Nobody was held, yeah. So, nobody was 
arrested. In the end, the money was not returned. And we have a 
concern because there is limited funding, as we have been 
talking about, and you want to make sure that the funding that 
is provided goes to schools and it is not diverted. And because 
of that, we made recommendations to better oversee school 
spending to guard against those kinds of problems.
    Actually, in 2014 we made recommendations to have basic 
written procedures to oversee school funding to make sure it is 
being spent appropriately, and that has yet to happen.
    Mr. Calvert. Wow.
    Mr. Joyce. Mr. Chairman?
    Mr. Calvert. Yes?
    Mr. Joyce. Could you yield for a second?
    Mr. Calvert. Sure.

                           RECOVERY OF FUNDS

    Mr. Joyce. Does not the FBI or other law enforcement 
agencies assist you in the recovery of such funds? I mean, if 
it was taken from a bank account, obviously it had to be 
transferred to some other account.
    Ms. Emrey-Arras. The FBI was brought in by the Interior's 
IG office to look into this, but they were not able to identify 
the individuals or obtain the money in the end.
     Voice. So, it could have been an outside job.
    Mr. Calvert. Amazing. Ms. McCollum.

                         STAFFING AND TRAINING

    Ms. McCollum. Thank you very much for your testimony, and 
thank you for working with the agencies because I think the 
Indian programs within the Department of Interior, these are 
people who get up every morning and want to do the best job 
that they can. One of the challenges that is becoming very 
apparent, besides facility maintenance and backlog, is 
staffing. I am just going to roll a couple things out, and then 
have you all respond.
    So, one of the things that became very clear in one of the 
reports that we received on the inspection for schools is the 
BIA might have one person who works on this in the Agency. They 
have hundreds and hundreds and hundreds of miles to cover, and 
they have multiple hats to wear. And they really have not gone 
to school to become a really good inspector of buildings, but 
then that becomes their job. Or we have things that are 
contracted out, but we do not have the personnel in place to do 
a double check of what is happening with the contractor.
    To your point about warranties, I worked in the private 
sector for years. I worked for a major retailer, and I dealt 
with carpet warranties and furniture warranties. And I will 
tell you, it is a full-time job, and you have to be on it 24/7. 
Here again, if you do not have the school maintenance person in 
Indian Country really knowing how to deal with some of these 
warranty issues, they can be very difficult to resolve. Some of 
this is staffing and some is training, so that I would point 
out in education a little bit.
    Staffing and training and what you were saying about 
energy, Mr. Rusco, which is trying to get people to stay and be 
retained in the Agency, as well as understanding all the 
quagmire from who to report to who. It would seem to me that 
there are State models out there. You mentioned FERC. There are 
models out there that Indian Country can look at, or work with, 
or sit down and have a roundtable with the agencies on how to 
streamline and move forward. Having timely inspections, and 
permits, and everything are very, very important.
    But there are some things that are going to be going on in 
the EPA budget regarding permits and timely inspections. I am 
going to follow up to see if there is something I should be 
watching in that budget. They are in Indian Country as well, 
and I am kind of concerned about their permitting.
    Ms. King, I am going to end with this. This Administration 
has given a directive to Indian Health Services, and Indian 
Affairs and Education, and all the rest of the Agencies to 
reduce staffing. They have huge gaps, holes, not enough 
positions filled in Indian Health Service, and problems 
retaining and recruiting people. Is part of your 
recommendations to beef up and get the right people doing the 
right kind of staffing and figure out how to retain them? 
Because I, quite frankly, think I need to write a letter to the 
White House saying, in this particular area, to ask people to 
be doing a workforce reduction is pound foolish.
    Ms. King. During the course of our work, IHS has told us 
that not having the right staff is one of the key impediments 
to quality of care and access to timely primary care. Some of 
our work really documented the change in leadership in the area 
offices and in key positions. We also have some ongoing work 
now where we are looking at staffing issues. And we hope to 
have some constructive advice that comes out of that, creative 
solutions or things that they can do. But certainly having the 
staff, especially the medical staff, in these facilities is 
important.
    Ms. Emrey-Arras. I would add on the education front, we 
have similar concerns in terms of workforce planning. We have 
two outstanding recommendations regarding workforce planning to 
make sure that they have the right staff in the right locations 
to do the work. We had people telling us that they were not 
accountants, they did not know how to review single audits, and 
yet that was their job. So, that was a concern of ours.
    In terms of the training issue that you brought up and 
inspections, in the report that is released today we found that 
33 out of 39 staff with safety responsibilities did not 
complete required training. So, they are not even doing the 
training that is provided by the Agency and required by the 
Agency.
    Ms. McCollum. But for how many of those individuals was 
that not their only job? That is part of my point here. If 
there are Federal employees not doing their job, they need to 
be held accountable to it. But sometimes we are asking the same 
Federal employee, whether it is in Indian Health or Indian 
Education, to do multiple jobs. We are asking these people to 
perform superhumanly. Is that part of your report, too?
    Ms. Emrey-Arras. That does cover individuals who may have 
responsibilities in addition to safety issues.
    Mr. Rusco. With respect to the energy side, there are other 
examples of agencies doing more with less by being creative. 
So, BLM has repeatedly, because of the boom and bust nature of 
oil and gas, they have repeatedly been sort of mis-staffed in 
regional offices. So, when the shale boom came, all of sudden 
they do not have anybody in North Dakota. They have tons of 
people in Wyoming. Shale gas just drove coal-bed methane gas 
out of business, and so all of a sudden Wyoming has people in 
BLM offices with nothing to do. North Dakota does not have 
people, and they have all these permits and all these 
inspections to do.
    And so, they implemented a pilot program to try to move 
people into hotspots and take care of business, and we have not 
looked at that closely enough. When we looked at it, and it was 
a very successful pilot. They should continue that, and I think 
BIA can learn from that. But we have not looked specifically at 
BIA to see how well, that centralized model works where you 
have people that can go for a specific time and take care of a 
workload problem. But I think that is a very promising 
potential.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Simpson.

              BUREAU OF INDIAN EDUCATION: SAFETY CONCERNS

    Mr. Simpson. Thank you. Could you put the star back up? I 
know it is there somewhere.
    Ms. McCollum. You do not want the yellow tag?
    Mr. Simpson. No, I think I have seen the yellow tag. Did 
they use that school for the 8 months that they had the yellow 
tags up?
    Ms. Emrey-Arras. Yes, and there were students involved.
    Ms. McCollum. They probably should have been red tagged.

                               LEADERSHIP

    Mr. Simpson. That is amazing. As I read your report last 
night, and I did read all of it. That was an amazing 
accomplishment I think. [Laughter.]
    The one thing that came to my mind as I read in all three 
of these areas, and it seemed like there was one common theme 
of this star and this leadership commitment. And if you look at 
the incredible turnover within these agencies, whether it is at 
the local level, mid-local level, even in Washington, D.C., has 
anybody looked at why is there such a huge turnover in these 
programs of leadership, and how do you keep a leadership 
commitment that is continually turning over?
    Ms. Emrey-Arras. In terms of BIE issues, we have reported 
on the significant turnover and cited that as a management 
challenge. As many of you know, the prior director of BIE was 
removed from his position last year due to ethics concerns.
    Mr. Rusco. So, Interior faced this when they were put on 
the High Risk List for oil and gas management and Federal 
lands. We think that they have largely solved that leadership 
issue with one Bureau's exception, but they did it by 
institutionalizing the ownership, so, of the issues. So, they 
said, all right, this is your position. You own these issues. 
You own the recommendations. And once that is institutionalized 
and that is part of your job description, if you have turnover, 
that is still part of your job description.
    And it will not solve everything. It will not solve bad 
acting. But if you get somebody who has got a job and here is a 
description, and it is written into it that this is what you 
do, then I think that is how they have dealt with it. And they 
have a lot of turnover, too, but they have been making great 
progress.
    Mr. Simpson. Go ahead.
    Ms. King. With respect to IHS, I think they have been 
without permanent leadership for about 2 years. They had an 
acting director, I believe, for about the last year of the 
Obama Administration, and there are no, as we saw today, no 
permanent people in place yet in this Administration. So, that 
is a long time with temporary leadership.
    And the other thing that we saw in the area offices, when 
there was a problem when one area, they moved people around to 
go to that area to fix the problem there, to fix the crisis. 
But it results in a big churn among the area offices.

                           STAFFING: TURNOVER

    Mr. Simpson. Have we have gone out and asked people that 
left why they left, what is driving them to leave that field 
and go into something else? What is the cause of the turnover? 
I mean, we have talked on this committee with people who worked 
in or ran IHS, just to give background information, and the 
stories we have heard from people that used to work there years 
ago. Has anybody gone out and done that?
    Ms. King. I have not.
    Mr. Rusco. No.
    Ms. Emrey-Arras. No.
    Mr. Simpson. Well, it would be interesting to find out what 
it is. But, you know, my wife often makes recommendations of 
things that I should do that I do not think are in my best 
interest. [Laughter.]
    Sometimes agencies might look at you and say that you are 
the data geeks and all that kind of stuff, and so you make all 
these recommendations. Do they ever look at you and say, that 
is neat on paper, but it is not the real world that we live in 
and try to deal with every day, consequently we are not going 
to implement that, and that is why 39 out of the 41, or 
whatever it is, recommendations have not been implemented. How 
do you work that out between agencies to try to implement your 
recommendations?
    Mr. Rusco. Well so, we try very hard not to make 
recommendations that we have not got really good ideas are 
implementable. And we do that by getting past the leadership 
and onto the ground and find out. Like, you know, a lot of our 
recommendations come from the Agency. We talk to them. They 
tell us what is wrong. It is amazing how much they admit when 
you go out in the field and talk to people.
    They know where their problems are, and they are trying to 
solve them, too, but it gets back to the leadership issue, and 
so, it goes all the way to the Secretary of Interior. If the 
Secretary of Interior does not put in the budget I need more 
resources for Indian programs, well then, where do you go? I 
mean, obviously it is up to OMB, too, right? You know how it 
works a lot better than I do.
    Mr. Simpson. Unfortunately, yeah.
    Mr. Rusco. And so, but that leadership has to come from the 
top. It has to go down to the bureaus, and then the bureaus 
have to institutionalize the ownership of the problem, and then 
you have got a commitment. And that is when you can see 
progress, at least in my experience.

                          CONGRESSIONAL ACTION

    Mr. Simpson. Well, if that leadership is not coming from 
the top or has not come from the top, and I am not trying to 
point fingers at anybody. But if it does not come from the top, 
what can this committee do? Can we write into legislation, into 
our bill some of these recommendations and require the agencies 
to do some of those things that need to be done?
    Ms. Emrey-Arras. Yes.
    Mr. Simpson. Would you recommend that we do some of those 
things that maybe are the harder ones to get done or that get 
more resistance?
    Ms. Emrey-Arras. Yes. I think simple things, like having 
written procedures to oversee school spending, should be done 
immediately, not languish for years.
    Ms. King. I think things like hearings, too, are helpful 
because what I find is that in our areas, occasionally IHS has 
disagreed with us and said, nope, we are not going to implement 
that recommendation. But more frequently they agree, but they 
do not do it.

                     INDIAN LOAN GUARANTEE PROGRAM

    Mr. Simpson. One more thing. Since I chair the Energy and 
Water Appropriations committee, we will look at the possibility 
of including the Indian Loan Guarantee Program under the 
direction of the DOE Loan Guarantee Program. I know that 
Secretary Moniz recommended some of that in the last budget, 
and we just did not feel we had the money to do it or did not 
feel confident of what they were trying to do. So, but I think 
that is a valid recommendation.

                             MEDICARE RATES

    Here is one thing I will say, though. And, Kathleen, you 
mentioned that one of the recommendations that had just been 
implemented by one of the programs was that they pay the 
Medicare rate to doctors instead of the rate that doctors were 
charging. Has anybody followed that up to see what the 
accessibility to doctors has been? Has that decreased 
accessibility?
    And the reason I ask that, I was a dentist in the real 
world, and while I am not talking about Medicare, I will tell 
you that if somebody said we are only going to pay the Medicaid 
rate, which is what dentists usually deal with, if I only 
operated on Medicaid patients, I would be out of business to 
cover the costs.
    Ms. King. We actually----
    Mr. Simpson. So, I mean, you have to look at accessibility, 
too.
    Ms. King. We actually did some sounding out on that before 
we made that recommendation, and we asked a number of providers 
what do you think about this. And, some people said, IHS should 
have done this a long time ago. The rates that are being paid 
are too high.
    But we did make a recommendation to IHS to follow up and 
make sure that access is maintained because that is an 
important aspect.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you. Ms. Pingree.

                BUREAU OF INDIAN EDUCATION: CONSTRUCTION

    Ms. Pingree. Thank you, Mr. Chair. Thank you very much for 
the work you have been doing and for your testimony. It has 
been very educational and much appreciated to hear the work 
that you are doing. And I am sure where we can yield some 
improvements, it will be good.
    I do not have a lot of questions or comments to make. 
Certainly some of the concerns about Indian Health and Indian 
Education have been problems in our State. We do not have a 
drop of energy besides wind in our State. That is not on your 
list.
    I will just add that in terms of education we have been 
concerned about the role that the BIA plays in the Bureau of 
Indian Education. We have one facility in the pipeline in our 
State, and the Committee has been very helpful with that, the 
Beatrice Rafferty school, which is a Passamaquoddy school. It 
has taken us 3 years to get from the design stage to the 
construction stage, and it still does not look like there will 
be a groundbreaking until 2019.
    In any other circumstance in school construction, it would 
not look like that. Every time there has been a hitch, we have 
followed up and tried to figure it out. It has been 
bureaucratic, intractable. It just does not make any sense. 
Even when there are, differences in the rules or everything 
else, you are just thinking, does everybody put a roadblock 
everywhere they can to keep this from happening? This is a 
school that was funded, but, funding delays cost money. Little 
glitches all of a sudden result in more money because somebody 
interprets one thing one way.
    You look like you might have a comment.
    Ms. Emrey-Arras. I would just say that the report that we 
are releasing today does get to that issue of construction 
delays. And one of the things that we heard repeatedly was that 
Interior was not providing enough technical assistance and 
oversight to tribes on construction projects, and that they 
were not responding in a timely way to requests, which was 
resulting in extensive delays.
    Ms. Pingree. So, we will look forward to reading the 
report, but that was what we have experienced from observing 
this process.
    As with most schools, and everyone on this Committee knows 
it better than me, these are already schools generally that are 
condemned, that have, unhealthy conditions, uninspected 
boilers, mold, all kinds of other problems already. When it 
takes long delays, you have got students locked in places that 
they should not be, and teachers trying to teach under 
inadequate situations. Communities feeling really bad about the 
situation, which leads to all the kinds of health 
complications, and, suicide rates and all kinds of other things 
when you are compounding problems, especially starting with 
kids.
    So, thank you for your work. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Joyce.

            BUREAU OF INDIAN EDUCATION: CONSTRUCTION DELAYS

    Mr. Joyce. Thank you, Mr. Chairman. And then following 
along those lines, it seems like there was an 8-month interval 
between the initial finding of the problem and anything being 
done. Can you explain why there was such a delay?
    Ms. Emrey-Arras. I do not know why there was a delay, but 
this is not unusual. There are frequently issues where hazards 
are identified and they are not remediated. And in our prior 
work, we found that it was so extensive that it was not 
uncommon to have the next year's inspection find the same 
problems as in the previous year's inspection.
    We did make a recommendation for Interior to provide 
assistance to schools to be able to actually fix the problems 
and help them build capacity so that they know how to do that. 
But that recommendation remains unimplemented.
    Mr. Joyce. The funding exists for it. There is just a 
failure to do so at the local or at that one individual level. 
Is this occurring in other schools?
    Ms. Emrey-Arras. It is occurring at multiple schools in 
terms of identified problems that have not been fixed and 
remain for years. And in terms of the issues there, I think one 
of the issues is having staff at the school level who know how 
to read an inspection report, who know what to do to correct 
the problem. You may have janitorial staff, for example, 
responsible, and they may not know exactly what to do in terms 
of certain repairs. And we think it is critical that Interior 
provide that technical assistance to schools so that they can 
address safety concerns versus having concerns repeat from year 
to year, or last 8 months in this situation.
    Mr. Calvert. If the gentleman would yield.
    Mr. Joyce. Absolutely.

              BUREAU OF INDIAN EDUCATION: SAFETY CONCERNS

    Mr. Calvert. When something like that occurs where you have 
a boiler which obviously if it has a malfunction could blow up 
and kill a number of people, why was that school not 
immediately closed until that problem was fixed? Do they not 
have the authority to close that school, or does anybody not 
have the common sense to understand that?
    Ms. Emrey-Arras. We had the same concern. It was 
unfathomable to us that that boiler remained in that condition 
with those gas leaks while students and staff were in the area.
    Ms. McCollum. Mr. Chair?
    Mr. Calvert. Yes?
    Ms. McCollum. Was that the yellow tag school? Because 
usually there is a big difference between a yellow tag and a 
red tag. I am not trying to pretend to be a plumber or a 
pipefitter here, but I have dealt with this a little bit in 
real life. We can see that is a yellow tag.
    Usually with the yellow tag you get told, okay, we are not 
going to shut you down. It is not immediate, but you have to 
get it repaired within X number of hours. They have a 
responsibility, the plumbing company. Maybe all States are not 
created equal--maybe it gets into State jurisdiction to be back 
in 48 or 24 hours to make sure that it is correct. But in other 
words, a yellow tag means we can fix this. It can be fixed 
properly. It will be fixed expeditiously.
    If this is the school we were just discussing, it seems to 
me whoever put the yellow tag on it put the wrong color on it, 
and the school should have been closed.
    Ms. Emrey-Arras. That is possible. You can see that the 
sign says, I think, that the carbon monoxide is too high on the 
tag. I mean, that is another issue in terms of the inspections 
is that they are not always done in in an accurate way as 
evidenced by some of our findings in terms of broken fire 
alarms and the like. People were told that they had a year to 
fix things when they should have been fixed within 24 hours. 
So, there is often an issue in terms of the directions that are 
provided by the inspector.
    Ms. McCollum. But it is not the school that puts that tag 
on it or the janitor. Usually that is somebody whose license is 
on the line.
    Ms. Emrey-Arras. That is an outside inspector. That is 
correct.
    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. I am sorry, but I do not find it humorous. On 
top of the explosion factor, on top of the carbon monoxide 
factor, people are going to die. And so, I do not get the 
disconnect between you write a report that says these things 
need to be fixed and nothing happens. There has to be some 
other agency or somebody who is going to step in, because you 
are putting all these kids' lives at risk.
    Ms. Emrey-Arras. We have a similar concern. We think that 
things need to change. We have made recommendations, and that 
is partly why we have put this issue on the High Risk List.
    Mr. Joyce. Again, it is a list. There has to be some type 
of, I do not care who the local authorities are. If you have a 
theft of a million dollars, it is a theft of a million dollars. 
25 years as a prosecutor, that galls me, and the fact that you 
put in things like this. I used to represent school districts. 
You put in something like this, and nobody does anything about 
it? This cannot go on.
    Mr. Calvert. Well, they did not have anything to do with 
the crime.
    Mr. Joyce. Well, I appreciate that, but they find people 
who are doing this. Where is this disconnect? We have to find 
out where it is and fix it. I am sorry.
    Ms. Emrey-Arras. We share your concern.
    Mr. Calvert. We have a hard stop here at 3:30, and it is 
3:35. I certainly appreciate this panel. I have some additional 
questions I will be submitting to you.
    Ms. King. We will be happy to answer them.
    Mr. Calvert. We certainly appreciate your coming today.
    Ms. King. Thank you for having us.
    Mr. Calvert. We appreciate your testimony and your truthful 
answers. We are adjourned.
    Mr. Rusco. Thank you all.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        

                                            Thursday, May 25, 2017.

                          U.S. FOREST SERVICE

                               WITNESSES

HON. SONNY PERDUE, SECRETARY OF AGRICULTURE
TOM TIDWELL, CHIEF, U.S. FOREST SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The subcommittee will come to order.
    Good morning. I would like to extend a warm welcome to our 
distinguished full committee, my colleagues; our witnesses; and 
to the audience. Today is a special occasion for the Interior 
Subcommittee.
    We have the Secretary of Agriculture, the Honorable Sonny 
Perdue, as well as the chief of the Forest Service, Mr. Tom 
Tidwell, testifying before us.
    My staff reviewed the committee hearing records as far back 
as the 1960s, found no mention of the Secretary of Agriculture 
appearing before the subcommittee on Forest issues. I 
understand your staff jogged the memories of long-time USDA 
employees, and no one could remember it happening either, so we 
are breaking new ground today.
    Secretary, Chief Tidwell, we are pleased and honored to 
have you both with us. We look forward to hearing from you on 
the fiscal 2018 budget request for the Forest Service.
    The President's fiscal year 2018 budget request is a 
significant departure from the last several fiscal years with 
his proposed overall reduction of $900 million, or 16 percent 
below fiscal year 2017 enacted level for the Forest Service 
programs.
    And again, we have a budget request in which more than 50 
percent of the Service's budget is dedicated to fighting fires. 
We will have many questions about these cuts and their effects 
on operations, staffing, and other programs. In particular, 
this subcommittee continues to be concerned about the cost of 
fighting wildfires and the effect it has on other Forest 
Service budgets, programs, and management.
    And I would like to thank you, Chief Tidwell, for the 
administration's efforts over the past several years to change 
the way we budget for fires.
    I would also like to thank Congressman Simpson for keeping 
the pressure on Congress to address the issue.
    While firefighting costs seem to dominate most discussions 
about the Forest Service, there are numerous other issues, 
including aviation management, law enforcement, land 
acquisition, basic budgeting, program management, among others, 
that need to be attended to.
    As I said before, the Service must demonstrate that it is 
accountable, transparent, and able to improve the condition of 
our national forests, all while managing unpredictable fire 
seasons. This is not an easy task.
    Secretary Perdue, we invited you to participate in this 
hearing, in part, to help you understand the importance of the 
Forest Service to this subcommittee, the Department of 
Agriculture as a whole, and the Nation. Healthy, productive 
national forests provide quality timber and other forest 
products. They clean our air and water, provide recreational 
opportunities, and enhance the natural beauty of our country.
    We understand the challenges facing our national forests 
and statutes under which they are managed. However, I believe 
our national forests need a renewed focus on their health and 
productivity. As Secretary, you can help with that, and I ask 
you to consider making forest management one of your 
priorities.
    For the past 1\1/2\ years, the subcommittee, along with our 
Senate counterparts, has been investigating the Forest Service 
accounting, budget, and management practices. We found some 
areas where improvements were needed.
    Some of these needed to be addressed by Congress; others 
could be addressed by the Service. In fiscal year 2017 
Consolidated Appropriations Act, we, one, imposed fiscal year 
limits on most Forest Service accounts. The Service has not had 
limits for 20 years or more. We directed the Service to 
standardize its budgeting across the agency. We understand each 
region does it differently. We directed the Service to reduce 
printing expenditures. The Service has significantly higher 
printing costs than any other USDA agency. Increased oversight 
of the Service by the Department's budget office to improve 
coordination and standardization of budgets, and we required 
more detailed budget requests in the future. We need more 
numbers and less narrative.
    Chief, we appreciate the dedication, creativity, and 
responsiveness of your budget staff. They are working long 
hours without complaint to address our concerns and make the 
Forest Service more accountable, effective, and transparent.
    The subcommittee is serious about the need for improvements 
in your accounting, budgeting, and managing practices. They 
need to be especially important if we see large reductions to 
the Service's budget. We must ensure that we are getting the 
absolute most out of every taxpayer dollar invested in our 
national forest. We pledge to work with you. I hope you also 
will pledge to work with us.
    Secretary Perdue, Chief Tidwell, I thank you and the entire 
Forest Service staff for your work to care for the Nation's 
forests. We know that all of you care deeply for our forests 
and the communities that depend on them.
    Now I am happy to yield to the gentlelady from Minnesota, 
who has a few forests of her own, Ms. McCollum, for any opening 
remarks she would like to make.
    Ms. McCollum. Thank you, Mr. Chair. I do have a few 
forests.

                    Opening Remarks of Ms. McCollum

    Secretary Purdue, it is great to have you here.
    Chief Tidwell, good to see you again this morning.
    I would like to first echo the chairman's comments about 
the subcommittee's commitment to help the Forest Service 
improve its accounting and its budgeting and its management 
practice. But at the same time, Chief, I would like to 
acknowledge the hard work and cooperation of your budget staff 
as we move forward on this shared goal.
    The American people rely on the U.S. Forest Service to 
responsibly manage the national forest system in a way that 
sustains the health, diversity, and productivity of our 
Nation's forests and grasslands.
    Now, we can all agree on that a strong America is one where 
we protect our natural resources for future generations. Being 
good stewards of those resources requires robust investments in 
both resource management and the staffing to carry that 
management out.
    Unfortunately, President Trump's fiscal year 2018 budget 
request is a cruel and, I believe, a reckless plan that pays 
for lavish tax breaks for billionaires with cuts to the very 
investments our future families need, our small businesses, and 
our communities count on.
    When it comes to the U.S. Forest Service, this budget 
request is far worse than I could have imagined. It slashes 
many of the important programs that are critical to ensuring 
the health of our Nation's forests. Nine programs are 
completely eliminated, and States and local units of government 
must find the resources in their already strained budgets to 
replace these Federal funding streams.
    The programs within the State and private forestry accounts 
are particularly important to State and local governments. This 
account provides resources so that our State partners can 
manage their forests to protect water quality, provide habitat, 
forest products, and opportunities for recreation and other 
public benefits.
    So sadly, the Trump administration cuts this account by 46 
percent, or $99 million. Again, States--and I will speak for my 
State, which is going through a budget process right now--can 
simply not afford to fill this void that this budget will 
create.
    And I am disappointed that the administration has failed to 
pursue any proposals to reform the way we fund wildfire costs. 
As the chairman had pointed out, Mr. Simpson has been working 
tirelessly on this, and has the totally nonpartisan support 
from this committee on this, because the costs associated with 
fighting wildland fires continue to rise, and this budget 
illustrates how other important programs suffer when funding is 
diverted into fighting wildfires.
    So, Chief, in the past years, you have supported wildfire 
disaster proposals.
    Mr. Secretary, I would ask you to work with the Chief, with 
the Administration, with Mr. Simpson, with all of us, to 
develop a plan to tackle this issue so that we can fund 
wildfire fighting in a sustainable fashion.
    And as I pointed out, every member of this subcommittee, 
especially in the last Congress, was a cosponsor of Mr. 
Simpson's Wildfire Disaster Funding bill, and I hope he will 
reintroduce it again.
    If we continue on the path of underfunding programs to 
manage firefighting, we jeopardize the health and longevity of 
America's national forests.
    As you can tell, I believe this budget is grossly 
inefficient. It disregards the jobs, recreational 
opportunities, and the environmental benefits our national 
forests provide for our health and our economy to be prosperous 
for all the American people.
    So I hope that we will reject the proposed cuts and instead 
work with you to ensure that the Service has the resources 
necessary to remain a leader in natural resources; 
conservation; recreation; management; and, of course, with 
timber. Thank you.
    Mr. Calvert. Thank you.

              Opening Statement of Secretary Sonny Perdue

    And, Secretary Perdue, you may begin your statement.
    Secretary Perdue. Good morning. I really appreciate, Mr. 
Chairman, the informal environment here. It is a little 
different than many other committees we go through, and it is a 
welcome change. For that reason, I am going to forego reading 
my opening statement, you have that for the record, but I hope 
we can just have a genuine and transparent conversation this 
morning over the issues that I have seen already in visiting 
with 75 of your colleagues during my confirmation process. We 
understand that the U.S. Forest Service has had some 
challenges.

                            FIRE FUNDING FIX

    I want to thank this committee--particularly for being 
solution oriented in some of those, and we will talk about the 
fire funding, as Congresswoman McCollum mentioned this morning. 
It is a serious issue. As you and I visited in your office, and 
we have got to right size that and get ahead of that because 
you know the challenges there.

                         BUDGET ACCOUNTABILITY

    I also appreciated the fact that you want to hold us 
accountable. My goal, frankly, as Secretary and in the Forest 
Service is to earn your trust in management where you will not 
have to be as prescriptive as you were in the 2017 budget.
    I liked what you said, I have sort of said the same thing 
in my budget briefings: I want more numbers and less narrative. 
We are trying to do budget briefings with slides. I want to see 
the numbers over the historical trends of what we are doing.
    I view myself as a manager, my goal, as Governor of 
Georgia, which I think we made a lot of progress too, is be the 
best managed, most effective, efficient State in the Nation, 
and by and large, that is my same goal for this Department.
    When we leave our tenure here, I want people to say: ``That 
is the best managed agency in the U.S. Government.'' That is a 
focus on facts based, data driven, science based, transparent, 
ethical, integrity, and with a customer focus, and that means 
everything.
    What I heard as I visited, while the U.S. Forest Service 
has had a wonderful history and a wonderful contribution to the 
beauty of our Nation, I am not sure we are being as good a 
neighbor in our U.S. Forest Service as we had been in the past, 
and that is another one of my goals.
    Good neighbors treat one another with respect, with 
dignity. Private landowner neighbors, if they see something 
going on and they help one another or give counsel and advice, 
and we know that our private forests benefit from a combination 
of good neighborhood, and we want to be a good neighbor within 
the culture of the communities the U.S. Forest Service finds 
itself in that regard. So I look forward to that.
    Our new motto does not deal specifically with the Forest 
Service, but I think you can imply that as well when we say, 
``Do right and feed everyone.'' We want to create jobs. We want 
to make our rural communities prosper where there was once 
millions and billions of board feet of timber cut. We know 
those jobs have disappeared there. Much of it has to do with 
litigation.

                              FIRE FUNDING

    Fire funding is a huge issue. I look forward to working 
with this committee, who has been a huge sponsor, and Mr. 
Simpson kind of the spiritual leader of that effort, to see if 
we can get that across the goal line.
    I will advocate very strongly, as Ms. McCollum advised, to 
the administration over--and I think the President gets that. 
From a management standpoint, you cannot--as you and I talked, 
you cannot manage a budget where you do not know where your 
emergency or your disaster funds come out.
    Fifty three percent of the Forest Service budget is in 
suppression. It should be down, like it used to be, in the 15 
to 20 percent area, and let us use the rest of the funds wisely 
in the management of those.
    So that is a big issue, and I really appreciate you all and 
your efforts in that regard, and I look forward to working with 
you to make that a reality in our budgetary system.

                               LITIGATION

    Certainly, you also know that litigation is a challenge for 
our U.S. Forest Service. Some of that has maybe been a problem 
because we have not been doing as well as we could do in some 
of those areas. The Cottonwood case is a particular one in 
mind. That ruling obviously creates a lot of problems over the 
continued consultation regarding habitat, if there is any 
change. I hope we can really look at some legislation to make 
sure and clear to the courts that that only delays all these 
projects more months and years sometimes, and we have got at 
least 80 forest management projects at risk of being enjoined 
through that ruling right now. That is affecting 72,000 acres 
and over 100 million board feet.
    Simply, that is jobs. We want to be good environmental 
stewards. I believe our farms and ranchers and forests are some 
of the best natural stewards of the land we can have, and we 
want to let them do it in a way that makes sense, while we 
regard the habitat and the wildlife and all those things in a 
reasonable commonsense kind of way.
    I will address some of the budget issues that I think are 
most important here we believe that we would like to ask for 
your help in.

                                 ROADS

    When you think about jobs that our U.S. forests can create, 
there was one, I think, that was probably ill-advised and maybe 
not in keeping with the President's wishes as well, and that 
had to do with our lack of improvements, particularly in roads. 
You can not harvest lumber on these if you do not have roads to 
do that.
    So I know you all will look at that in your consideration 
and think about the capital improvement and maintenance 
program. We do not need a lot more equipment, but you can not 
get to trees and you can not create jobs without roads to get 
to them, so we would like to talk to you about that.

                           PROGRAM MANAGEMENT

    Ms. McCollum mentioned a relationship that we have had. The 
U.S. Forest Service has had great relationships with our State 
and local forest programs, and I think we need to review that 
and see how we can restore some relationships there. This is a 
signal to them that we do not really appreciate that 
relationship, and I hope that we will do that.
    So you mentioned several times the management. That is what 
I think I am supposed to do. I am a manager, and that is, 
frankly, not in your area, but that is one of the reasons I 
elevated the Rural Development program up to my level, because 
I am not a micromanager, but I am a hands-on manager. And I 
plan to be a hands-on manager with the Forest Service utilizing 
the good services of a good chief forester, but I will be 
directly involved and accountable for those, the results of 
that.
    I know that you all have relied on the chief in years past, 
but the buck stops here, and we are going to change the Forest 
Service for the better to make it more responsive to our 
neighborhoods, our communities, and to our mills out there. 
Once again, we have got a great resource. It is renewable.
    It is a wonderful blessing, frankly, in this Nation to have 
the kind of forests that we have, and we want to be as equally 
good managers of our U.S. Forest Service as our private 
landowners. I come from a State that has amazing private 
landownership management, and we want to take those best 
practices and spread them across our whole U.S. Forest Service.
    So I will stop there and look forward to your questions.
    [The statement of Secretary Perdue and Chief Tidwell 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            2017 CONSOLIDATED APPROPRIATIONS ACT DIRECTIVES

    Mr. Calvert. Well, thank you, Mr. Secretary.
    As I mentioned in my opening statement, the fiscal year 
2017 Consolidated Appropriations Act included several changes 
for our fiscal year limits to our forest accounts. The House 
and Senate Appropriations Committee also included directives in 
the statement of managers on the expectations regarding 
improvements to the Service's accounting, budgeting, management 
systems, and practices.
    Have you been able to review the changes in the Act and 
read the statement, Mr. Secretary?
    Secretary Perdue. Well, I am beginning my fifth week on the 
job, so only at a high level. The, obviously, omnibus came out 
within that period of time, and just recently, so I am not as 
specifically detailed. I have the numbers, certainly, in that 
area.
    Once again, my goal is to earn your trust, and as you see 
changes in management of doing things well in those areas, my 
goal is to earn more flexibility in that by proving that we can 
get the job done.
    Mr. Calvert. Well, as you go through that and you get more 
time to look at those changes and directives, we certainly want 
to work with you and help you and the Forest Service improve 
its processes. We are not here to obstruct or make your life 
more complicated.
    We all want the same thing and we think those directives 
are good directives. I hope that you will feel the same way 
after you look at them that they should be followed.
    We believe the Forest Service needs to impose certainly 
more discipline in the accounting, budgeting, and management 
processes, and I know you will be taking that seriously as we 
do, and we will look forward to working with you.

                           CALIFORNIA FORESTS

    I am going to get somewhat parochial now and talk about the 
California forests, the ones that are still standing. We have 
had significant fires in California. The Rim Fire is one that 
comes to mind. But national forests cover about one-fifth, 
which is 20 percent, 20 million acres of the land in California 
that people--you always think of California as an urbanized 
State, but a significant part of California is not.
    Fortunately, California's drought of record is now over. It 
is amazing what 1 year can do. We had a tremendous drought over 
the last number of years, and we had a tremendous amount of 
rain this last year. However, it caused lasting effects for the 
forests and expected to permanently alter forest cover in some 
areas. And we now have more than 100 million dead and dying 
trees in the State. The State and Forest Service have worked to 
remove the trees that pose the most risk to communities, 
however, the work seems to be a little too little and too late.
    So as the drought continued, why didn't the Forest Service 
take more decisive action? I think I already know the answer to 
this question, Chief, but why didn't the Forest Service take 
more decisive action to remove dead and dying trees?
    Mr. Tidwell. Well, Mr. Chairman, we have worked closely 
with the State, and with the Governor's task force to address 
the issue once we started to see the die-off occur. We have 
continued to divert additional funding for the last 2 years and 
again this year.
    Last year, we spent $41 million addressing the concern to 
be able to take out the trees that pose the threat to the 
public and provide access and ingress into the communities and 
also to keep the infrastructure there as far as power lines, 
and also water facilities. Then this year, we are planning to 
use another $37 million to be able to continue to do that work.
    We struggle with finding any market for this material, and 
we are able to remove a little of it, but that is another 
challenge that we are dealing with. We are working closely with 
the State and the local communities to be able to continue to 
address that.
    And even though, as you mentioned, we have had a very, very 
favorable moisture year, we do expect to continue to see more 
die-off to occur. So we are actually moving up into the areas, 
more to the north and be able to get out there, and instead of 
just taking out the dead and dying, to also be thinning out the 
parts of the forest that we have not seen the mortality yet to 
be able to get out ahead of this as we expect to have the 
lingering effects of the drought.

                           CALIFORNIA FORESTS

    Mr. Calvert. Well, I know you have authority to do this, 
and if you need additional authority, please let us know, 
because this is a huge problem in California. We expect--the 
rain is great, but I suspect there is going to be more forest 
fires because we are going to have a lot more brush that can 
burn, and that goes into the forest and that is going to 
potentially cause a big problem this summer. So hopefully we 
are ready to deal with it.
    Ms. McCollum.
    Ms. McCollum. Thank you. Would you put that up?
    Chief Tidwell, I am putting something up here, and we are 
handing out the copies and some photos to the committee 
members.
    Mr. Calvert. Is your mike on?

                               WATERSHEDS

    Ms. McCollum. I need to talk into it. Thank you. Thank you, 
Mr. Chair.
    This is Voyageurs National Park and the Rainey River Basin 
watershed. We come from all different parts of the country. So 
one of the things I wanted to show you, as I am speaking and as 
you are looking at this, is this water knows no boundaries. It 
is going to move. It flows north, not south, because of where 
we are on the Laurentian Divide, and it affects not only the 
Boundary Waters wilderness and Superior National Forest; it 
also affects Voyageurs Park and our neighbors to the north in 
Canada.
    So, Chief Tidwell, as you know, the Superior National 
Forest in Minnesota is the home of the Boundary Waters Canoe 
Area Wilderness. It is vast. It is an interconnected waterway 
of pristine lakes and streams, and this is an untarnished 
wilderness. It is a national treasure. The Forest Service is 
responsible for protecting it.
    Hundreds of thousands of Americans who visit this 
wilderness every year rely on your agency, as well as the 
17,000 Minnesotans who work on the outdoor recreation industry 
in the northeastern region of our State.
    I know that the Forest Service takes this responsibility 
seriously, because last year, the Service denied the renewal of 
mining leases by a foreign-owned company that, as you said, 
posed an unacceptable risk.
    The rejection of these lease renewals noted that, ``copper-
nickel sulfide mining might cause serious and irreplaceable 
harm to this unique, iconic, and irreplaceable wilderness.'' 
Multiple scientific assessments have shown that these sulfide 
ore mines are sources of toxic contamination. Acid drainage 
would cause significant harm to the waterways, aquatic life, 
and the forests that make the Boundary Waters Conoe Area (BWCA) 
such a special place. And in fact, 92 percent, 92 percent of 
the sulfide ore copper mines operating in the United States 
have experienced failures that impact water quality.
    The pictures that are on the other handout that the members 
have show what recently happened in 2014 in Canada. Canada has 
some of the same stringent safeguards that we try to put in 
place, but 92 percent of these mines fail.
    So I want to really give a shout out to the Forest Service 
for the work that you are currently doing with the Department 
of Interior to conduct a 2-year science-based study to 
determine if approximately 230,000 acres of national forest 
lands within the watershed of the Boundary Waters should be off 
limits to sulfide ore copper mining for the next 20 years.

                           MINING WITHDRAWAL

    Last week, the Forest Service staff confirmed with my 
office that you are going to have an additional public meeting 
in the Twin Cities regarding this mining withdrawal, and people 
from southern Minnesota as well as the Twin Cities are very 
appreciative of the Forest Service doing this. You have had 
hearings in northern Minnesota, but we really appreciate the 
ability for the folks in the Twin Cities to go forward.
    I am assuming this meeting is moving forward. I am asking 
you in public, could you please talk about the potential 
consequences for the wildlife, the waters, and the forests in 
the BWCA and the adjacent lands if there is a discharge, a 
leak, or a spill from the sulfide mine, all of which are common 
events for this industry.
    I know that you are receiving phone calls. I know you are 
receiving pressure from the mining industry, and we have a rich 
tradition of mining in Minnesota. This is the only mining in 
Minnesota that I have come out forcefully against, in part, 
because of its location in the watershed.
    So could you please enlighten us on what--and I am going to 
include you, Mr. Secretary--what you two gentlemen can do to 
ensure that this proposed study goes forward as planned so that 
we have robust public participation, grounded in science, and 
figure on how to best preserve this pristine wilderness when 92 
percent, even here in the United States, of these mines fail.
    Mr. Perdue, I think you saw what happened in Canada when it 
leaked up there.
    Mr. Tidwell.
    Secretary Perdue. Well, you have addressed your questions 
to him, if I may precede him in that.
    Ms. McCollum. Oh, yeah. Go ahead.
    Secretary Perdue. As I stated earlier, the buck stops here. 
I am the U.S. Secretary of Agriculture, and the U.S. Forest 
Service is under the Secretary of Agriculture. While we have a 
chief forester who knows the history of this and can address 
those specific questions, I want you to know this is on my 
radar screen as well.
    Secretary Zinke and I have already met about this. And I 
think your statement regarding the two-year study over the 
sound science, none of us know what to do without the facts 
based and the sound science, and we are absolutely allowing 
that to proceed.
    You also know that your State has a shot at that after that 
recommendation as well. So we are determined to proceed in that 
effort and let it run its course. No decision will be made 
prior to the conclusion of that.
    Ms. McCollum. Well, thank you. Governor Dayton will be 
excited to hear that. Thank you.
    Secretary Perdue. Well, he is already well aware of his 
roles and responsibilities in this effort.
    Ms. McCollum. Well, he has taken the State lands off. Thank 
you.
    Mr. Tidwell.
    Mr. Tidwell. Well, the only thing I would add is that the 
study allows us to really pull together the information and the 
data and look at the overall balance.
    Mining is an essential part of multiple-use. It is 
especially very important in your State, but it is also 
essential for this country. We can have mining operations that 
are environmentally safe. There are many that have proven to be 
able to do that.
    You did raise the question about the sulfide ore. That is 
more challenging, especially in areas where we have as much 
water as we do up in that part of the State. So this gives us 
an opportunity to be able to pause, collect the information, to 
be able to visit, and really meet with the public.
    We just want to be able to sit down with them and really 
hear from their concerns. Then as we move forward, to find that 
balance, the balance where mining needs to occur and it can be 
done in a safe, environmental way. Then if decisions are to be 
made for other areas, that it is just potentially maybe too 
hazardous, those are the type of decisions that can come out of 
this study.
    Ms. McCollum. Well, I thank you, gentlemen, for your 
comments, and I thank you for your reassurance to let the 2-
year study go forward. Thank you.
    Secretary Perdue. Let me give you maybe a principle that 
may help your feelings that way. While I might always do right 
and feed everyone, as a veterinarian, I also ascribe to the 
Hippocratic oath. First of all, do no harm, and that we hear 
you loud and clear.
    Ms. McCollum. Thank you, sir.
    Mr. Calvert. Thank you. And as I look at this map of these 
beautiful pristine lakes, it reminds me of Minnesota's greatest 
exports to California: the Los Angeles Lakers. So I always 
appreciate that.
    Ms. McCollum. Yes. Jerry West was a hero of mine. I do 
remember when Mr. West left.
    Mr. Calvert. Mr. Simpson.

                            LAND MANAGEMENT

    Mr. Simpson. Thank you, Mr. Chairman. And thank you for 
being here, Secretary. As the chairman mentioned, this is the 
first time I can ever remember, maybe the first time ever that 
the Secretary has appeared before this committee, along with 
the chief of the Forest Service. When I look back at it, it was 
almost like there was the Department of Agriculture and the 
Forest Service.
    The Forest Service is going to stay under the Department of 
Agriculture. We have had hearings about trying to move them 
over into a land management agency with Interior. I don't see 
that happening. They do a good job where they are at.
    In fact, I will tell you, I have had a lot of dealings with 
the Forest Service over the years, and while we sometimes 
complain about them. I count 62 people in this room. That means 
there are 62 different people, there are 62 different ideas 
about what should be done with the national forests and how any 
particular decision should be made.

                               LITIGATION

    So these are public lands, and the public has a right to 
say how they are managed. The question is, and you brought it 
up with the Cottonwood case, how do you maintain the public's 
right to have a say in how their public lands are managed and 
get on with managing instead of spending all the resources we 
use in lawsuits?
    I once asked a former chief of the Forest Service, when you 
decide to make a decision on a timber cut, or any decision that 
you make, how much of the money is spent making what you 
believe to be a good, sound, scientific decision, and how much 
is trying to make it bulletproof from a lawsuit?
    And he said given the decision, it is probably between 25 
and 50 percent on making a good, sound, scientific decision, 
and between 50 and 75 percent trying to make it bulletproof. 
Wouldn't it be nice if we could use some of that money to 
actually manage the public lands?
    And this Cottonwood case, and I am glad you brought it up, 
is a perplexing problem that we need to address legislatively. 
I don't have the answer about how we change some of these laws, 
and you could go through the litany of them. It is important to 
maintain the public's right to have a say but we should 
streamline it. We have created situations where you can get 
sued at every step of the way, and there are multiple steps all 
along the way, and it is just unmanageable, frankly.

                              FIRE FUNDING

    Thank you also for mentioning the fire borrowing issue. We 
need your help. We need Secretary Zinke's help, along with this 
committee's, to make everyone understand the importance of 
addressing this issue. Fire borrowing has gotten out of hand. 
When 53 percent of your budget goes to fighting wildfires, that 
means there is no money left for anything else.
    That is one of the reasons my constituents complain about 
the Forest Service. They are not doing any trail maintenance. 
They are not doing fuels reduction. And I noticed in your 
budget that hazardous fuels reduction numbers are down, trail 
maintenance numbers are down, land and water conservation 
numbers are down. Well, we are spending all the money on 
fighting wildfires.
    And when they come up to me and say, I was out hiking and 
they hadn't done any maintenance on this trail, why haven't 
they. I say we have appropriated money for them, but guess 
what, it has gone to fight wildfires.
    Unfortunately, I don't know if this is a good idea or not, 
but what happens is because the Forest Service--and they are 
pretty good firefighters. They do a darn good job when you look 
at the number of fires that they actually put out on initial 
attack. It is the 2 percent that blow up that cause the 
problems. But we allow the Forest Service to borrow from every 
other fund to fight wildfires. It is an emergency, unlike any 
other agency or account.
    I thought of working with Chairman Calvert and see if we 
can strike that language that is in our appropriation bills 
that says you can't borrow from other accounts. The reason 
being, when the rest of the Members of Congress look at the end 
result they say, they must have had the money to put out fires 
because they fought the wildfires and didn't run out of money. 
What they don't see is what is not done because they are 
borrowing the money to fight wildfires.
    And if we stopped the borrowing legislatively--I would 
rather do it with our wildfire fire bill, but if we could stop 
the borrowing legislatively, it would force the Forest Service 
to come to Congress for a supplemental, and then people would 
understand what the true cost of fighting these wildfires are.
    And when you look at it, it has gone from 14 percent of the 
Forest Service budget 30 years ago to 53 percent now, and it is 
projected to be over 70 percent in the next 10 years if nothing 
is done about it. But we need your help, as well as the Members 
of the Congress and outside groups to make our leadership and 
others understand the importance of addressing this issue.

                         FY 2018 BUDGET REQUEST

    While I don't have a question in there, I will tell you 
that within the budget--and I know that you have just come on 
and your job is to support the President's budget. I understand 
all that. I do have some concerns about the reduction in the 
hazardous fuels management, the trail maintenance, LWCF, and 
some other areas within this budget.
    If you really what to see what LWCF has done, when you are 
out to Idaho, I will take you down to South Fork, and it has 
been incredible what LWCF funds have done there.
    Chief, I noticed that you said, when you were talking with 
the chairman about what you are going to do in northern 
California, that you are going to go out and you need to thin 
these forests.
    I suspect the reason you haven't done that is because you 
don't have the money. Last year, when we were hiking at the end 
of August and the fires were going on, you said we should be 
out doing some hazardous fuels reductions, fire mitigation, and 
those types of activities. The problem is we have spent all our 
money on wildfires, and the money is not available.
    That is a real challenge for how we get ahold of this. I 
don't know how you manage a budget where 53 percent of it is 
unknown. But let me also tell you, and since I don't really 
have any questions in there, I do want to tell you I have, 
there are a lot of people who complain about land management in 
the West. That is where most of the public lands are, whether 
it is BLM, Forest Service, Park Service, whatever. And there is 
movement to try to have the States take over all the Federal 
lands. I don't see that happening either.
    It would not happen, and I don't want it to happen in Idaho 
because, frankly, we live in Idaho because we love our public 
lands. We are oftentimes upset with our land managers because, 
as I said, in this room, every one of us could do a better job 
of managing the forest sometimes, or the BLM or whatever, or we 
think we could. We are all good Monday morning quarterbacks.
    They have a tough job. And I tell you, you have got some 
great employees out in Idaho that I have had the opportunity to 
work with that do a fantastic job, and I found that true 
throughout the Forest Service. For as much criticism as they 
get, they really try to manage an almost untenable position 
between the public that wants and believes something should be 
done one way. What I have seen them do is try to work with the 
public, and as you mentioned, try to become advocates for 
trying to solve a problem.
    And maybe they can't do it the way the individual wants it 
done, but what I have seen is they will sit down and try to 
solve problems. And I am proud to call these people my friends 
that have worked out in Idaho and have done a great job of 
maintaining our public lands out there and the reason people 
want to come to Idaho.
    So when you are out there Friday visiting NIFC, I would 
like to try to make it back with you. It is an incredible 
place. Welcome to Idaho early.
    Secretary Perdue. May I respond to your nonquestion?
    Mr. Simpson. Okay.

                               LITIGATION

    Secretary Perdue. I think certainly the litigation issue is 
something we all need to be looking at, whether it is a 
retooling of the NEPA process or those kind of things that are 
in your job and in our jobs, we are never going to please 
everybody. That is what represented democracy is all about, but 
we have got to make the principles of good facts based, data 
driven, sound science decisions, and then move forward.
    I do believe we in the Forest Service have probably been a 
little intimidated and practiced defensive forestry over 
bulletproofing decisions that way and may have rolled over. I 
am willing to go to court on some of these things. If we are 
doing right and if we have got a good scientific base for our 
decisions, I think we need to be in court, if that is what the 
other side chooses to do. I think we need to win some of those 
decisions but first of all, we have got to get our house in 
order of doing the right thing.

                              FIRE FUNDING

    I hope that we will be able to prevail on your best choice, 
which is the fire budget rather than the nuclear option of 
preclusion, because that would put the Chief and us in a pretty 
untenable position having a fire. You can not predict a 
hurricane, you can not predict a tornado, you can not predict a 
flood; and neither can you predict a major forest fire.
    The challenge is, as you indicated, typically one to two 
percent is all we need. If we can get that in the disaster 
budget like these other natural disasters, the Forest Service 
is perfectly capable of managing all these others, and then 
managing the forest.
    So again, from a flexibility standpoint, if we are not too 
handcuffed over those kind of things, we are going to take that 
increase in forest management and do the things that make for 
healthy forests.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you, Mr. Secretary.
    Mr. Kilmer.
    Mr. Kilmer. Mr. Chair, I will yield to Ms. Pingree, because 
I know she has got to get to another subcommittee.
    Mr. Calvert. Okay.
    Ms. Pingree. Thank you. I appreciate my colleague yielding 
to me, because I know he has to go to another subcommittee too, 
but I appreciate that. I apologize in advance having to go to 
my other committee after this. So I will just be here briefly.
    But it is nice to see you again, Mr. Secretary. It was a 
pleasure to have you in the Agriculture Committee yesterday, 
and thank you for giving us so much time there, and also for 
being here today.
    And, Chief Tidwell, it is nice to see you again.
    My colleagues on the committee have mentioned some of their 
concerns with the budget, and I will submit a variety of things 
for the record. I am concerned that there is nine programs that 
are zeroed out. In particular, the Forest Legacy Program, which 
has been very important to us in Maine. I am concerned about 
the cuts at the Land and Water Conservation Fund. But I just 
want to focus my brief time on two other programs that actually 
are quite important to us and have your comments.
    First one is on the family forestry and forest stewardship. 
Coming from Maine, I know everyone has a lot of forests, but of 
course, we think we have bigger challenges and more of 
everything. Eighty-six percent of our State is forested, and I 
think that might be the highest percentage of any State. We 
don't always think about Maine or New England as having so many 
forests, but we are particularly proud of them, but we also 
have a lot of challenges, and we want to make sure they are 
preserved and well taken care of.
    We have about 264 million acres of land which are basically 
in private ownerships. Unlike many of the Western States, we 
have virtually no Federal land and have a lot of private 
landowners.
    The Forest Stewardship Program leverages millions from our 
State budget and from landowners themselves. It has helped 
landowners learn how to better manage their land, navigate 
numerous challenges to help them determine how to change their 
land management in changing situations, and adapting to new 
market conditions to stay financially viable. So that has been 
very important to us in very changing times.

                            FOREST PRODUCTS

    The forest products industry in our State has a big 
footprint. In 2016, the total economic impact of forest 
products was estimated at $8.5 billion, accounts for more than 
33,000 jobs. That may not seem a lot if you come from 
California, but in a State of 1.3 million people, it is very 
important to our State.
    But we have had a lot of changes in the forest products 
industry. In the last few years, we have seen five paper mills 
close their doors. That has been devastating to communities 
throughout our State and a huge change for us.
    My colleagues and I in the Maine delegation worked with our 
local industry and community leaders to request that the 
Economic Development Administration coordinate and mobilize its 
Federal partners to participate in an economic development 
assessment team. The goal of the EDAT was to help the industry, 
along with the State, local, and Federal leaders, not only to 
coordinate their work, but work together, combine their efforts 
and resources to support our forest industry.
    They spent about 3 days, and the groups did site visits 
around the State of Maine and learned a lot about our industry 
and our forests. And there were a lot of long-term strategic 
goals as well some immediate next steps in what they were 
doing.
    The most direct request was for the Forest Service to work 
with industry to define specific technical assistance data and 
other strategic resources that could support the forest 
industry aspect of the strategic plan. These efforts are 
already under way within our State, and we know that there will 
be additional modeling and support through the Forest Service.
    So between the EDAT and the forestry industry and forestry 
stewardship program, they are just very important to us. Mr. 
Secretary, if you would like to comment, thank you, and Mr. 
Chief, if you want to. Those are just things that we just hope 
will be there in the future and need your support and help.

                       FOREST STEWARDSHIP PROGRAM

    Secretary Perdue. I would comment on the fact that, Ms. 
Pingree, I think the way to accomplish more in tight budgetary 
times really is with public-private partnerships, and that is 
one of the ways we hope to do more with less. The Forest 
Stewardship Program with private landowners is one of those.
    I also come from a State where over 95 percent of them are 
privately managed, and our citizens have utilized those, I 
think, in a very wise way and developed some best practices 
along with our State foresters and our Federal partners to do 
that. So I concur with you.
    Obviously, rural prosperity is a big part of what we do 
overall. I think Mr. Simpson earlier talked about timber and 
agriculture. In Georgia and your State, timber is agriculture.
    Ms. Pingree. Right.
    Secretary Perdue. And that is the way we view it. So we are 
going to do everything we can from a rural prosperity. In 
Maine, it means helping your small organic farmers, as we 
talked about yesterday, it helps your private landowners in 
that renewable resource that grow so well in your beautiful 
State.
    Ms. Pingree. Thank you. I do appreciate that there are a 
lot of similarities between Georgia and Maine. Except the 
temperature, we have a lot in common.
    Secretary Perdue. Our lobsters don't grow as well in 
Georgia.
    Ms. Pingree. Yeah 'And don't start trying.
    Mr. Calvert. Mr. Jenkins.

              MONONGAHELA NATIONAL FOREST--FLOOD RECOVERY

    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Secretary, congratulations. Welcome. Chief, great to 
see you. I would like to maybe ask about two things in 
particular. The Monongahela National Forest has a big chunk in 
my district. We call it The Mon. And last year, in June, we had 
a once in 1,000-year flood in West Virginia. Devastating. 
Almost two dozen lost their lives. The Mon took a real hit.
    In working with the Forest Service, working with the local 
superintendent, I know you have also been working with Federal 
Highways, what can you share with me as an update? The estimate 
was tens of millions of dollars in damage to roads and trails 
and infrastructure. Where are we in that work, if you are able 
to update me? And secondly, what is the road ahead, vis-a-vis, 
this funding cycle in the budget that has been proposed?
    Mr. Tidwell. We are continuing to collect information about 
all the damage that has occurred, because we have also, just in 
the last few weeks, have had additional flooding in West 
Virginia. We are working closely with Federal Highways to be 
able to use their emergency road funding, and we are applying 
to Federal Highways for funding, and going through a process to 
really prioritize what is the absolutely most important 
projects to get completed and the most urgent, to realize that 
it is going to take awhile and it is, as the Secretary 
mentioned, it is going to take a need for all of us to work 
together, the State, the counties, the Federal agencies to come 
together to be able to address this.
    Our first focus, of course, is going to be on public 
safety, especially on some bridges, to be able to maintain the 
highest priority roads. Some of those are actually used for 
school routes, for school bus routes.
    So that is what we are doing. And as we are completing the 
analysis, we are out there doing the urgent stuff to be able to 
get as many of these roads open, but it is going to be a little 
while, and I will be glad to provide you a more extensive 
update.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Jenkins. I would welcome that. We are, obviously, very 
engaged with it. We have got incredible need. This is the time, 
as we have seen, since last June to, collect the information, 
make the down payment, but also we understand this is a 
journey, not a point in time conclusion.
    So we really truly want to work with the Forest Service, 
your local superintendent. We want to help make sure you do get 
that data collection. I want to make sure I am doing what I can 
from a funding standpoint to address those needs. I am trying 
to avoid any surprises 6 months from now or a year from now 
that, well, the money just wasn't there. So please make sure we 
are fully aware of the needs as identified.

     MONONGAHELA NATIONAL FOREST--TIMBER SALES AND SPECIFIC HABITAT

    The second, and also for you, Chief, it certainly plays on 
what the Secretary referenced, is still relating to The Mon. 
With regard to the forest management, and in particular, the 
timber sales, this is an ongoing frustration and challenge that 
we have seen, and I just need to figure out how to break this 
logjam. Pardon the pun. The Mon is 919,000 acres, 12 percent 
set aside as wilderness. But under the allowable sales 
quantities under the forest plan, each year, for the last 4, 5, 
6 years, we have only been selling about 12 percent of what is 
allowed. So for example, in 2016, only 12 percent was sold; 
2015, 10 percent was sold; 2014, 13 percent was sold.
    What are the impediments to a forest plan objective that 
has an allowable sale quantity, but each year we are in the 10, 
11, 12 percent actually sold? What is going on? What can we do 
about it? This is basic good forest management practice.
    Mr. Tidwell. First of all, I share your frustration. There 
is a combination of things that several members and the 
Secretary have already mentioned that we are working on. Your 
forest has history when it comes to environmental issues that 
go way back in time. We have been able to move forward on many 
of those concerns.
    So today, where we are at, is to be able to find more 
capacity. One of the things where we are making, I think, some 
great progress is using the Good Neighbor Authority that you 
provided with the 2014 Farm Bill so that we can work with the 
State forester and their staff to be able to actually get more 
work done out on the ground and use their capacity, and also to 
be able to learn from them.
    Many of our States have, I believe, some better practices 
than some of the things that we have in place that I could 
argue were put in place years ago because of certain lawsuits. 
We are finding, by being able to use the Good Neighbor 
Authority and working with the States, we are able to actually 
get more work done, get more timber harvested, and then to be 
able to do it in a way that we can cover the State's costs.
    So this is one of the things that we are really making some 
good progress on. I think your forest, especially, is one that 
is placed for us to move out using that authority.
    Mr. Jenkins. Well, if progress is being defined as 
percentage of allowable sold, we are not making progress.
    Secretary Perdue. I hear you loud and clear, Mr. Jenkins. 
Those numbers that you just described are pretty frustrating to 
me, and we will have a better answer and a better reason by the 
next time I come before you.
    Mr. Jenkins. Thank you.
    Secretary Perdue. I put this chart, Mr. Chairman, in your 
package there. Our forests are renewable resources. Forests are 
just like us and animals. If you do not do something with them 
while they are healthy, they die, and then they create more 
problems with fire and other things.
    So these are not good statistics here, and our goal is to 
make sure that we harvest the renewable part of our forest. We 
would love to have that balance. We talked about some of the 
root causes regarding the budget and the management aspect, but 
that is absolutely my goal is to use the resources from our 
jobs, from our revenue standpoint.
    These are crops. Those are crops there that ought to be 
harvested for the benefit of the American public.
    Mr. Jenkins. A breath of fresh air, Mr. Secretary. We look 
forward to working with you. We look forward to that better 
answer, and we look forward to getting her done. Thank you.
    Mr. Calvert. Thank you.
    Mr. Kilmer.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Mr. Kilmer. Thanks, Mr. Chairman. And thanks for being with 
us.
    I have got one question for the Secretary and one for Chief 
Tidwell. Mr. Secretary, as everyone is extending invitations to 
you, I will do the same. We had the honor of having your 
predecessor come out to visit the Olympic Peninsula to see how 
important the Forest Service lands are to the rural timber-
dependent communities that I represent and to visit with the 
Olympic Penninsula Forest Collaborative that is really making 
progress towards increasing harvest levels in a responsible 
way.
    We have got the conservation community and the industry at 
the same table working through some of these tough issues, and 
I think it addresses a couple of the issues that you raised. 
One, the value of public-private partnership, and two, trying 
to reduce litigation when it comes to timber sales.
    Having said that, I am somewhat surprised to see the 
elimination of funding for the Collaborative Forest Landscape 
Restoration Program in the budget, because I just think it is 
fundamentally important to sound stewardship and was hoping 
that you could just speak to what the rationale was for that 
program elimination.
    Secretary Perdue. Well, certainly beginning my job here, I 
support the budget and its conclusions, but I think probably it 
would have been a little different had we been there long 
enough to have an impact in that area. The reason we were given 
was some duplicative programs, but I already expressed my 
desire to see more public-private partnerships. And we hope to 
persuade others in the administration that we think we can get 
more bang for the buck that way.
    Mr. Kilmer. Well, we would certainly love to have you see 
the success that our collaborative has had, but we need more 
help.
    Secretary Perdue. As for the visit, I hope to get your way 
soon. We are heading that way. We were in the Black Hills over 
the past weekend. We are going to be in Idaho next weekend, so 
we are moving your way.
    Mr. Kilmer. If you get any further west than me, you are in 
the ocean.
    Secretary Perdue. Yes. We are not going to Victoria Island.

                        LEGACY ROADS AND TRAILS

    Mr. Kilmer. Chief Tidwell, I think the last time I saw you 
was at an event celebrating the Legacy Roads and Trails Program 
and the removal of the 1,000th culvert. It was a pretty 
spectacular event in that you had recreationalists, sports 
fishermen, and a bunch of different stakeholders celebrating 
both the economic and ecological benefits of what is a pretty 
modest program.
    So this is another program that I was pretty shocked to see 
eliminated. According to your own budget justification, since 
2008, Legacy Roads and Trails has restored fish passage at 
1,000 sites, providing access to over 1,000 miles of habitat, 
improved almost 18,000 miles of road for safety and flood 
resiliency, constructed or reconstructed 141 bridges for 
safety, upgraded or fixed 4,390 miles of trails so people can 
actually enjoy the areas that they love, and created or 
maintained 800 to 1,200 jobs annually.
    It is really hard to argue with the success of this 
program, so I am hoping you can help me understand the 
rationale for eliminating it.
    Mr. Tidwell. Well, I would just like to basically repeat 
what the Secretary has said, but one of the reasons, the 
funding that is provided with Legacy Roads and Trails, we can 
do that same work with our trails budget and with our roads 
budget. Where it has been an effective program to really focus 
on the legacy work to be able to improve and deal with stream 
crossings and culverts, it is something we can do within our 
other budget line items. We are going to continue to do that 
work and be able to build on the partnership, but we will be 
able to continue that with our other budget line items.
    Secretary Perdue. I think prior to you coming in, there 
were two budget items that we would love to have your help on, 
and obviously, trails is one of those. We know, from an 
economic perspective as well as a recreation perspective, if 
you can not maintain, you can not get to it, you can not cut 
trees, and you can not have--enjoy the beautiful landscape. So 
we appreciate your help there.
    Mr. Kilmer. Thank you.
    Thanks, Mr. Chairman. I yield back.
    Mr. Calvert. Thank you.
    Mr. Stewart.

                                GRAZING

    Mr. Stewart. Thank you, Mr. Chairman.
    And, Mr. Perdue, congratulations on your new 
responsibilities.
    Chief, thank you for the time and extraordinary effort you 
have made in some cases to help people in the rural west.
    I know of one example where you flew out to my district and 
met with some of our county commissioners and flew back the 
same day. That is an example of you trying to make yourself 
available and trying to hear them, and I think that is so 
important.
    I love the fact that you are here together. And I would 
like to mimic something you said, Mr. Secretary, if I could, 
and that is, these are--our forests are national jewels. There 
is a reason I live in Utah. It is because I love Utah, and part 
of that is loving the forests.
    But they are also a resource. And as you said, Mr. 
Secretary, they are like a crop. They are a renewable resource, 
and properly managed, they can be a very effective economic 
resource that we could take such advantage of.
    I would like to make one point very quickly and then come 
to you, Chief, if I could, for an issue that I have been 
concerned about. We often talk about their value to us in 
timber, and that has been brought up several times here. But 
when I hike, as I often do in Utah, or at least I used to when 
I had a life before I came to Congress, but it wouldn't be 
unusual to see cattle grazing in our forest. And my father-in-
law has a permit where he would graze his cattle in the forest.
    Do we agree--and again, this is a simple question. Do we 
agree that that is a part of management as well in taking 
proper advantage of this resource?
    Secretary Perdue. Absolutely. I would like to expand on 
that a little bit. By the way, I was in Rapid City, South 
Dakota this last weekend and Ellsworth Air Force base. There 
was a little airplane over there I think you may be familiar 
with.
    Mr. Stewart. Just a little airplane, yes.
    Secretary Perdue. Got up in the cockpit of the B-1 and I 
kind of chided them from stealing that from Robins Air Force 
Base, but we had a National Guard group down there, wing, that 
flew that airplane, I had been in it before.
    Mr. Stewart. Well, we can agree it is the sexiest aircraft 
ever built, right?
    Secretary Perdue. And pretty effective, as well. But on 
your specific question, certainly in your area, as well, I 
think grazing is a realistic management. I was in Northern 
Nebraska over our grasslands there, our cattle ranchers are 
doing things on their own lands that thrive and make good 
management practices. We want to adopt more of those.
    Frankly, I hope Secretary Zinke, and I, and you can go out 
to your area and hear from your people, not just the elected 
officials, but hear from those cattle ranches, hear from those 
people who have to deal with our Forest Service and our Bureau 
of Land Management (BLM) lands and let us really develop a 
level of trust and a good neighbor policy there that is more 
than just a name. We have a good neighbor policy officially, 
but being a good neighbor is more than just saying I am one, so 
I hope we can do that in your area.
    Mr. Stewart. Yes.
    Secretary Perdue. So I hope we can do that in your area.

             DEPARTMENT OF LABOR--OVERTIME AND MINIMUM WAGE

    Mr. Stewart. And, Mr. Secretary, I am so grateful to hear 
you say that. I can tell you I grew up ranching and farming, 
and no one cares more about that land than those individuals 
who their livelihood depends on that resource being healthy, 
and they are as intrinsically interested in protecting it as 
anyone I can imagine.
    Chief, if I could come to you with a problem, as I said, I 
am a little bit frustrated, and I think we have talked about it 
before. 2014 the Department of Labor instituted a rule 
regarding overtime and minimum wage for Federal employees, 
which they had the right to do, and I don't object to that, but 
where we have a problem is it caught up, I think, individuals 
that it was never intended to be, that is outfitters and guides 
who work in the rural west.
    You know, people who take people on horseback rides, river 
rafting, et cetera, who help tourists and people who otherwise 
wouldn't be able to experience the west because they just 
wouldn't do it on their own.
    But they were defined as a Federal employee because they 
happened to traverse Federal lands or in some cases operate on 
Federal lands. And, you know, we worked with the Department, 
again in this case the Department of Labor, for a year, more 
than a year, trying to get them to relook at us and saying this 
isn't the intent. They actually agreed with us, at least they 
told us they did, though nothing came from that. We included 
legislation in the appropriations or language in the fiscal 
year 2016 appropriations bill, which would have exempted them 
from this.
    And I have to say before I make my final point, these 
aren't big corporate outfits and guides these are mom-and-pop 
shops, you know, people who are making a lot less money than 
most of us here in this room. And they just simply can't afford 
it. I mean, an outfitter out there hits 40 hours in the first 
two days, and after that he has got to be paid overtime on a 
minimum wage, a Federal defined minimum wage.
    It frustrates me that it seems like the Forest Service has 
ignored the intent of Congress because their permit requires 
still that they comply with this. I wonder if you could give us 
some relief on that and some hope that we can work together to 
come to what I think most of us agree is a reasonable 
conclusion.
    Mr. Tidwell. I appreciate you bringing it back up again. 
Well, we will go back to see what we can do to address that and 
continue to work with the Department of Labor.
    I agree with your point that most of the outfitter and 
guide operations I know are usually family operations, and its 
relatives, or you could even say they are all part owners in 
that operation, and I don't even think they work by the hour, 
they just work by the day to provide that service. It is one of 
the things that we work with the Department of Labor and will 
continue to do that to be able to address a solution there so 
that it doesn't have unintended consequences of impacting their 
operations.
    Mr. Stewart. I appreciate that, Chief, and we will pursue 
that with you, and if I could just conclude, and, Mr. 
Secretary, it seems like you want to respond----
    Secretary Perdue. Yeah. I think there are a lot of 
unintended consequences regarding that labor rule that we want 
to look at as it pertains to the USDA, and obviously outfitting 
is a seasonal job. They do not work year-round. Seasons do not 
last that long, and that caught up a lot of seasonal workers 
that is very intense for a period of time, that is when they 
have to work and make their money, and so we will be very 
attentive to that.
    Mr. Stewart. Well, please do, and I will conclude with 
this. I met with many of these owners, dozens of times, I 
suppose, but I have also met with generally college kids who 
come to me and say, Look, I don't get to do what I used to love 
to do. I was more than happy to do this for the wage they were 
paying me. I was doing it because I love it, and now my job has 
gone away, and now I am working at Walmart or McDonald's when I 
would much rather be out showing people the land.
    So thank you, and we look forward to working with you on 
that. Chairman, I yield back.
    Mr. Calvert. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    Secretary Perdue. Thank you.

                         FOREST SERVICE BUDGETS

    Ms. Kaptur. Chief Tidwell, thank you for your service to 
our country.
    According to the numbers that I have, and I hope they are 
correct, in the fiscal year 2016 the Forest Service had a 
budget of $7.03 billion. For this fiscal year what was finally 
signed into law was 6.17 billion. And for the proposal we are 
reviewing now it has gone down to $5.20 billion. That is a cut 
of 26 percent over the last 3 years. That is in my judgment 
enormous.

                      URBAN AND COMMUNITY FORESTRY

    I don't come from the west. I come from up where the U.S. 
border meets the Canadian border over Lake Erie. Congressman 
Joyce and I share this very important region with the 
shallowest of the Great Lakes in deep trouble.
    And when I look at this budget, I see that though Ohio is 
not like Utah and California and big western States with big 
Federal forest lands, trees are terribly important to us. Lake 
Erie has the least number of trees surrounding it of any of the 
Great Lakes. We have the most threatened of the Great Lakes. My 
home community of Toledo, Ohio, which has water systems that 
serve a region of half a million to 750 million people plus 
businesses was shut off two and-a-half years ago for 3 days 
because a very wicked little toxin called microcystin that 
forms an algae got into the water system.
    It is not the only water system on Lake Erie that has been 
shut off. Many of our rural water systems have been shut off 
over the last couple years. They didn't get a lot of publicity 
because we are not New York City, we are not Chicago. You know, 
we are out there on Lake Erie, and I will tell you what, it was 
completely frightening. And we live with this hanging over our 
heads every day, and the situation is not getting better.
    I won't go into all the details of what we are trying to do 
to address it, but because we don't have the full engagement of 
the Forest Service along Lake Erie because we are using the 
Urban and Community Forestry Program, which this budget 
proposes to eliminate along with the Community Forest and Open 
Space Program, and the Landscape Scale Restoration Program. We 
are trying to find ways to deal with planting 20 million trees 
we have to replace just because of the emerald ash borer just 
to keep pace with an inadequate number of trees to begin with 
to operate as buffer strips to help to filter the nutrients 
going into Lake Erie from the Maumee River. The largest river--
God gave me the largest river in the Great Lakes, and with no 
resources to try to fix what is wrong.
    The NRCS has been great, Mr. Secretary, in trying to help 
us figure out what do we do with a tri-state bi-national 
watershed in order to prevent these nutrients from going into 
the rivers and streams and falling toward the lake, and your 
NRCS people in Ohio have been phenomenal. They are 
underresourced. There is no political jurisdiction that can put 
their arms around this region. And it is frightening to see 
what is happening.
    Cleveland, at the eastern end of my district, and the 
western end of David's district, used to be called Forest City. 
And with the levels of asthma there and other issues and many 
urban areas.
    I frankly take it as a personal offense that the Government 
of the United States, not you, but that the government of this 
country doesn't consider the Great Lakes and our urban areas 
important enough to focus on trees. We are always off, you 
know, in other areas that I feel sorry for because there is not 
enough money to keep trails. Deferred maintenance in this 
budget is eliminated. Legacy and Trails Program eliminated. 
Facilities accounts, 84 percent cut. I mean, I feel sorry for 
you, trying to take over this. I keep saying, where are we 
going to get some private sector people to donate money to fill 
the gap here.
    But I would love to invite you to our region because it is 
the canary in the coal mine. Your dad, I like his quote, ``We 
are all stewards of the land, owned or rented, and our 
responsibility is to leave it better than we found it.'' I 
couldn't agree more. NRCS sponsored a book one time called 
``Land, Food, and People.'' I loved it, but there was a word 
missing, and that was ``water.''

                               WATERSHEDS

    And what we face in our region is that in the two 
watersheds I represent, but the one that is causing the most 
problems that extends over three States and Canada, there are 
two million people that live in that watershed. There are 
between 10 and 11 million animals, the largest egg-producing 
region in the whole country, generating 43,500 train carloads 
of manure every year, much of it put on the land. And we've got 
no answer.
    When I was born there were 146 million people in this 
country. Today there are 320 million. By 2050 we will have 390 
million according to the latest projections, and somehow the 
formula for land, food, water, and people, to say nothing of 
temperature changes, it is not a winning formula.
    So we would invite you to our region. We would fly in your 
helicopter if you want to.
    Secretary Perdue. I would like that.

                           USDA MISSION AREAS

    Ms. Kaptur. NRCS has to play a role in this. I have a bill 
to recreate the Civilian Conservation Corp to help the whole 
country, including our area, and I got some ideas about it 
would require more than USDA, it would require Department of 
Labor, National Guard. We got to fix this, and I want to do it 
in my lifetime.
    So that we do what your dad said in our time and 
generation. It is our responsibility. And, unfortunately, we 
don't have structure to do it.
    I think NRCS is one of the few structures we really have, 
but it is not used to working across jurisdictions, and States. 
And we need its help. So we got the problem. We don't have the 
mechanism to fix it. And the problem is getting ahead of us 
just like in the west.
    I will tell you, I don't live in the west. The forest fires 
scare me to death because I studied a little bit about forest 
succession. I worry about the eastern forests, as well as the 
western forests. We are not taking care of this problem for the 
country. We simply aren't. And it is not true to our heritage.
    I just thank all the people that work for the Forest 
Service. I feel sorry for the firefighters, all those people 
that risk their lives up there all the time. We are not doing 
our job, and we have got to figure out a way to do it. If we 
have to beg the private sector and go to Goldman Sachs and all 
these people that ripped off the people of the United States 
and beg the money, I am willing to do it. But we gotta fix 
this.
    So my extension of an invitation is very serious. We need 
your help, and we need it fast. Ohio and Michigan, if we could 
figure out how to plant 20 million trees in the next 5 years 
that wouldn't be enough, but it would be a heck of a lot better 
than our limping along with what we are doing now.
    So that is just my statement and my concern about your 
budget, and we will work with you and our great chairman and 
ranking member to try to produce something better.
    Mr. Calvert. Thank you, Marcy.
    Secretary Perdue. I appreciate your concern and your 
passion. I have heard great things about the Great Lakes 
Restoration Project. I think we were making progress in that, 
as well as the Chesapeake. And we hope we will have the 
opportunity to continue that.
    As a former governor, you know I know how this government 
works. We have an executive branch that proposes. We have an 
legislative branch that legislates and appropriates. We have 
got a judicial branch. So I hope all together we can come 
together and address some of those concerns certainly so we can 
leave it better than we found it.
    Mr. Calvert. Thank you. Mr. Joyce. The Great Lakes are well 
represented here today.

                           EMERALD ASH BORER

    Mr. Joyce. Secretary Purdue, Chief Tidwell, thank you very 
much for being here today.
    I was happy to hear you call trees an agricultural product, 
having owned a small Christmas tree farm. I thought this would 
be a wonderful way for our family to all work together, and I 
found the kids only liked it when they were selling the trees 
and giving out candy canes and not doing much else during the 
course of the year.
    But I would like to follow up on my colleague from Ohio Ms. 
Kaptur's comments about the emerald ash borer. You brought up 
the Great Lakes Restoration Initiative (GLRI), and you happened 
to be able to get some of that money to help prevent what is a 
100 percent mortality rate with the emerald ash borer, but I 
understand only the Wayne National Forest is in Ohio.
    I know it is not necessarily part of your purview, but are 
you doing anything to help people or nongovernmental entities 
surrounding the forest systems to try to combat this emerald 
ash borer because having lost this in my own yard, once they 
are in there, boom, all your trees are dead within years. It 
really has become a problem.
    It is restricted. You can't even use it for firewood, 
transferring county to county, and we really need some help.
    Secretary Perdue. The Chief can address this specifically, 
but my goal, my principles are in cooperation with the Forest 
Service is just almost like the Ag Extension Service. We have 
got an education, a research education communication network 
out here, and that is where many of these private partnerships 
working with State and private landowners have been so 
effective in communicating what they can do.
    I have got a picture here in the west that talks about good 
forest management and how it impacts that. So the Chief may 
know more specifically about the emerald borer, but the 
principle is we want Forest Service to be an educational tool 
to get best practices both for private lands and for public 
lands.
    Mr. Joyce. I have got to tell you, Mr. Secretary, that is 
music to our ears. Because part and parcel of the GLRI is also 
educating the farmers to reduce the amount of fertilizer, and 
they get higher yields with less fertilizer but when the State 
comes in and says they are going to cut down on the amount they 
can use, well, the first thing a guy does is overloads the 
field to make sure he is in before the edict is actually 
implemented. So you really want to try to educate them.
    There are so many ways they can do that now. I am amazed. I 
was at one combine with a guy who uses his iPad, not even 
touching the steering wheel. We are going down the field, and 
he is measuring the soils and less fertilizer, higher yields, 
it all works but it is going to take education, just what you 
are saying.
    Secretary Perdue. It would. And technology and rural 
broadband connectivity. They depend on being able to connect 
into the data systems that do that. So there are a lot of 
opportunities, a lot of challenges, but that is why we are 
here.
    And I look forward to visiting your area. I am not as 
familiar with the border of Lake Erie as I could be. I lived in 
Ohio, down at Columbus, in the middle seventies in the Air 
Force but didn't make it up to your beautiful area.
    Ms. Kaptur. You are welcome.
    Mr. Joyce. Love to have you. If you like to fish we have 
some pretty good fishing, too. Chairman Calvert wants to come 
too and catch some walleye. Excuse me, Chief.
    Mr. Tidwell. Just quickly, we still haven't found a 
solution to the emerald ash borer, and our scientists are 
working with the other agriculture agencies and also with 
universities to find some type of--ideally a biological control 
on this pest that came into this country through one of our 
ports and now has spread all the way up to Canada.
    One of the things we are working with is the places to get 
out in front of it and actually have to clear out the ash to 
just be able to stop the spread. That is one of the tools that 
has been helpful, but when you are out in the country that is 
something you can do, but as it is going through communities, 
it is not what people want to see their ash trees cut down.
    So it is just still challenging, but it does make the point 
about our research and development branch of the forest service 
that we work very closely with the other agencies and 
universities for us to be able to maintain that, and this 
budget request does allow us to be able to maintain our 
research with the emerald ash borer to be able to find that 
solution. At the same time to be able to do what we can to 
prevent the next pest from coming in to this country, through 
our ports.
    Ms. Kaptur. Would the gentleman yield?
    Mr. Joyce. Absolutely.
    Ms. Kaptur. Could I ask, on the emerald ash borer and the 
loss of ash trees, do you know, sir, how many we have lost 
already and what the projected loss is and what percentage that 
comprises of our ash tree population?
    I just know Ohio and Michigan. I don't know the whole 
country number.
    Mr. Tidwell. I can provide that information to you, but it 
is devastating to the ash in the east, and if we can't find a 
solution to this, there is a high likelihood we will lose the 
ash tree from the Eastern United States.
    [The information follows:]

    It is estimated that the emerald ash borer has killed more 
than 100 million trees in the cities and rural forests of the 
30 States in which it is currently found. According to FIA 
estimates, the total number of ash trees on forested lands is 
9.4 billion (this does not include urban areas). The most 
recent National Insect and Disease Risk Map estimates that more 
than 700,000 acres of ash forests are at risk to EAB-caused 
mortality in the next 15 years. The Forest Service does not 
track the total numbers of ash trees in forested rural and 
urban areas.

    Mr. Joyce. Wow.
    Mr. Tidwell. I wish I had a more positive response, but 
that is the challenge we are up against.
    Mr. Joyce. Isn't that what is used to make baseball bats?
    Mr. Tidwell. Yes.
    Voice. Baseball is gone, then we are into basketball.
    Mr. Tidwell. Aluminum.
    Ms. Kaptur. If you go through one of the communities I 
represent it is like you take a razor and you just zzzzzz, you 
go right, and they are gone. It is astounding.
    Mr. Joyce. Thank you both. I yield back, Mr. Chairman.

                            AVIATION ASSETS

    Mr. Calvert. I have a number of questions I am going to 
submit to you for the record, but one thing I would like to 
talk about quickly is some of our Forest Service aviation 
assets. As you know, we had $65 million in fiscal year 2015 
account that was to acquire an additional aircraft. So I was 
wondering what the status of that acquisition is and when do 
you expect to award the contract, and do you anticipate the 
award will be contested?
    Mr. Tidwell. We are currently reviewing the bids we 
received to acquire an aircraft, and I expect I can report back 
to the committee in the next few weeks on the progress of that.
    As to the second question, that is always just part of the 
process.
    Secretary Perdue. My question would be, how many people 
make the 130J?
    Mr. Calvert. I think you know what State it is from, too. 
You might like that aircraft.
    Also, the Defense Authorization Act in 2014, as you 
remember, transferred seven HC-130Hs from the Coast Guard and 
15 C-23 Sherpas from the Army just to the Forest Service, and 
we provided $130 million for the planes to be retrofitted.
    So I would like to get the status of where those aircraft 
are right now, what is the status of those transfers, if they 
have happened, and where we are on the retrofit.
    Mr. Tidwell. We will be flying one HC-130H again this 
summer, and then fiscal year 2019 we will have two C-130Hs with 
the tank installed. Then in fiscal year 2020 we will have four 
more. Then by fiscal year 2021 we will have all seven of those 
with the tanks installed.
    There was an issue with the contract Air Force was using to 
install the tanks. It slowed down the progress there, but as 
they have put on the new wing boxes on those planes, we take 
one each year and we fly that with a MAFS unit and then rotate 
that back in to be able to get the internal tank installed.
    Mr. Calvert. Okay. Good. Ms. McCollum.
    Ms. McCollum. Thank you. Back to the aircraft, when I was 
up in Northern Minnesota talking to the pilots, they said it is 
really hard to get pilots right now because of what is going on 
in the industry. So I hope as we get the planes we can retain 
the pilots, and if you need any flexibility with how you go 
about retaining and recruiting pilots, please keep us apprised.
    Mr. Chair, I am also going to submit some questions for the 
record. As Secretary Purdue and Mr. Tidwell know, we want to be 
helpful on the backlog of maintenance. There is an inspector 
general's report on that, so I know that you are capable of 
getting us the ash tree number.

                            INVASIVE SPECIES

    Let me just put a couple statistics out there. I don't 
represent Minneapolis, but it is part of the Twin Cities. Five 
thousand trees a year are being lost until the city's public 
ash trees are gone. That is how much they are cutting down a 
year.
    And in Saint Paul where I live 8,500 boulevard ashes have 
been removed so far. The pace is increasing. We take them down 
in the winter when the little pests aren't active.
    By the end, we think that over 60,000 trees will be gone. 
It is important we remove them in the urban areas because how 
they got here to the Twin Cities was hitchhiking on railroad 
cars. So if we don't get them down as the railroad cars and the 
shortlines go through, these little pests will figure out a way 
to get on them and go into more rural areas.
    This is really an all hands on deck to reduce the spread of 
this from going any further east than the Mississippi River. So 
I appreciate the work that the Forest Service Station in the 
Twin Cities and the St. Paul Campus for the University of 
Minnesota are doing together.
    This is all hands on deck, and we are going to see more and 
more of this as the climate puts more stress with the climate 
change on our forests and hardwood.
    So I want to thank the Forest Service, and thank you Mr. 
Perdue. It was a delight meeting you today.
    I thank you for your support of keeping our pristine waters 
clean in the northern part of our United States.

                              BARK BEETLE

    Mr. Calvert. Thank you. We will be closing down here in a 
minute, unless there is any further comment.
    But one comment about these invasive species. I am from 
California, and we have not just the bark beetle, which is 
obviously devastating the forest, but since we have you here in 
the citrus industry, which is kind of important in my State 
still. It has literally wiped out the citrus industry in 
Florida, as you know. It is in Texas now. So it is in 
California, except it is not as affected at this point. They 
found some in the Hacienda Heights area.
    Mr. Simpson. Mr. Chairman, I just want you to know that in 
parts of Idaho, we consider Californians an invasive species.
    Ms. Kaptur. Mr. Chairman----
    Mr. Calvert. With that I think we may adjourn here pretty 
soon.
    Ms. Kaptur. Mr. Chairman.
    Mr. Calvert. Yes.

                          USDA REORGANIZATION

    Ms. Kaptur. I would just, since the Secretary is here and 
he has been very gracious with his time, I wanted to just ask 
you when you realigned USDA and you put farm production and 
conservation together, could you expound a little bit on how 
that relates to the Forest Service and what is your thinking?
    Secretary Perdue. Sure. As you know, NRCS was under the 
missionary of the Forest Service. The Forest Service has about 
a third of the employees of USDA and in many areas. We have got 
a lot of challenges. As I went around and I heard it looked 
like to me we had a lot of challenges for forest management and 
the Forest Service. I wanted someone, first of all, who was 
dedicated to resolving many of those issues of the questions 
you raised this morning.
    The second point was NRCS is a customer-facing 
responsibility. There are more aligned with the Farm Service 
Agency and the risk manager from a producer standpoint. So 
those missionaries are going to be under one Undersecretary and 
have three directors there that collaborate.
    Our data systems weren't talking to one another, and 
sometimes we were colocated, but it was all separating. We act 
like we were separate agencies. So this is a customer-facing 
responsibility trying to fulfill our customer service 
responsibility.
    The other thing on the realignment had to do with rural 
development. As I said, I am not a micromanager, but I am a 
hands-on manager. I wanted that person with access to be on a 
walk-in basis where we got projects we can move quickly, rather 
than having to float up through a chain and sometimes lose the 
opportunity, so that was the purpose.
    Ms. Kaptur. Thank you sir.
    I just wanted to say that I would very much appreciate your 
review of my bill on a Civilian Conservation Corps. You can 
redline it. You can amend it. You can do anything you want, but 
I would be very interested to hear what you think about it, and 
how we might achieve it. Thank you.
    Mr. Calvert. Thank you.
    Secretary Perdue. If I can close, I probably should have 
started this, but I wanted to see in this packet.
    This is healthy forest versus unhealthy forest. This was 
from the Black Hills. I was there last weekend. And it just 
shows you what good thinning management can do.
    This is the mountain pine beetle, one of those species that 
can be--those brown where trees have died there. The green 
areas where they had been thinned ahead of time. That is why it 
is so important we get the forest budget straightened out so we 
can do more of this all over our forests there.
    So we have used over a thousand words, but that picture is 
worth a thousand words there.
    Mr. Calvert. Well, thank you, Secretary Perdue. We 
appreciate you getting on top of this and working with our 
chief, Chief Tidwell. We appreciate all your years of service, 
and with that we are adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Thursday, June 8, 2017.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. RYAN ZINKE, SECRETARY, UNITED STATES DEPARTMENT OF THE INTERIOR, 
    WASHINGTON, D.C.
OLIVIA FERRITER, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
    PERFORMANCE, AND ACQUISITION
DENISE FLANAGAN, DIRECTOR, OFFICE OF BUDGET

                  Opening Remarks of Chairman Calvert

    Mr. Calvert [presiding]. If everybody can grab a seat, we 
are going to get going here in about 30 seconds.
    The committee will come to order, and we want to welcome 
everybody here. We are the only folks in town not watching the 
Comey show. [Laughter.]
    Good morning, and I would like to welcome to the 
subcommittee the 52nd Secretary of the Interior, Ryan Zinke. 
Joining the Secretary this morning is Olivia Ferriter, Deputy 
Assistant Secretary for Budget, Finance, Performance, and 
Acquisition, as well Denise Flanagan, director, Office of 
Budget.
    Our hearing today will address the Fiscal Year 2018 budget 
priorities for the Department of Interior.
    Mr. Secretary, this is your first formal budget hearing 
before our subcommittee. On behalf of our members, 
congratulations on your confirmation, and welcome back to the 
House. We look forward to outlining your goals for the 
Department and discussing a variety of important issues with us 
this morning.
    Having worked alongside you here in Congress and knowing of 
your passion for the outdoors and recreation, I look forward to 
working with you to address the many challenges facing the 
Department. As a native Montanan and a Westerner, you have a 
deep understanding of and bring a welcome perspective to many 
of these issues.
    Our challenges are diverse and many: addressing the 
maintenance backlog in our national parks and across the 
various Interior bureaus, adequately funding fire suppression, 
meeting our legal and moral obligations throughout Indian 
Country, funding PILT and complex water issues affecting the 
West and my own State of California. These are some of the very 
tough challenges we stand ready to roll up our sleeves, work 
with you, and to seek solutions to these and other issues.
    This morning's hearing marks the beginning of a very candid 
conversation about your Department's funding priorities 
overall. The President's Fiscal Year 2018 budget request 
provides $10.6 billion of discretionary for the Department of 
Interior programs under this subcommittee's jurisdiction, which 
is $1.6 billion, or 13 percent, below the Fiscal Year 2017 
enacted level.
    At the outset, let me state the obvious. This is going to 
be a very challenging year. The President has presented a 
budget proposal that will be closely examined account by 
account, line by line. The budget requests for your Department 
may not be exactly what you would have proposed, but ultimately 
Congress will have the final say over the Fiscal Year 2018 
budget.

                             INDIAN AFFAIRS

    This subcommittee is committed to moving the Interior bill 
quickly. We will complete our work in a bipartisan fashion. 
Under both Republican and Democratic chairmen, this 
subcommittee has made a concerted effort to address the 
greatest needs in Indian Country. Education, healthcare, and 
law enforcement issues continue to be a nonpartisan 
subcommittee priority. We welcome your active involvement 
working with us and our American Indian and Alaska Native 
brothers and sisters. The challenge of providing adequate 
wildfire funding remains one of the great challenges facing 
this subcommittee.

                             WILDLAND FIRE

    I want to applaud my good friend, Mike Simpson, for his 
leadership and continuing efforts to address this issue through 
his bipartisan legislation, which, by the way, is being 
introduced, I think, in the House today, right?
    Mr. Simpson. Yes.
    Mr. Calvert. I encourage you, Mr. Secretary, to lend your 
voice to supporting the Simpson bill as you did while you were 
serving in the House, and encourage the President to do the 
same.

                         ENDANGERED SPECIES ACT

    Another challenge facing the Department and subcommittee is 
the Endangered Species Act. ESA is a well-intentioned statute 
that has saved numerous species from extinction, but its 
authorization has long expired. It is critical that we have 
open, realistic discussions in Congress about what is working 
and what is not.

                            ANTIQUITIES ACT

    Like many from the West, I welcome the Department's review 
of the authority under the Antiquities Act for designating 
national monuments. As you know from your travels, there is 
great concern that these designations often disregard the views 
and concerns of affected communities, local stakeholders, and 
the representatives of Congress.

                       PAYMENTS IN LIEU OF TAXES

    Identifying stable, long-term funding for payments in lieu 
of taxes, PILT, is another major challenge. Until a solution is 
identified, funding PILT is going to continue putting pressure 
on program budgets within the Department, across our agencies, 
and within this bill.

                         NATIONAL PARK SERVICE

    The National Park Service recently celebrated its 
centennial. In the Fiscal Year 2017 enacted budget, this 
subcommittee made a substantial investment in our national 
parks by providing additional funds for park operations, 
addressing longstanding deferred maintenance issues, and we 
certainly look forward to working with you to ensure that these 
national treasures are adequately funded, and seek avenues to 
reduce the longstanding maintenance backlog.

                         U.S. GEOLOGICAL SURVEY

    Lastly, I am glad to see that the USGS budget includes full 
funding for Landsat 9 core mission areas, including energy, and 
minerals, and mapping, are mostly spared. That said, I am 
concerned that some programs might have been too hastily 
proposed for termination. The West Coast and my home State of 
California, in particular, is counting on the Federal 
government and their expertise of the USGS to make earthquake 
early warning systems operational. This is a public safety 
program that will protect millions of lives and critical 
infrastructure. So, this subcommittee will be taking a close 
look at the program and how we can keep its momentum going as 
we consider Fiscal Year 2018 funding.
    In closing, I want to express my appreciation to your 
outstanding professional staff. Our subcommittee could not do 
its work without your budget shop, the various bureaus, and 
talented other people sitting next to you and behind you. 
Thanks to each of you for all you do.
    And with that, I am happy to yield to the gentlelady from 
Minnesota, Mrs. McCollum, for any opening remarks she would 
like to make.

               Opening Remarks of Congresswoman McCollum

    Ms. McCollum. Thank you, Mr. Chairman, and thank you for 
the courtesy of the opening remarks. I would like to just 
reiterate, Mr. Chairman, for many, if not pretty much 
everything, that you said in your opening remarks, you have my 
support to work on those issues together with you.
    Mr. Zinke, thank you for being here with us today. Mr. 
Secretary, I know this budget was put together before you had 
an opportunity to have a full imprint on it, and so I know that 
there is lots of room and where we can have discussions and 
work forward.

                        PARIS CLIMATE AGREEMENT

    But I want to begin by saying how profoundly disappointed I 
am that President Trump is withdrawing the United States from 
the Paris Climate Agreement. His decision harms the health of 
our children and grandchildren. It jeopardizes the environment 
that we will leave them. This Administration's willful denial 
of the threats of climate change is reflected in the Department 
of Interior's budget, which cuts funding for climate change 
research and mitigation by an appalling 80 percent--80 percent 
cut--to climate change research and mitigation.

                          2018 BUDGET REQUEST

    The Department manages hundreds of millions of acres of 
America's most precious land and resources. Despite this 
tremendously important responsibility, President Trump's 2018 
budget cuts the Department of Interior by $1.16 billion, or 13 
percent. After we adjust that for inflation, we are well below 
2010 levels of spending.
    These proposals contained in President Trump's budget, I 
believe, are reckless. They are reckless and they endanger our 
natural and cultural resources. This budget guts funding for 
programs critical to appropriately manage our public lands, it 
dishonors our commitment to Native Americans, and it rejects 
science. Sadly, this budget advances an agenda that puts the 
profits of oil companies above the public good.
    There is a place for responsible oil, gas, and development 
on our public lands, but it must be balanced, and it must be 
sustainable. This budget abandons the Department's conservation 
responsibilities.
    The Administration has already begun to reverse critical 
environmental policies, such as those that limit offshore 
drilling, a moratorium on coal mining leases, and the control 
of methane venting from drilling operations. These policies 
were carefully developed through scientific and public 
processes, but the Administration would rather ignore the 
science and the public opinion.

                             INDIAN AFFAIRS

    The Administration also proposes significant reductions to 
Indian programs. The Department's Bureau of Indian Affairs and 
Education is responsible for enhancing the social and economic 
well-being of Native Americans. This budget ignores that 
obligation and cuts Indian programs by $372 million, or 13 
percent. In particular, the Department's decision to eliminate 
the Tiwahe Initiative's investments in family supports will 
devastate tribes like the Red Lake Nation in Minnesota. The Red 
Lake Nation has used the funding to open their Children's 
Healing Center, and to stop an epidemic of suicide on their 
reservation. This is a successful pilot project, and we should 
be expanding it, not eliminating it.
    The budget request stalls the progress that we are making 
as a committee to replace BIE schools that are in deplorable 
condition, and cuts the programs that provide social services, 
welfare assistance, and Indian Child Welfare Act protections. 
The United States has an obligation to protect tribal treaty 
rights and resources, and I find it disgraceful that the 
Administration's budget turns its back on this duty. I am proud 
and grateful that the funding for Native American issues has 
been an area of bipartisan cooperation, and I will go as far to 
say, on this committee, nonpartisan cooperation. I fully expect 
that we will continue our commitment to work together for the 
good of Indian Country.

                                SCIENCE

    The Department's science programs that provide data and 
tools for information and sound decision making to address 
complex challenges, such as drought, natural hazards, and 
climate change, is shortsighted. And it is irresponsible to cut 
programs that provide advance warning protections to protect 
life, health, and property of millions of Americans as proposed 
with the elimination of the $10 million for the Nation's early 
warning earthquake system.

                                STAFFING

    We can all agree that a strong America is one where we 
protect our natural resources for future generations. Being 
good stewards of those resources requires a robust investment 
in both resource management and the staffing to carry it out. 
The staffing reductions proposed in this budget and the long-
term workforce reduction plan that you are developing do not 
provide any assurance that you will be able to properly execute 
your duties and responsibilities in this Department of 
Interior.

                              2018 BUDGET

    The budget is unacceptable, and I expect my colleagues on 
both sides of the aisle to reject it. The Interior Department 
and the American people deserve a budget that reflects the 
economic and recreational opportunities and the environmental 
benefits that the Interior programs have on the lives of all 
Americans, especially their health and economic prosperity.
    I am going to make my position very clear. I will not 
support an Interior environment bill that appropriates less 
than our current 2017 Fiscal Year level. I pledge to work with 
my colleagues in Congress and you, Secretary Zinke, to ensure 
that the Department of Interior has the necessary funding so 
our national resources, our Nation's cultural heritage, 
continues to benefit all Americans.
    Thank you, Mr. Chairman, for the courtesy of an opening 
statement.
    Mr. Calvert. Thank you. Thank you for your opening 
statement. We are also joined today by our distinguished 
chairman of the full Appropriations Committee, Chairman 
Frelinghuysen. I want to thank him for taking time to 
contribute to this important conversation.
    Chairman, would you like to make some opening remarks?

               Opening Remarks of Chairman Frelinghuysen

    Mr. Frelinghuysen. I would. Thank you, Mr. Chairman. And 
may I say there may be a lot of activity on the Senate side, 
but there should be a lot of praise because many happy returns 
of the day to you, Mr. Chairman, on your birthday.
    Mr. Calvert. Well, thank you. I appreciate that. 
[Laughter.]
    Mr. Frelinghuysen. Well, you can give him a round of 
applause. [Applause.]
    Mr. Calvert. It is good to have birthdays, I know that.
    Mr. Frelinghuysen. I also want to welcome Secretary Ryan 
Zinke to the Appropriations Committee, and while it is your 
first time before the committee, we welcome you back as a 
former colleague.
    Today's hearing is an important part of the oversight 
duties of this committee. Now that we have formally received 
the Administration's budget request, the committee will 
undertake a thorough analysis of it. We will go through each 
and every budget line, question witnesses, and demand credible 
spending justifications, and only then will we make our own 
determinations on the best use of tax dollars.
    When I travel around my congressional district in New 
Jersey, the Department of Interior's strong presence cannot be 
missed. We have the Nation's first historical park founded in 
1933 in Morristown. We also have the most remarkable Thomas 
Edison National Historic Park in West Orange, and acknowledge 
his contribution to this Nation's research and development. I 
also have in my congressional district the Great Swamp Wildlife 
Refuge, and, if I may just take a personal note, by an act of 
Congress proposed by my late father. This is a remarkable open 
space, the largest such refuge and swamp other than the 
Okefenokee on the East Coast.
    When I look at your budget, I obviously share the Nation's 
concerns about where we are going in terms of spending, but I 
am also concerned about some of the cuts that are being made 
across the National Park Service and Fish and Wildlife Service. 
And I look forward to hearing from you the rationale for 
including them.
    And may I say on another note, there are oftentimes 
differences between the East and the West and the Western 
Caucus, but in our neck of the woods on the East Coast, we are 
awfully proud of the work of the Department of Interior. And we 
salute the activities of the men and women who provide such 
incredible services interpreting those types of histories to 
future generations.
    I look forward to working with you, and I want to thank 
Chairman Calvert for his leadership, and we look forward to 
working with you again. Thank you.
    Mr. Calvert. Thank you, Mr. Chairman. I am also pleased to 
see our ranking member of the full committee. Mrs. Lowey is 
here today. I am happy to yield to the gentlelady for any 
opening remarks she would like to make.
    Ms. Lowey. Thank you, and I would like to thank Chairman 
Calvert and wish him a happy birthday.
    Mr. Calvert. Thank you.

                  Opening Remarks of Congressman Lowey

    Ms. Lowey. And Ranking Member McCollum for holding this 
hearing. And I join you in welcoming Secretary Zinke before the 
subcommittee.
    Secretary Zinke, your Department is charged with protecting 
and managing our Nation's natural resources and cultural 
heritage. Despite responsibility for preserving American land, 
water, and wildlife, from the gates of the Arctic in Alaska to 
the Virgin Islands National Park, and everywhere in between, 
your budget proposal abandons your Department's critical 
mission.

                             CLIMATE CHANGE

    During your confirmation, you stated you would dedicate 
yourself to conservation and protect our national parks, but a 
report from last month found that Glacier National Park's 
glaciers are rapidly disappearing, shrinking an average of 39 
percent over the past 50 years. Some have shrunk by as much as 
85 percent over the same time. One of our most prized natural 
resources is melting before our eyes. By ignoring the threat of 
climate change, this Administration is breaking its promise to 
protect American lands for generations to come.
    The science is conclusive. Human activity is contributing 
to a change in the world's climactic patterns. As average 
temperatures and sea levels rise and weather becomes more 
extreme, our natural resources face an increasing risk. These 
facts demand action, and your Department's budget request is 
wholly inadequate to address the dangers presented by climate 
change.

                              2018 BUDGET

    Decreases to the Department of $1.6 billion, or 13 percent, 
would render it incapable of meeting our Federal 
responsibilities. Misguided policy proposals would further 
endanger American lands by allowing oil and gas leasing in the 
Arctic National Wildlife Refuge, and expanding offshore 
drilling along the Atlantic coast and the waters around Alaska.
    In addition to being critical to our national security, 
Arctic waters are home to endangered species and diverse 
ecosystems. Any oil spills in the Arctic would be disastrous 
for the region, and our ability to clean up a spill in the 
region's harsh weather and light conditions is limited.
    The Fiscal Year 2018 request for the Department of the 
Interior shortchanges the American people by failing to provide 
adequate resources to preserve our Nation's cultural heritage 
and public lands, while padding the pockets of the oil and gas 
industry. Your priorities, in my judgment, are just wrong. It 
is my hope that Congress will reject the President's budget 
request and instead pass a spending bill that invests in 
America, addresses climate change, and moves us forward in the 
21st century economy.
    I must say, Mr. Secretary, that this committee has always 
worked in a bipartisan way. And although we have some 
differences, in the end we produce some pretty good bills. So, 
I just want to say I look forward to working with you. And as 
harsh as my statement may seem, I am optimistic that we can get 
together because the issues are so critical, and we have to 
move forward together, Democrats and Republicans, to protect 
our Nation and our Nation's heritage.
    Thank you very much.
    Mr. Calvert. I thank the gentlelady for her statement. With 
that, Mr. Secretary, you may proceed with your opening 
statement.

                   Opening Remarks of Secretary Zinke

    Secretary Zinke. As a former congressman, Chairman, 
Chairman, Chairman, Chairman, Chairman, Ranking Member, Ranking 
Member. [Laughter.]
    Thank you for allowing me to testify, and, if I can, I will 
request permission to submit my entire statement into the 
record.
    The budget. The President has delivered a responsible plan 
to put America back on track for a balanced budget by 2027. 
This is what a balanced budget looks like. As the Secretary, I 
look at it as a starting point. Everyone talks about balancing 
the budget, but this is what a balanced budget would look like, 
and it has some very difficult decisions along the way. Not all 
these decisions we agree on, but this is what a balanced budget 
would look like.
    I fully understand the Department of Interior touches more 
lives than any other Department. I fully understand the 
obligation of being a steward of our greatest lands, spanning 
12 time zones. 330 million visitors pass through our parks, 
and, yes, parks do create jobs.

                              2018 BUDGET

    The President's overall budget proposes about $11.7 billion 
and saves the taxpayers about $1.6 billion. It does prioritize 
America's energy independence with an all-the-above strategy. 
We do not value oil and gas over alternative energy. All-the-
above is a prudent focus.
    Let me give you an example of the importance of revenue 
when we talk about the budget. If you go back to 2008, we made 
about $18 billion in offshore revenue alone. That was our 
revenue per year. Last year we made $2.6 billion. That is a 
drop of $15.5 billion a year in revenue. I am faced with a 
$11.3 billion maintenance backlog at our parks, about half of 
that is roads. The $11.5 billion backlog in the parks 
represents about 73 percent of our total backlog in maintenance 
and repair.
    Dropping revenue $15.5 billion a year, is equal to getting 
caught up on our entire backlog of maintenance in 1 year, the 
full NPS backlog of $11.3 billion and $3 billion dollars to 
invest in new infrastructure and capitalization. That is the 
scale of what has occurred. When you add timber and onshore 
energy revenue, and the reduction of that, the balance sheet 
gets worse.
    One of the first acts I have done is I have looked at 
revenues. I formed a committee to look at revenues across the 
board because I am concerned we are not getting full value. If 
you are going to do a commercial enterprise at all on public 
lands, we are all stakeholders, and I want to make sure that 
how we gain rents and royalties is transparent, as it should 
be. It should be fair. The rules should not be arbitrary, and 
it should be in the best interest of the public because the 
public owns our public lands.

                             INFRASTRUCTURE

    When it comes to infrastructure, we plan on taking care of 
what we have. The budget reduces LWCF, which I have always 
supported. That reduction simply is no more land acquisition. 
We are going to take care of what we have. I am concerned, as 
you are, on infrastructure, and if you want to look at an 
example of the failing infrastructure, I invite you to go to 
Arlington House.
    Arlington is hallowed ground. It is a national disgrace 
what has occurred with Arlington. The shutters need to be 
replaced. The foundation is leaning. The gardens are 
inappropriate, and that reflects where we are on our 
infrastructure, and that is hallowed ground.
    The budget calls for a $35 million increase for a total of 
$766 million for national park infrastructure. Even though the 
budget is tight, we increased it. This includes $18 million for 
the first phase matching grant with the Department of 
Transportation for the Memorial Bridge repairs. The Memorial 
Bridge project alone is $262 million, and as Secretary, I was 
amazed at what I owned and what I did not own. [Laughter.]
    Of the $11.3 billion backlog, about half are roads, and 
about a third of those roads really are not in parks. They are 
parkways, like the George Washington Parkway, like the 
Baltimore-Washington Parkway, which are really transportation 
hubs, not a park asset as most Americans would understand it, 
but I am responsible for it. Believe me, if there is a 
chuckhole, I hear about it.

                       PAYMENTS IN LIEU OF TAXES

    Also on PILT. Last budget, as I recall from the Congress, 
it was not requested in discretionary at all, so I remember the 
conversation of going out and having to hunt and find money for 
PILT. This budget includes $397 million in discretionary for 
PILT, so if PILT is fully funded, you will not have to find so 
much because we did include funding in the budget.

                             INDIAN AFFAIRS

    We also support Indian trust responsibilities with a focus 
on, as I have said this many times, self-governance, self-
determination, sovereignty. On Indian education. We spend about 
$15,000 per student. That is in comparison to about $9,000 or 
so off reservation, and the results are far worse. We have to 
have a candid discussion on how to provide better service for 
Indian education.
    It is the same across the board with Indian health. I have 
seen it. I have stood in line with people that are waiting for 
healthcare, knowing they are only going to see 20 and the line 
is 50 long, and they are going to come back day after day after 
day.
    We have to have a candid discussion about what service we 
provide and how to do it better, because, quite frankly, I 
think we are failing on Indian education. More money may not be 
the answer, but we need to have a conversation to provide the 
service, and the hope, and the opportunity for every kid in 
America.

                              2018 BUDGET

    At the end of the day when you look at the budget, it 
reflects what it would look like if it is balanced. This is the 
starting point of the budget process, Congress also has a say, 
and in the budget, Congress has the last say. The budget does 
encourage some important things. It does encourage innovation. 
It encourages us to look at public/private partnerships where 
we can, particularly in our national parks, to move people. 
When you have 330 million people going through our park system, 
some of our parks, I would think, are at capacity and maybe 
over. We have to look at public/private partnerships to find 
new solutions and transportation methods to move people at 
crowded parks. I do not particularly want to be in the industry 
of transportation, but I think there are some great people out 
there who could move people in our parks more efficiently, to 
make sure we maintain the park experience that is valuable to 
us all.
    I appreciate this subcommittee and your strong support of 
the Department's mission. The budget looks at core tasks and 
goes back to core missions. I am happy to go through and work 
with you during this process. I can say this. I am red, white, 
and blue. I have never been red or blue. I am red, white, and 
blue. I think our public lands are one of the many areas where 
it is not partisan. Our public lands are American, and I am 
confident this committee also shares that same feeling.
    So, with that, I yield back.
    [The statement of Secretary Zinke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Mr. Calvert. Thank you, Mr. Secretary. I am happy to yield 
time to our chairman emeritus, Mr. Rogers, for any questions he 
may have.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you for 
letting me sit in. Welcome to our birthday party for our 
chairman. [Laughter.]
    Mr. Secretary, welcome back to your old stomping grounds.
    Mr. Calvert. Is your mic on?

                          AML ECONOMIC GRANTS

    Mr. Rogers. I think so. Can you not hear me? 
Congratulations on your confirmation, and thanks for what you 
have told us. You are on top of the job, and we appreciate that 
very, very much.
    As you know, I come from Coal Country, or what used to be 
Coal Country. Now these towns have more plywood windows than 
pane glass. I have lost 12,000 coal mining jobs just in my 
district in the last several years, a good part of which was 
caused by the United States Federal government under the last 
Administration. The war on coal is real, and unfortunately has 
had a devastating impact.
    That is why the Congress, over the last 2 years, passed a 
pilot program to help reclaim abandoned mines that have been 
sitting there for all these years for the purpose of doing what 
we are supposed to do, reclaim these abandoned mines, but 
probably, more importantly, hopefully produce some jobs to keep 
these families from going completely under water.
    So, for the last 2 years, this subcommittee wisely funded a 
pilot program within your Department focused on the reclamation 
of abandoned mine lands. The AML Pilot Program is a win-win. It 
is good for the environment, and it is good for jobs. It has 
bipartisan support here in the Congress, and we are seeing 
results, good results, of projects that have been undertaken 
and delivered with this 2-year pilot program. It is working, 
and it is helping in desperate areas of the country. It is 
limited to a few States where the impact has been the most 
severe.
    That is why I was completely flabbergasted to see in your 
budget request the elimination of that program. This coming 
from an Administration that I had been led to believe was 
wanting to help Coal Country. In eliminating this kind of 
program, that sends not just a message, it sends a blaring, 
glaring message to these desperate people who had a big impact 
in the recent elections. My office had asked the Office of 
Surface Mining to draw up a report on the projects funded under 
the pilot project in Fiscal Year 2016. I am told now that OMB 
has ordered even that study to be canceled.
    I just want to say to you, Mr. Secretary, that this is 
serious stuff, and I am hopeful that you can at least shake 
loose that report so we can see whether or not it is working. I 
maintain that it is, but we are entitled to have proof. I would 
hope that you could help us shake loose that report. Do you 
have any ideas about it?
    Secretary Zinke. Mr. Chairman, I have not heard about the 
report. I will do what I can to shake it loose. By and large, 
coal is up 16 percent. The President has said the war on coal 
is over. I will go back to this is what a balanced budget would 
look like. It is a good starting point.
    And I, too, have spent time in the beautiful State of 
Kentucky, and I was just in Ohio with the coal miners there. I 
have seen communities hollowed out, and it is devastating.
    Mr. Rogers. Yes.
    Secretary Zinke. It is not just coal country. It is the 
small logging towns. It is along the coast line in Alaska, 
which has arguably the toughest conditions, and they have not 
had access to their livelihood.

                              RECLAIM ACT

    Mr. Rogers. Quickly, secondly, let me mention to you the 
RECLAIM Act, which is now a bipartisan, bicameral bill. Several 
at this table are co-sponsors of it. RECLAIM, which would take 
monies from the unused, unspent, Abandoned Mine Lands Fund, 
which has been in existence, as you know, for years, and has 
accumulated billions of dollars sitting there unused while the 
reclaimed mine lands out there are un-reclaimed, and employment 
is hard to come by.
    So, the RECLAIM Act would take $2 billion from the 
Abandoned Mine Lands Fund to require it be used for what it was 
saved up for and authorized by law, to reclaim abandoned mine 
lands. This bill would do that, but it would also add an 
asterisk. The money must be used on reclaimed abandoned mine 
lands, but with a bent toward economic development potential 
for creating jobs at the same time with those funds.
    It is a multistate bill. It has agreement in the West and 
the East of the U.S. and from both parties in both houses of 
the Congress. And I would hope, Mr. Secretary, that you would 
see your way clear to be supportive of that type of bill. Have 
you thought about that?
    Secretary Zinke. Thank you, Mr. Chairman. The Mine RECLAIM 
Act is interesting. The reclamation fund has about $13 billion 
dollars. Now, it is not sitting there anymore. The program was 
designed to collect revenue from energy activities at Federal 
dams, as an example, and then be distributed for water 
reclamation projects. There's $13 billion that has not been 
distributed. It is in Treasury. The same thing with LCWF at $20 
billion as with the reclamation fund.
    A lot of these programs, money was designed to be targeted 
to an area, but the process of how it has occurred has not 
allowed that to actually happen. And I do agree that in water 
reclamation, those are jobs, not only the construction jobs, 
but also improving our water distribution in the West, our 
canal systems when we can coordinate and work together with the 
Army Corps of Engineers. On mine reclamation, there are about 
1,800 mines, I guess, that are on the list for reclamation.
    But to turn those lands over to something productive, I 
think is beneficial to us all.
    Mr. Rogers. That is what the RECLAIM Act does, and is what 
it is intended to do. I am overstepping my time. Mr. Secretary, 
thank you for listening to me on this, and I hope we could 
confer further about it as we go along.
    Secretary Zinke. I look forward to it, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Calvert. Thank you. I suspect those obligations exist, 
but I suspect that money that is supposedly in those lockboxes 
does not. [Laughter.]
    But we will get to that later. With that, Ms. McCollum, you 
are recognized.
    Secretary Zinke. There may be a call for a structural 
change. [Laughter.]

                              2018 BUDGET

    Ms. McCollum. Thank you. It has been pointed out that the 
Fiscal Year 2018 budget request for the Interior programs under 
the subcommittee's jurisdiction is 13 percent below 2017 
enacted level. Mr. Secretary, you have been quoted as saying, 
``I looked at the budget. I am not happy. We are going to fight 
about it. I think I am going to win at the end of the day,'' 
and you talked about this just being a start.
    This committee has been made very much aware of how OMB 
plays a significant role in deciding how much funding a 
Department requests. But you have expressed some concerns on 
some cuts, so I am going to pop my questions together. One of 
the questions that I have is on the Department's ability to 
fulfill its responsibilities. I am very concerned about 
staffing cuts, as I pointed out, and some cuts in some other 
area programs.

                           LETTERS OF INQUIRY

    Another question that I have, and I am going to give you 
something to take back with you, is I need to better understand 
your policies on whether you are going to respond to Democratic 
letters of inquiry, and how the time commitments are going to 
be filled between Democratic and Republican letters of inquiry. 
The reason why I ask this is I do not want to believe that this 
is true, but we have been told that the Administration's policy 
is not to respond to requests from the Minority.
    And so, I have submitted a couple letters as Ranking 
Member, and I have had other Members contact me about letters 
that they have submitted going all the way back to February and 
have not heard anything yet. I just want to make you personally 
aware of this because from your statements I know you want to 
work collegially with this committee on these issues.
    I will give this to the chair to give to you just to put 
this on your radar screen.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
                    CLIMATE CHANGE

    Ms. McCollum. I would like to take a few minutes to talk 
about climate change. As I pointed out, the President's 
decision to withdraw from the Paris Agreement is very 
disappointing to me, extraordinarily disappointing. But there 
has been call for clarity about what the President and the 
Cabinet believes about climate change and what they are willing 
to do to address it, because the President has said that he is 
willing to discuss this.
    You yourself have made conflicting statements about climate 
change over the years. In 2014, you said it is not a hoax, but 
it is not a proven science either. During your confirmation 
hearing, you acknowledged that humans are an influence on 
climate change, but you noted that since the U.S. Geological 
Survey is part of the Department of Interior, you will become a 
lot more familiar with it, and you are looking to work on 
objective-based science.
    Could you clarify for us whether you do agree that climate 
change is caused by greenhouse gases, including carbon dioxide 
and methane that is being released into the atmosphere. In 
2013, the oil and gas industry contributed 29 percent of the 
methane released into the atmosphere. Coal mining accounted for 
10 percent. And so, because you have in the Department of 
Interior regulation over mining, oil, and gas development on 
public lands, how are you going to use your position to combat 
the threats of climate change as leases are put forward?
    I believe that there needs to be a balance in development 
and conservation on our public lands. So, I am interested in 
learning what you see as an acceptable limit to energy 
production on Federal lands to achieve balance, and what 
actions are being proposed in the 2018 budget to mitigate or 
adapt to the effects of climate change on Federal lands. This 
is something that I have people from all over the country 
inquiring about. What we are going to do now that we are out of 
the Paris Agreement, so that we do not lose our leadership role 
and we do not become a rogue nation among other nations in this 
world with Syria and Nicaragua when it comes to addressing 
climate change.

                              2018 BUDGET

    Secretary Zinke. To go down the list real quick. I think 
the budget looks at core responsibilities. And, again, what 
does a budget look like if you did balance it in 10 years? This 
is the President's budget and I support it. This is what a 
budget would look like if we are going to balance it in 10 
years without increasing revenue.

                           LETTERS OF INQUIRY

    As far as responsiveness to both sides of the aisle, I have 
committed to come over to the Hill and talk to you personally 
every quarter. I also said that to Chairman Bishop's Committee 
in a bipartisan way.
    Ms. McCollum. Mr. Secretary, I know you have, but I want to 
know what guarantee we have that the people who work for you 
will respond to our letters.
    Secretary Zinke. I will look at that, but I will come over 
personally, and certainly we want to be responsive on your 
issues as well, on both sides. I think that is just what 
government should do.

                             CLIMATE CHANGE

    The Paris Agreement. It is about 20 pages, and as you go to 
about the 5th page, I think it was just a badly negotiated 
deal. We pay $3 billion, one billion dollars up front, cash. It 
lets China, India, Russia walk. The CO<INF>2</INF> in China 
actually increases until 2030 because the deal is structured on 
people. China has more people, so the world's greatest polluter 
takes a walk until 2030.
    We have to immediately reduce ours. That puts us at a 
permanent disadvantage economically. Aside from the climate 
change argument, and then you look at the MIT report, at the 
end of the day, it makes an insignificant difference. The 
structure of the deal I think was less about climate change. It 
was just a bad deal.
    And there were a couple bad deals. The Iranian deal, in my 
judgment, was a bad deal.
    Ms. McCollum. Mr. Chairman, with all due respect, and, Mr. 
Secretary, I do not mean to cut you off. But could you then 
address what I asked you regarding what you think the 
Department should do? As much as you and I could get into a 
debate about the Iranian nuclear deal, this is not the purview 
of this committee.
    Secretary Zinke. But my point was, I think it was a bad 
deal. So, climate change. I have been pretty consistent in my 
views on climate change. I do not believe it is a hoax. I think 
man has had an influence. I think the climate is changing. In 
reference to Glacier Park, glaciers started melting in Glacier 
Park right after the end of the Ice Age. It has been a 
consistent melt, including Lake Missoula, which has an ice dam, 
and I grew up in Glacier Park.
    I have seen the glaciers melt while eating lunch on a 
glacier. The problem is we do not understand what the effects 
are. There is no model that exists, and USGS has some terrific 
scientists. Some terrific scientists. There is no model that 
can predict yesterday from all the data we collect.
    But certainly, the climate is changing in ways we do not 
understand. Man has had an influence, but man has had a 
negative influence not only on CO<INF>2</INF>, but you look at 
arsenic. You look at chemicals. We have looked at agriculture. 
Man has not been a particularly good influence anyway on a lot 
of things, and CO<INF>2</INF> is a concern.
    But what should we do about it? What can we do about it? 
What is the right path forward? I think we need a discussion 
away from politics and go to science, and I have full 
confidence in USGS. We have looked at some great leadership 
coming in. Let us just focus on science. Let us focus on 
absolute core science.
    The budget. We had duplicative, redundant programs where 
even among our departments we were not together. On the climate 
issue in USGS, we combined activities in one division because I 
want to know from a division what is going on. That was the 
decision. Some activities were in the Fish and Wildlife 
Service, BLM, and the Park Service. We need to be on the same 
page so we can address what the conclusion is.
    I invite you to work with us on that and we will be 
transparent. I will get your study out of there. But I am 
confident we have enough expertise, but I also want to redirect 
it into research to make sure we are addressing the core 
science of it.
    Ms. McCollum. Thank you, Mr. Chairman. I look forward to 
seeing a detailed budget with the cuts that were in USGS on how 
you consolidated and kept all the research moving forward at a 
consistent level. Thank you.
    Mr. Calvert. I thank the gentlelady. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman, and thanks for being 
here, Secretary. I am sorry I could not be with you last Friday 
when you were in Idaho. I understand while you and Secretary 
Perdue were visiting NIFC, you had a chance to go see the 
famous blue turf.
    Secretary Zinke. It is there. [Laughter.]
    Mr. Simpson. It is there, and it is blue, is it not?
    Secretary Zinke. It is. Mr. Chairman, it is blue.
    Mr. Simpson. I also want to thank the chairman for 
mentioning that we are going to be reintroducing our wildfire 
bill today with a whole bunch of original co-sponsors.

                    LAND AND WATER CONSERVATION FUND

    I am introducing another bill that you might be interested 
in that I would like the Department to take a look at. We are 
going to be introducing it today also. It is the Land Act, 
which is going to reauthorize the Land and Water Conservation 
Fund for 7 years under mandatory funding, half of it to go to 
the Land and Water Conservation Fund to be split between the 
State and Federal side, and the other half to be used in 
backlog maintenance in our parks and our other land management 
agencies for $450 million a year. Hopefully this will get at 
addressing that backlog maintenance in these various agencies.
    As I said, it would be mandatory funding. We still have to 
find the offset for it, but we are hoping that we can maybe 
work that into the infrastructure package because it is 
infrastructure that we have the backlog on. So, I would like 
your Department to take a look at that and give us your 
thoughts on it.

                             CLIMATE CHANGE

    I want to follow up just a little bit on what Ms. McCollum 
said. I do not think any of us deny that climate change is 
occurring, but I also realize that there is no one in this 
government that can tell me how much money government wide we 
spend on climate change because it is diverse. It goes 
everywhere, every department. That is the key phrase now. If 
you want to increase your budget, put money in for climate 
change. So, every agency has money in for climate change in 
their budget request.
    I thought, at one time, I would take all the climate change 
money out of all the budgets and put it in one place, so that 
we could find out how much we are spending and that we are not 
being duplicative. In fact, I thought of the USGS because they 
are a great organization, and maybe that is where it should be. 
But right now, climate change is the key phrase everybody uses, 
every agency uses, when they want to get money in their budget.
    After 9/11, it was national security. If you want to grow 
corn in Iowa, we did it for national security reasons. That was 
the key phrase you had to put in every budget. So, those terms 
change, and climate change has become the one now. But we need 
to do a better job of coordinating how we spend.
    Now my question after all that. You did a secretarial order 
today, or you are going to, on sage grouse. Explain to me the 
secretarial order and what are the next steps that we take to 
address this issue.

                              SAGE GROUSE

    Secretary Zinke. I did sign a Secretarial Order. I had a 
conference with the Western governors last night, and this is 
what it did. On our side, it formed a task group, with the Fish 
and Wildlife Service, BLM, and with a coordinating reach to the 
Forest Service. We can actually begin a consultation process 
where we are on the same page.
    Some of the complaints were BLM had a different view from 
Fish and Wildlife, so you would go down a path for a while, and 
BLM would give you some guidance, and then Fish and Wildlife 
would come in at the last moment and change that guidance or 
vice versa.
    From our side of the house, the Secretarial Order did three 
things. One, it prioritized the effort as Secretary Zinke's 
priority. Two, it formed a task group so we could coordinate 
the plans better, and it opened up a State's ability to 
formulate a plan shaped to that State rather than just to us. 
We incorporated things like if a State feels comfortable about 
going on numbers vice habitat, captive breeding, predator 
control, we allowed the States more flexibility on how they 
approached it.
    What the Secretarial Order did not do is it did not stop or 
mandate a revision of the work that has already been done 
because there has been a lot of really good work on sage 
grouse, and we do not want to reinvent the wheel. We just 
wanted to give the States flexibility, if they can think of or 
they want a more innovative approach according to their data, 
then it allows that. That is what occurred.
    Mr. Simpson. What were the governors' reaction just out of 
curiosity? Characterize it.
    Secretary Zinke. Positive. One is the consultation. Many of 
the governors had not read it yet, but that is why we had the 
conference call to assure them that most of it was on our side, 
to form the task group, to make sure we are on the same page, 
and then give them more latitude. The governors are not all the 
same on the approach.
    Mr. Simpson. Right.
    Secretary Zinke. You know, Utah is quite a bit different 
than even Wyoming, and I think that is a good thing to have 
some flexibility on approach. The evaluation is really not on 
habitat per se. It is on whether the numbers of the sage grouse 
are healthy.
    Mr. Simpson. Right.
    Secretary Zinke. So, it does give another tool to evaluate 
their plan periodically as we look at what the numbers should 
be, whether their plan is effective or not.
    Mr. Simpson. Well, thank you for working on that. I am sure 
it is something we will be revisiting with you many times over 
the coming years as we try to work this out. Thanks for being 
here today.
    Mr. Calvert. I thank the gentleman. Ms. Lowey.
    Ms. Lowey. Thank you very much. And before I go to another 
subject, I just want to say, Mr. Secretary, I appreciate your 
response to Ms. McCollum that you have agreed to really 
evaluate all these programs and not just discount them, not 
just accept the cuts, but make your own determination in areas 
where you think we should be taking positive action. I think 
that is really important. You are entitled to your own review, 
but what we are really asking is that it is as an objective a 
review as possible, and then report back to us your decision.

                        NATIONAL HERITAGE AREAS

    But on another area, the National Heritage areas. The 
Heritage Partnership Program supports grants to local nonprofit 
groups in support of historical and cultural recognition, 
preservation, and tourism activities. This funding is so vital 
for the Hudson River Valley National Heritage Area, which 
happens to include my district, and it is truly an investment 
in the economy.
    The Hudson River Valley National Heritage Area has an 
estimated economic impact of $584 million, sustains 6,530 jobs, 
brings in $67 million in tax revenue to local communities, 
giving taxpayers a good return on their investment. And yet 
your budget proposes to wind down Heritage Partnership 
Programs. Eliminating this initiative would mean there is no 
direct financial support to the National Heritage Areas, which 
are managed by nonprofit organizations, and just would not be 
able to make up these cuts.
    Without this Federal assistance, I would like to know how 
many congressionally-designated National Heritage Areas will be 
self-sustaining.
    Secretary Zinke. I will find that number out, but you are 
right. I recognize the Heritage Program has been terrific over 
time and has done an enormous amount of good in communities 
that may not have all the resources to protect part of our 
Nation's history. The budget zeroes it.
    [The information follows:]

                        National Heritage Areas

    Sixteen of the 49 National Heritage Areas have undergone 
independent evaluation of their operational sustainability. Of the 16 
NHAs evaluated, 11 have the governance and staff to operate a 
sustainable NHA organization. However, loss of federal funding would 
reduce activities in those areas. For the remaining five areas, loss of 
funding would have a significant negative impact on the ability of the 
coordinating entity to carry out the area's legislative purpose and 
activities necessary to reach a self-sustaining operating model.

    Ms. Lowey. That is right.

                               FACILITIES

    Secretary Zinke. The reason is the priority is addressing 
our holdings first. I mean, when we have Arlington House, when 
we have the battlefields, when we have our parks, we have our 
facilities, our fisheries, we have 2,400 facilities and sites 
across the country. The view was in a balanced budget, what 
would it look like is that our stuff comes first.
    We give $5.5 billion in grants out. I would love to give 
ourselves a grant for fixing what we have. The worst actually 
is Washington, D.C. If you look at the Jefferson Monument, it 
is going to take about $26 million because Jefferson sits on 
mud and is leaning now. We have to pump up the foundation for 
it. We still cannot figure out how to fix the Washington 
Monument elevator, which drives me nuts, believe me. And then I 
look around our parks, the fountains.
    We need to fix our stuff; so the priority in this budget 
was fixing our stuff first. The $35 million plus-up in our 
infrastructure came at the expense of Heritage Areas and other 
things.
    Ms. Lowey. Let me just say I appreciate that you are just 
assuming these responsibilities, and that you and your staff, 
if you can afford your staff. I am not sure where that is right 
now. [Laughter.]
    Secretary Zinke. Well, we are making a lot of savings by 
not having anybody. [Laughter.]
    We save money every day.

                              PARTNERSHIPS

    Ms. Lowey. Well, a judgment has probably been made that you 
are so talented and that you have that capacity. But in all 
seriousness, I know so many of these things are partnerships. 
Without mentioning names, there are philanthropists that had a 
major role with the Washington Monument. The same person is 
doing the Arlington Cemetery. The same person did the welcoming 
exhibit at the White House.
    Secretary Zinke. And terrific, terrific commitment to our 
country.
    Ms. Lowey. Yeah, he is quite extraordinary.
    Secretary Zinke. And an absolute first-class patriot.
    Ms. Lowey. He really is.
    Secretary Zinke. I wish we had a thousand people like that.
    Ms. Lowey. Well, maybe that is a good thing for you to do, 
reach out and explain the importance of all these projects. I 
am just saying that another commitment of the President and 
this Administration is creating jobs, and these historic areas 
with their grants do create very important partnerships.
    So, I am not underestimating the importance of Arlington 
Cemetery and all the monuments, and we know they all have to be 
done. But as you are reviewing the entire budget and putting 
your own footprint--hopefully you will have staff to assist you 
in this effort--you remember the National Heritage Areas, not 
that they are going to take money from Arlington Cemetery. I am 
sure they will not, but it is an important project, and I would 
appreciate your consideration.
    Secretary Zinke. I certainly recognize the value of our 
country's heritage.
    Ms. Lowey. And if you need any more numbers or facts, I am 
very happy to share.
    Secretary Zinke. Thank you.
    Ms. Lowey. Thank you very much.
    Mr. Calvert. I thank the ranking member. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. First of all, 
Mr. Secretary, it is a pleasure to have you here. Everybody 
around this table certainly knows, we appreciate your service 
to our country in uniform, we appreciate your service when you 
were here as one of our colleagues, and we appreciate your 
service now as Secretary. I do not think the President could 
have made a better appointment. And we may agree or disagree on 
something, but, look, you are the perfect person for this job 
given your background, your values, and the commitment in 
Indian Country. So, thank you for doing it.
    I want to run through some things really quickly, and then 
I want to get to some questions, particularly on tribal energy 
development. In some places, I am going to agree with you, and 
in some I am going to disagree.

                             CLIMATE CHANGE

    I am going to start with agreeing with you and the 
President of the United States on the Paris Climate Accord. 
Thank you and thank the President for pulling us out of I think 
what you described perfectly as a very bad deal. And in my part 
of the world, believe me, that was an extremely popular 
decision by the President of the United States, and we think it 
was the right one. And I applaud him for being willing to 
negotiate and saying we are happy to sit down and talk with 
you. We are just not going to stay here with a bad deal for the 
United States of America. I think that is exactly what he did.

                                 ENERGY

    I also want to thank you for sticking up for the oil and 
gas industry. You know, that is pretty important in my part of 
the world, and everybody here sure likes $2 a gallon gas rather 
than $4. And you will know this as a military guy. The biggest 
strategic advantage we have probably developed in the last 30 
years is we are finally energy independent again, you know, and 
that is a big deal. There is a wonderful article today about us 
exporting a million barrels a day right now to other parts of 
the world, so that is a pretty big change. And finally, the 
biggest raise any American have gotten in last decade is $2 a 
gallon gasoline and the cheaper cost of heating and cooling 
their home. And that is largely driven by private energy, and 
initiatives, and enterprise.

                        NATIVE AMERICAN PROGRAMS

    I am going to agree or disagree with you a little bit. I am 
going to agree with my good friend, the ranking member, Ms. 
McCollum. The cuts in some of these Indian programs are just 
not acceptable. I mean this is the poorest part of our 
population. This committee has struggled, as she rightly 
pointed out, on a bipartisan basis to try and make some 
progress in these areas, and you do not balance the budget on 
the back of your poorest citizens. So, I think that some of 
these decisions are driven more by numbers than by equity in 
looking after people.
    And, frankly, in this case, these are treaty obligations, 
and tribes have taken us to court before and beaten us for not 
living up to our treaty obligations. And I know you take those 
seriously.

                              2018 BUDGET

    Finally, I am going to disagree with you also that this is 
a budget that balances. You know, I was sent to the Budget 
Committee. I do not know how I offended Chairman Rogers, but he 
sent me there. [Laughter.]
    And so, I am now in my 7th year. He liberated Calvert, and 
you kept me there. I mean, I do not know what I did, but I did 
learn a few things there. And I do not say this critically of 
the President. He made some commitments. But we will see a 
serious balanced budget when we see serious entitlement reform. 
That is just the fact of it.
    You know, we are trying to leave 75 percent of the budget 
untouched and balanced within the rest, and meet the priorities 
that we need to do in terms of defense, and I think your budget 
is a victim of that. I think other budgets are a victim of 
that. I hope next year we actually do have serious discussions 
or the year after at some point about how you really balance a 
budget. But you do not leave Social Security and Medicare out 
of the equation and think you are going to balance it.

                        NATIVE AMERICAN PROGRAMS

    So now, an area we do agree because I know how much you 
value sovereignty, and, frankly, your commitment on Native 
American issues because I got to work with you here. We always 
talk about gaming revenue, but one of the most important 
sources of revenue for tribes, of course, is energy 
development, particularly oil, gas, and coal. And Interior 
plays a very important role in that.
    The whole issue of permitting, I mean, at the end of the 
day we sometimes treat Indian land like it is public land. It 
is not. It is owned by the Indian tribes. We hold it in trust 
for them. But we have an obligation obviously to do the best we 
can to enable them to develop their resources, and, frankly, 
that works to our advantage because they reinvest in their 
people, and it actually lowers some of the demands that we have 
in these critical areas like law enforcement and healthcare.
    So, could you give me an overview of what you are doing to 
try to help those tribes that are blessed with natural 
resources to develop those resources as rapidly as possible?
    Secretary Zinke. Thank you, Mr. Chairman. Overall in Indian 
Country, at least on contract support costs, that was fully 
funded, and the tribal grant support costs were also fully 
funded. So, that part of the budget. The self-determination and 
support for tribal administration those are there. We have had 
a couple of water settlements, so that is moving forward. We 
are meeting our obligations.
    We are looking at some of the water settlement issues. What 
I did not realize, and maybe I should have, is that funding for 
some settlements goes into an account, but they cannot withdraw 
from the account until the account is full, and making the 
account full takes years.
    Mr. Calvert. Will the gentleman yield for a second?
    Mr. Cole. Certainly.
    Mr. Calvert. Why can Interior not use the judgment account 
out of the Justice Department in order to settle some of these 
water rights issues?
    Secretary Zinke. Mr. Chairman, we are actually looking at 
that. We are also looking at other tribal settlement issues 
because if you are looking at a $40 million project and you 
have to wait 10 years, it is not going to be $40 million. It is 
going to be $60 million. This is where tribal sovereignty would 
make sense. If a tribe wants to, as money goes into the 
account, if they want to use it, maybe we should allow them a 
path to use it. We are looking at that.
    If they have money in the account and they have a water 
project and the water compact specifies they can get started on 
it, let us distribute funds rather than locking it up for a 
generation by the time the account is full. We are looking at 
that as well.

                                 ENERGY

    On the energy side, it includes about $27.4 million in BIA 
for energy. But I can tell you from looking at the structure of 
what it is like to live on an Indian reservation and to try to 
get through the hurdles for development as opposed to non-
reservation land. Energy, in my view, is the right of the tribe 
to decide. It is not the U.S. government's right to decide 
whether they should develop or cannot. We just want to make 
sure that sovereignty should mean something. We have to look at 
our permitting process and how it is much more encumbered on 
Indian territory than it is off.
    At least it should be on par, but it is not. We are looking 
at making sure we are actually a partner rather than an 
adversary on such things, and pushing more authority if a tribe 
wants to develop their energy. Again, it is their decision. 
Then we should honor that and actually be helpful. In some 
cases, the system is so complicated and has hurdles.

                               PERMITTING

    What we are also looking at, which I think will be helpful, 
is how can we, as a Department, be more integrated. How can we 
improve the permitting process, rather than having the hurdles 
of going through Fish and Wildlife, and then BLM, and then 
cross decks over to the Army Corps of Engineers, and then to 
NOAA, because if you have a trout and a salmon in the same 
stream, who has jurisdiction? Well, trout are Fish and 
Wildlife. Salmon are NOAA. You might have irrigation, which is 
Bureau of Reclamation, and you might have Army Corps. And of 
the three, you might have two which are in conflict with each 
other, that is not reconcilable.
    We have to look at how we, as a government, can act 
jointly, and we are looking at a model a lot like a combatant 
command and a lot like how we fight forest fires. At least from 
the government side, we should be able to offer an industry or 
a tribe a permitting process that early in the development they 
should know whether or not it is possible or not.

                           ENERGY REGULATION

    Mr. Cole. Well, let me give you a quick suggestion on the 
energy part, as you think through this, as you know, where 
Indian reservations are at, there is Indian reservation land, 
and most of them have state regulatory systems that decide who 
can drill. I have talked to some of the people that developed 
the Bakken shale from Oklahoma. And this was before they had 
gone on to three affiliated tribes' land, which now have 
substantial energy development, and it is benefitting those 
tribes.
    But I asked why are you guys not dealing with Indian 
reservation land, and one of them told me, it is real simple. 
He said, on one side of the imaginary line, I have got a State 
regulatory system that I can get a permit in 3 weeks and it 
costs about $250. On the other side of this imaginary line on 
the reservation where the feds are doing it, it costs about 
$6,000, and it takes almost a year. So, guess where we drill?
    It is not like North Dakota does not know how to regulate 
drilling--it does--or Oklahoma or these other States. So, we 
ought to try to mirror image the State regulatory system. I 
even suggested, although the tribes were not too keen on this, 
I said, why do not you compact with the State and have them 
come on your land, and they can do the regulatory process. But, 
there is deep concern about violation of sovereignty, and there 
is a lot of tension between State and local governments.
    But if we are going to do it through the feds, we ought to 
just basically look at what is the State system here that seems 
to be acceptable to most people, and we should operate 
accordingly. Try to match their timelines, and their costs, and 
not propose something that might or might not be appropriate on 
public lands. But it certainly should not be imposed on Indian 
lands once they have made, as you rightly point out, the 
decision that they want to develop. I agree with you a hundred 
percent.
    Totally their decision whether they want to do it. But if 
they do, then we ought to give them the same kind of speed 
that, private land get, in State-regulated areas that are 
immediately adjacent to the reservation.
    With that, anyway, you have been very generous, Chairman. 
Thank you. Yield back.
    Mr. Calvert. Thank you. I thank the gentleman. Ms. Pingree.
    Ms. Pingree. Mr. Chair, with your permission, I would like 
to yield to Ms. Kaptur, who has another meeting she needs to go 
to.
    Mr. Calvert. Without objection.

                              GREAT LAKES

    Ms. Kaptur. I want to thank Congresswoman Pingree very much 
for that.
    Mr. Secretary, welcome back. I am going to be passing out a 
little map here of the Great Lakes to any committee member who 
is interested. And my questions will actually involve USGS and 
the substantial cuts your Administration proposes.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
                          MAINTENANCE BACKLOG

    Ms. Kaptur. But in listening to the conversation this 
morning, and thank you for your testimony and for your 
commitment to our country, you referenced an $11 billion 
backlog of----
    Secretary Zinke. $11.3 billion. It is just in parks.
    Ms. Kaptur. Just in parks. Okay.
    Secretary Zinke. That represents about 73 percent of our 
total maintenance backlog.

                         WORLD WAR II MEMORIAL

    Ms. Kaptur. Okay. Let me share an experience. In 1987, I 
began the long quest to build a World War II Memorial here in 
Washington, and it took us 17 years. Not a penny of Federal 
dollars went into it. At that time, there was a deficit also. 
You know, every decade there is a deficit, so we said, well, 
okay, how are we going to do this?
    And we began with the issuance of minting coins that raised 
the first $7 million dollars. We did not do postage stamps, 
although I am thinking of something in that regard, adding a 
penny or two to a postage stamp for a certain purpose. The 
Postal Service has the ability to do that. A private committee 
was set up. Senator Dole helped lead that committee. FedEx 
contributed, and thousands and thousands of other companies 
did, and individuals. And the total cost of the memorial was 
probably about a half a billion dollars, all told.
    What happened at the beginning was that the fountain was 
restored. I actually fought against the Department of Interior 
getting the World War II Memorial because I wanted it to be 
with the American Battle Monuments Commission. They had to 
transfer ownership. But to date, the Department has done a very 
commendable job.
    But what happened at the beginning was the first major 
expense we had was that Americans were coming to the site, and 
just like three coins in a fountain, they were throwing money 
in the fountain. So, rather than the Department of Interior 
figuring out, hey, wait a minute, the American people want to 
help here, they put up signs, ``Do not throw money and coins.'' 
[Laughter.]
    And then, the signs got bigger, and I thought, wait a 
minute, this is nuts. The people want to help. Why do not you 
find a way for them to help? Well, I guess now there may be an 
app or something that somebody can find somewhere that they can 
contribute. But I really think with your background and your 
leadership, you could put together the most gangbuster concept 
to engage the American people to help our national parks, and 
to help to raise the money that is necessary to fix this stuff.
    I am all for Federal appropriation or I would not be here 
in Congress, so I agree with that, but I know what we were able 
to mobilize. It has been 30 years now since we began that 
effort. It took us 17 years to finally dedicate in 2004. But I 
learned a lot from that experience, and I learned about the 
generosity of the American people. I learned about how 
difficult it was to work with the government of the United 
States to try to get donations. So, there is something wrong at 
the Department of Interior.
    Now, I do not want a McDonald's sign over Mount Rushmore. 
This is not what I am getting at, all right? But I know what we 
did with the World War II Memorial, and we continue to this 
day. There are NGOs, like there is 501(c) called Friends of the 
World War II Memorial, that sits out there with a chair, with a 
committee. Many sites have these kinds of organizations.
    I really would urge you to consider using that example in 
kind of looking at other assets that we must manage. Imagine 
what the American people would do if they really understood 
what was needed at Arlington. Every State would adopt a 
section. I mean, the creativity that is needed here is someone 
who thinks about fundraising and has a great national 
commitment, and the baby boom generation is about to retire 
with the largest transfer of wealth in American history.
    So, I just think there's a lot there. So, I just want to 
put that on the record this morning.
    Mr. Calvert. If the gentlelady would yield on one point. I 
know we talked about this. If you go to Canada, you pay more to 
go to a Canadian national park than canadians. I know a 
substantial number of people that come to our national parks 
are not U.S. citizens. I would just put that out there as a 
suggestion.
    Secretary Zinke. Well, I will say, I have commissioned a 
quick study. Everyone loves their parks. Absolutely. It is 
amazing that about half of the parks do not charge at all. We 
do not charge at all. We divided our parks into tiers for 
charging fees, and a lot of our parks do not follow that, the 
tier system.
    We want to make sure our parks are a value, especially for 
families who want to go to our parks. We are not Disneyland, to 
your point, about our fee.
    Ms. Kaptur. Right.

                      PUBLIC/PRIVATE PARTNERSHIPS

    Secretary Zinke. But I think we have got to be innovative. 
I am forming a committee on public/private partnerships----
    Ms. Kaptur. Yes.
    Secretary Zinke [continuing]. Because there are things like 
Wi-Fi that we should be able to do. The airlines do it, so, we 
should be able to have Wi-Fi. On our fees coming in, there has 
been an incentive for a superintendent to at least follow the 
rules. And the incentive is that a lot of that should come back 
to that specific park and give some latitude how to spend it. 
There has to be an incentive structurally how to do it.
    There are a lot of really good people that love our parks.
    Ms. Kaptur. Oh, absolutely. My cousin just walked the 
Appalachian Trail. We cannot find him. He is out there 
somewhere.
    Secretary Zinke. The trail needs a little work, too, by the 
way. [Laughter.]
    Ms. Kaptur. Yes. But the point is, you know, I think 
enlivening the spirit of the American people, if you give them 
a target, they will reach it. They just do not know. I think 
you are divided up into so many subcomponents, people lose 
sight of you. I am just using stamps. I have been doing my 
bills. I do not do bills by the Internet. I do it by hand.
    Secretary Zinke. Mr. Chairman, also----
    Ms. Kaptur. Based on all these pictures of wild animals, 
you know, I am thinking is the Park Service getting an extra 
penny for this?
    Secretary Zinke. We talk a lot about the National Park 
Service, but Interior reminds me every day that there are 
wildlife refuges. There are other assets that are not Parks. I 
remind them if I talk about BLM a lot on the East Coast, people 
do not know what I am talking about because the face to a 
degree of Interior is the parks.
    Ms. Kaptur. Right.
    Secretary Zinke. When you go to a park, you should be in 
the right uniform and the bathrooms should be clean. We will 
just start there. We are re-emphasizing, I would say, 
infrastructure and clean bathrooms to begin with.

                              GREAT LAKES

    Ms. Kaptur. Okay. Now, I will get to my question very 
quickly. Very quickly. I have been discouraged, but I 
understand the pressures you are under, with OMB. But being a 
Great Lakes representative, I have to say that the State I 
represent means many rivers. ``Ohio,'' that is what the word 
means. And you were at the Ohio River, I believe, just 
recently? I do not know if you saw the Asian carp jumping out, 
but they are there. They have eaten up all the local species.
    And my question and the map I have handed out points at 
what is happening to the Great Lakes, particularly relative to 
algal blooms. Your budget proposes an 18 percent cut in the 
National Water Quality Program. And I would really direct your 
attention to that because language in your submission states 
that with that cut, you would have to lay off 108 full-time 
equivalent employees. You would suspend studies about how 
nutrients, carbon, and sediment are transported and delivered 
to small streams in the agricultural Midwest.
    You will note those lakes, particularly at Toledo that I 
represent where there was a major water crisis 3 years ago, 
where a toxin called microcystin got into the fresh water, we 
have to have data to understand the emerging contaminants and 
their threat to fresh drinking water supplies. Lake Erie is the 
most drawn upon of the lakes, serves the most people in the 
United States and Canada.
    This really is a very dangerous proposal with USGS because 
when the crisis happened just so you know, and I was flailing 
around on the weekend trying to find the right person in the 
Federal government to help us understand what level of 
microcystin can people drink. Guess what? We do not really have 
a standard. So, the United States defaults to the world 
standard of 1 part per billion. And we needed proper testing. 
We needed a regimen. You do not want to know how bad that 
system is in our country.
    So, USGS is important. I would urge you to revisit that 
part of your budget, and, believe me, I am going to try to help 
you. But we do not need to threaten fresh water supplies across 
our country.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentlelady. I appreciate it. Mr. 
Joyce.
    Mr. Joyce. Thank you, Mr. Chairman, and happy birthday as 
well. And, Mr. Secretary I would echo and second the comments 
already made by Mr. Cole, and I am glad to have you here today.
    I would like to talk about sage grouse. [Laughter.]

                               ASIAN CARP

    No, I do not want to steal Mr. Amodei's thunder. You get 
tag teamed here by the Lake Erie people, and so I want to 
follow----
    Secretary Zinke. We put $13.5 million in for the carp. 
[Laughter.]
    I have never seen one, but I know they are there. 
[Laughter.]
    Mr. Joyce. Well, I am surprised you did not get a picture 
because Congresswoman Kaptur has sent one around with the 
ugliest looking fish that I think she could ever find, and she 
sent it around and captured everyone's attention when we were 
at a full committee meeting one day when we were talking about 
carp.
    Secretary Zinke. And I do not mean to joke about it because 
I understand how serious it is.
    Mr. Joyce. Yes, it is.
    Secretary Zinke. It is a serious issue.
    Mr. Joyce. It is game, set, match if they get in the Lakes.
    Secretary Zinke. Yeah.

                   GREAT LAKES RESTORATION INITIATIVE

    Mr. Joyce. Lake Erie is very important and critical for 
drinking water, but it also supports commercial and sport 
fishing, to name only a few of the benefits. Visitors to Ohio's 
Lake Erie region spent more than $14.1 billion in 2015. 
Approximately 124,000 northern Ohio jobs, including jobs in my 
and Congresswoman Kaptur's districts, are directly linked to 
Lake Erie.
    The Great Lakes Restoration Initiative, or GLRI, aims to 
restore the Great Lakes ecosystem under one single initiative. 
The GLRI is guided by an Action Plan with detailed performance 
goals. An interagency task force, led by the U.S. EPA, is 
coordinating Federal efforts and directing funding to other 
Federal agencies, States, cities, and non-governmental 
entities.
    As you know, the President's Fiscal Year 2018 budget 
request eliminates funding for the GLRI. As of February 2017, 
Department of the Interior agencies have received significant 
funding under the program. For example, the U.S. Fish and 
Wildlife Service has received more than $356 million to 
implement 814 GLRI projects, and the U.S. Geological Survey has 
received more than $100 million to implement 152 GLRI projects 
in the region.
    Can you describe for this committee the consequences your 
agencies would face if you eliminate or significantly reduce 
funding for the GLRI Program? Can you give us examples of 
Department of the Interior projects that would end or be 
significantly curtailed if these cuts were to take place?

                              ALGAL BLOOMS

    Secretary Zinke. Well, let me pivot and tell you what we 
are doing. The USGS, I am not sure how many studies were under 
way, but there are multiple studies on it, but there are some 
conclusions that have been made. About 43 human deaths and 
animal illness have been related to the blooms. We know that. 
We know the blooms primarily are coming from nutrients in 
agricultural areas. That is what is causing the blooms, so it 
is the chemicals and nutrients from ag. We have to address 
that, and that is both EPA and ourselves, as well as the Army 
Corps of Engineers. We know just in Lake Erie about 400,000 
residents went without water for days, so we understand the 
consequences and the importance of it.

                              GREAT LAKES

    At Interior, the budget as far as the Great Lakes goes 
includes about $65.9 million, and it includes about $13.5 
million, which is about the same funding level as in 2017 for 
the carp. And the restoration part, I will have to get with you 
on line by line on that part of it.
    Again, I understand the importance of it. I would think 
this budget is a baseline, and I will work with you on it, and 
Congress gets the last chop.

                   Great Lakes Restoration Initiative

    Under the Great Lakes Restoration Initiative, the Department has 
received funding from the Environmental Protection Agency to support 
habitat restoration, to strategically target the biggest threats to the 
Great Lakes ecosystem, and to accelerate progress toward long term 
goals for this important ecosystem. DOI funded 193 projects valued at 
$64.7 million in 2016. Between 2010 and 2016, the Department allocated 
more than $330 million to more than 1,250 projects through the Bureau 
of Indian Affairs, the Fish and Wildlife Service, the National Park 
Service, and the U.S. Geological Survey. Funded projects address the 
highest restoration priorities in and around the Great Lakes including:
          <bullet> Cleaning up toxics and areas of concern;
          <bullet> Combating invasive species;
          <bullet> Promoting nearshore health by protecting watersheds 
        from polluted run-off;
          <bullet> Restoring wetlands and other habitats; and
          <bullet> Tracking progress, education and working with 
        strategic partners.

    Mr. Joyce. I appreciate that, and we managed to insert 
funding for the GLRI of $300 million a year for 5 years. As you 
well know, a lot of these studies and the things that we are 
doing are very important because they have to have some 
continuity to them. You cannot stop and start some of these 
studies in order to make them effective and worthwhile.
    But I also take pride in the fact that the vote was 407 to 
18, and not that I have those 18 names laminated. [Laughter.]
    But, taking the time to explain to people who are normally, 
as you well know, voting no on everything, that this is the way 
we should operate because all these task forces, all these 
agencies share information and work in concert to produce the 
desired result of trying to clean up this problem. And I agree 
with you, it is an agriculture problem. Of course, we have 
reached out to the States and tried to explain to farmers that 
it is, in fact, a problem, and that they can yield more with 
less fertilizer, and that takes time in the education process.
    So, I would appreciate working with you and offer any time 
to come down to your office and go through the budget on a 
line-by-line basis. You are more than welcome to come to the 
Great Lakes, you and Chairman Calvert, and I promise we will 
highlight the visit with some fishing, and you can see 
firsthand all the work that Governor, and Senator Voinovich, 
has done to restore the sport fishing to Lake Erie and the 
Great Lakes.
    Mr. Calvert. Hopefully it is walleye and not carp. 
[Laughter.]
    Mr. Joyce. I hope so.
    Mr. Calvert. We have a large Great Lakes contingent on this 
committee.

                             REORGANIZATION

    Secretary Zinke. If I could talk to the Great Lakes just 
for a second, we are looking at reorganizing how we do business 
with Interior because the carp issue is an example. It is 
important to the Great Lakes, but if you go across to Florida, 
they do not know what it is. Even our areas within our 
different regions in Interior, how you rack and stack the 
importance of things, a lot of really important issues locally 
and within the State get lost.
    We are looking at different models rather than, well, USGS 
reporting to their region, the Parks report to their region. We 
have these huge regions, but we are looking at actually 
breaking them up a little and going to a joint model in smaller 
areas based on based on drainages. Powell suggested it back at 
the turn of the century. He and Pinchot were late, and when 
Roosevelt left, it became out of favor. We are looking at more 
of a model on smaller ecosystems to base a reorganization. And 
rather than everyone report to their own region, they would 
report to a joint management area, like combat commands, so 
these smaller areas can focus on the problems that are within 
their smaller regions.
    We think the one-size-fits-all model in D.C., and as over 
time we developed these huge regions that sometimes gloss over 
issues that are incredibly important, need to be prioritized. I 
will go through with it with you and in some detail the next 
time where we sit on it.
    I talked to Department of Agriculture. They are going to 
help us with the joint command because I think if we can, among 
our bureaus, be a little more joint in how we do it, I think we 
are all better served.
    Mr. Joyce. I commend you on that thoughtful strategy to 
getting this developed. I was recently in the Everglades 
because they have the same algal bloom issue that we are having 
in Ohio. While they do not have Asian carp, they have pythons, 
which are a problem. You drive down 41, as you go across the 
Everglades, there is no road kill. The Pythons manage to eat 
everything. And so, the problems are alike, but different 
slightly. But that is a great strategy to try to combat the 
water crisis throughout the country.
    Mr. Calvert. I thank the gentleman.
    Ms. McCollum. Would the gentleman from the Great Lake of 
Erie yield for just a microsecond to the gentlewoman from a 
Lake Superior State?
    Mr. Joyce. If I have any more time left, Mr. Chairman?
    Mr. Calvert. The gentlelady is recognized.

                               ASIAN CARP

    Ms. McCollum. Mr. Secretary, when the Great Lakes 
Restoration Fund was set up, Asian carp and the funding for 
Asian carp was not part of it. When Asian carp needed to be 
funded, they came and looked at the Great Lakes Restoration 
because we are concerned about invasive species.
    So, invasive species, as the gentleman from Ohio pointed 
out, is one issue we have to look at. But the Great Lakes 
Restoration has already been nicked once with some of the work 
that it can do. They are willing to help out with Asian carp, 
but I just wanted to make sure that the record was clear that 
the Great Lakes Restoration originally did not have any funding 
dedicated towards Asian carp.
    Thank you.
    Mr. Calvert. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. Welcome back again, Mr. 
Secretary. It is nice to have a chance to chat with you again. 
I forgot when you came before that I meant to tell you I spent 
a wonderful time on a pack trip in the Bob Marshall Wilderness 
area. It was one of the greatest experience of my and my 
children's life several years ago. And I do think we have some 
things in common between our M States--Montana and Maine--just 
because you have mountains and we have ocean. We have some 
similarities.
    Also, Mr. Chair, happy birthday. I do not know if you know, 
but this is also the 110th birthday of the Antiquities Act, so 
I am sure it is a joint party.
    Voice. Because they are about the same age. [Laughter.]
    Mr. Calvert. Yeah. Sometimes I feel that way.
    Ms. Pingree. You would be a great grandchild or something 
of the Antiquities Act.

                       KATAHDIN WOODS AND WATERS

    Anyway, so, Mr. Secretary, when you came before, we had a 
chance to talk a little bit about Katahdin Woods and Waters. I 
did not know and I was kind of disappointed to find out that it 
was the next day that it got added to the list. So, maybe you 
did not know that day, but obviously it was under 
consideration. And since I did not know it was going to be 
added, now you will have the benefit of hearing everything I 
have to say about it and why I am concerned about it being on 
the list.
    It is not a hundred thousand acres, which was your original 
criteria. I understand that one of the reasons it is being 
looked at again is to see if there was sufficient public 
process. I just want you to know from my perspective and so 
many others there was a lot of public process. It goes way back 
in this area, and also just the north woods of Maine have been 
talked about for a very long time.
    I brought this little folder of the 200 letters I received 
in my office and this nice sticker. But I realize that I have 
to get a privacy waiver on every one to give them to you, so I 
cannot do that, although if you would like to see them, I will 
call each person personally and make sure I get a privacy 
waiver so you can see them.
    I hope you do get a sense of how much public comment and 
how much dialogue there has been. I have heard or I understand 
you might be coming to Maine in the next week or two to visit?
    Secretary Zinke. I am coming to that exact site next week.
    Ms. Pingree. Wonderful. Well, if you need any assistance, I 
am happy to welcome you, even though it is in the 2nd 
Congressional District, but we all kind of care about the State 
as an entirety. I am thrilled that you are going to be there 
because I think you will have an opportunity to see what a 
wonderful area it is. And you can hear firsthand from the 
communities, many of whom have gone through a transition over 
the years, at first deeply concerned, partly because of the 
loss of the paper industry and the wood products industry, and 
some real economic changes up there, and worried about what the 
impact of this area might be to them.
    But after years of public dialogue and debate, the area was 
designed in a--in a very good way. And now a lot of those 
people, many of whom I served with in the State legislature--I 
know them very well--have come around to the other side and 
said, ``you know what? Now we are in this, and we want to take 
advantage of the economic opportunity.''
    Just as a reminder, the Park Service director, Jon Jarvis, 
came up and held a meeting, which had about 1,400 people. My 
understanding is 1,200 of them were monument supporters. By the 
way, in this pile I have of 200 letters, those are 200 letters 
in favor. I got a handful of people who raise concerns, but not 
very many. So many business owners have talked to us, been to 
visit us here, talked about the opportunities and the support, 
whether it is for inns and restaurants, tourism businesses, or 
new businesses that they hope to create.
    There have been 5 years of this public dialogue and 
discussion. Elected officials, as I said, have come around. 
Chambers of commerce have been writing to us. City councils, 
rotary clubs, so many traditional and nontraditional groups 
have come around to say, it is here. It has been donated to us. 
The money is behind it, and we want this to continue, 
particularly since the decision has been made.
    I do not know if you will meet with our governor. He has 
been in opposition to this, but I think he is increasingly 
becoming a lone voice, and I hope that you will take that into 
consideration in your conversation with him. CNN named the area 
one of the best places to visit in 2017, showing that there has 
been a lot of attention to this. I myself have been up there. I 
think it is a great place to be.
    So, I hope you see all that, and I hope you see and have a 
chance to talk to some of those groups and individuals who have 
really started to see this as a great economic opportunity for 
that area. Visitors are starting to come in big numbers, 
especially as we begin our very short summer season.
    So, one of the things I am puzzled about that I would like 
to get you to comment, I know the governor has suggested and 
others, does this not just become a State park. It is right up 
against the Katahdin area, which is a State park, maybe three 
times the size with many, many more restrictions than the 
Katahdin Woods and Waters have. Some have suggested it go to 
the Forest Service.
    In keeping with what you were talking about before, I 
appreciate all you had to say about the fact that everybody 
loves national parks. We have Acadia National Park. It is one 
of the most visited parks in the country. Parks create jobs, as 
Mr. Kilmer has noted for us and you have agreed. People see the 
face of our parks, and they do not say, oh, ``I think I will go 
visit a national forest.'' They say I want to see a national 
park, or I want to see a national monument. It has a lot of 
significance and brings behind huge economic opportunities.
    So, can you tell me if you have had conversations or 
thinking about this idea of let us call it a national forest or 
something else, or you can give me your overall thoughts about 
this and what your current concerns are.
    Secretary Zinke. I was tasked by the President, as you 
know, in the Executive Order, to review parks that are 100,000 
acres and above, and from 1996 forward, and Maine was not 
included in that. I have learned more about the Antiquities Act 
in the last few months than I think most people, probably even 
the people that designed it.
    It is singular, so the Antiquities Act does not require a 
NEPA. It does require public consultation. It is the power of 
the President to do it. Under the law, it does state minimum 
area that is compatible to protection of the object, and the 
definition of the object because the Antiquities Act itself is 
not very long.
    My sense is that I do not intend to rip off band-aids. Many 
of our monuments are, to a degree, settled. There are some that 
are more controversial than others, but is it in the best 
public interest. I have to be consistent in my review of it, 
and I will make my recommendations.
    I do not really have any preconceived notions. I have 
talked to Senator King, Senator Collins. I have not talked to 
the governor in person. We have an open process where the 
public can comment, it is regulations.gov. When I evaluated the 
Bears Ears, I think I talked to Nature Conservancy and spent an 
enormous amount of time, and then reviewing the thousands of 
comments on it.
    I cannot wait to see it. My understanding is I am going to 
go canoeing, which is something Maine is known for. But if you 
want to talk about your experience, I would love to hear that. 
But I do not have any preconceived recommendations because I 
just want to see it. I am talking to the family that gave the 
property with, I believe, somewhere around a $40 million 
endowment. I will ask what was their intent on the property? I 
have heard, although it has not been verified, that at one time 
a national park was looked at, which would take an act of 
Congress to do.
    It is interesting just as a point, in some of the monuments 
that were recently created, they were created over things, like 
over a wilderness or a proposed wilderness area. How does that 
work? Because you have a proposed area that is wilderness that 
operates as a wilderness until Congress takes action, which 
many times is more restrictive than what the monument 
proclamation is. So, what takes precedence?
    I think no doubt my recommendations are going to be I am 
going to ask Congress to clean up some of the ambiguity to 
clarify when you place a monument over on top of something 
else, how do I manage that property, and what should it be at 
the end the day? Is the monument the right vehicle? Is a 
national park the right deal? In some places, it is a national 
recreation area? And parks and national recreation areas are 
authorized by Congress, not the President.
    My basic look at such things in Maine is, is the decree 
settled? Are people comfortable with it? Are the majority of 
elected officials that are responsible for their voice, are 
they comfortable with it, and is it in the best interests of 
the public? And then looking at what is the right vehicle for 
this and make a recommendation. There is no question that I am 
going to have a recommendation for Congress to help clean up 
some of the management side of it.

                               BEARS EARS

    I can tell you when I when I visited Bears Ears, there are 
some unbelievably important sites culturally for the American 
Indians there and some dwellings, but you pull up along the 
road, there is no sign. There are no lavatories. There is no 
parking lot. There is no infrastructure. There is no structure 
in place to protect exactly what the intent was to do.
    There is a visitor experience, but also you have to monitor 
and put in place some basic protections for the resources. 
Including something as simple as a bathroom along a trail 
because if there is not a bathroom, we all know what happens. I 
think in some cases we need to walk through from bow to stern, 
in a canoe analogy, to make sure that when it is a monument, 
there is a responsibility to manage it for the proclamation, 
but that management piece, we have to make sure it makes sense 
and we are not in conflict with other land classes within it.
    Mr. Calvert. I thank the gentlelady.
    Ms. Pingree. Thank you, Mr. Secretary.
    Mr. Calvert. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. And once again, Mr. 
Secretary, thank you. I have a number of times to congratulate 
you, and I just have to add my voice to Mr. Cole and others 
what a wonderful choice I think you are for this position. I 
understand the responsibilities you have, and our desire is to 
help you in those responsibilities.

                             CLIMATE CHANGE

    I have to say before I get to my issues, and that is thank 
you, thank the President for his decision on the Paris 
Agreement. I know there is some disagreement here among the 
committee. But if you care about climate change, and if you 
think climate change is important to the future of our country, 
then you cannot support the Paris Agreement because it did 
almost nothing to address the problem, and came at the cost of 
trillions of dollars. And I do think we can do better than that 
if you feel like that is an issue that is important to our 
future.

                          PUBLIC LANDS IN UTAH

    Thank you for coming out to Utah. It was great to spend a 
few days with you touring the Grand Staircase Escalante and 
Bears Ears, and spent some time flying in helicopters that you 
have both done. And if I could just make one comment and then 
get to my issues, and that is, as you know, having spent some 
time in my State, and it will not surprise you anyway. These 
communities are tiny islands in a sea of Federal lands. I have 
got three counties. They only have 7 percent of their county as 
privately owned, and the rest is Federal or State lands, and 
mostly Federal lands.
    The last thing my constituents want to do is get up in the 
morning and think about Washington, D.C., to think about 
policies that are taking place here in Congress. They do not 
want to be part of Washington. That is why they live where they 
do, many of them. They want to just have Washington leave them 
alone. And yet, the irony is that Washington has enormous 
impact on their lives, far more than most Americans because of 
the fact they are surrounded by Federal lands and the problems 
that brings.

                    MINIMUM WAGE AND OVERTIME RULES

    So, if I could address two things, Mr. Zinke, and ask for 
your help on these. And the first one is not as dramatic. I am 
going to save the more dramatic one for the second. But that is 
the previous Administration had an executive order that 
required minimum wage and overtime rules for Federal employees. 
Well, I think this order unintentionally spilled over to 
hunters and guides.
    I love to run river. I run by myself sometimes, but in 
other cases it is unfamiliar. I have had to hire a guide to do 
it. There are scenic guides. There are hunting guides. There 
are a lot of that where people from the East Coast, for 
example, who do not know the West, they will not come out enjoy 
this land without someone guiding them and showing them how to 
do it. And yet, this minimum wage and overtime rule is 
literally driving small mom and pop businesses out of business, 
because they cannot do it.
    Look, if you are a college kid and you love to run river, 
and you say, I will pay you a couple thousand dollars a month 
to come run river, they will go. I would do that for free. But 
they cannot do that in many cases now because they are working 
at McDonald's. They do not have any choice because that company 
no longer exists.
    And, Mr. Secretary, we have talked about this. I hope you 
will work with us on trying to refine this rule. I know it 
mostly falls under Labor purview, but it is a ridiculous over 
extension of Federal policy that is really having negative 
impacts on not just Western lands and families, but, frankly, 
on everyone around the country who wants to enjoy those lands.
    And I do not ask you a question. If you have a response to 
that, I would be happy to. But we just look forward to working 
with you and continue try to fix this problem after what has 
been a frustrating 2 or 3 years.
    Secretary Zinke. Well, I am painfully aware because I have 
many friends that are outfitters, and I understand the 
Administration is looking at it. I do not know where it is, but 
I can ask, and I will work with you because it is causing havoc 
for some people. You know, short seasons.
    Mr. Stewart. Seasonal work, exactly.
    Secretary Zinke. And it is tough. And one size does not fit 
all.
    Mr. Stewart. Yes, I am asking for the same exemption that 
the ski resorts were given, again, seasonal work. And if you 
would lend your voice to that, we would, of course, appreciate 
that.

                              WILD HORSES

    The second one is a little harder. Like Mr. Amodei has the 
sage grouse. Chris Stewart has the horses. That is because it 
has just such an enormously adverse impact on my State, but it 
is not just my State. It is, frankly, the West. And I have a 
couple of visuals here I am going to pass around.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Mr. Stewart. And, again, Mr. Secretary, I know you know 
this, but it is something that is worth showing.
    This shows a 26-year history. This is what the range used 
to look like in my district 26 years ago. Healthy grasses could 
support wildlife, and support horses. This is what it looks 
like now. It is just dirt. I have page after page of examples 
of this.
    Again, this is what it used to look like. This is what it 
looks like now. It is just dirt because of the abundance, over 
abundance, of wild horses. And this is what it leads to, and 
this is the last thing I will show. This is a horrible picture, 
but this is what people need to recognize. This is what it 
leads to. It is like building a zoo, and not feeding the 
animals and starving them to death.
    And you have these, otherwise, beautiful animals that you 
and I both love. I love the fact you drove into--you should not 
drive. [Laughter.]
    Actually, you drove a horse. You rode your horse into the 
office on the first day. I grew up ranching and farming. I love 
these animals, and we are trying to help these animals.
    And one last just anecdotal piece of evidence. An 
individual I know, he is a horseman. He loves these animals as 
well. He has a 10-year permit, 330 cows he was supposed to be 
given on his permit. Some years he is given between 30 and 50 
permits is all. And instead of for 4 months, it is for 1 month, 
and it is because this is what his range looks like because of 
the horses.
    And I am asking not only you, Mr. Secretary, but, frankly, 
this committee and Congress to help us solve these problems. I 
know there are some horse advocates out there, but I am telling 
you, if you care about these horses, you cannot look at this 
and say that is okay. You cannot have thousands of them 
starving to death and go, well, that is all right with me. We 
have got to do better.
    And if you would give us your thoughts on that, we would 
really appreciate it.
    Secretary Zinke. Thank you, and here is where we sit on the 
horses. By science, the ranges can accommodate around 26,000 
horses or so. That is what the range can sustain. We have about 
117,000 horses, and about 45,000 of those horses are in a 
degree of captivity, in which we feed the horses, we pay the 
vet bills, et cetera.
    No one loves a horse more than I do, but I am going to host 
a wild horse seminar in the great State of Nevada, because 
Nevada has most of the problems. We have to figure out a path 
forward. We spend about $80 million a year on the horse 
program. The birth control part of the horse program has been, 
by and large, a failure. You have to shoot the horse twice with 
a dart in 24 hours. Trying to find a horse in the woods, the 
same horse, is almost an impossibility.
    Mr. Stewart. At a cost of several thousand dollars per 
horse by the time you round it up and shoot it, yes.
    Secretary Zinke. Absolutely. And the horses are unique. 
Some folks look at a horse as a pet, some folks look at horses 
as livestock, but it is not being managed as either. The horses 
are unique--and the burros--are another unique animal we have 
decided we are not going to manage other than captive, put them 
in a corral and going to feed.
    I think we have to have a seminar with all parts, and this 
is a good point because it is unaffordable at $80 million. It 
is not only unaffordable, it is inhumane to watch horses over 
populate the same ground and starve. If you have ever seen a 
horse starve, it is not a pretty picture. This is what happens 
when you kick the can down the road long enough, and it becomes 
a crisis.
    I think we should have a roundtable, include everybody, but 
let us get a plan on how to manage the population the way it 
is. Again, if it was 23,000 or so, it would not be an issue, 
but 108,000. We are not adopting that many. You know, when the 
adoption program began it was fairly successful, but I think we 
went through that and now we adopt out, you know, 3,000 or 
4,000 horses a year, and the population doubles I think every 4 
years.
    I would love to work with you, but this is a joint issue 
between the Executive, no doubt, and probably all three 
branches. I have gotten some very creative judgments recently 
in the courts as we try to even round up the horses.
    Mr. Stewart. Again, thank you, Ryan. I appreciate it. And 
please let us help you with that conference. We would love to 
participate. This is going to destroy BLM budgets if we do not 
get a handle on it, and putting these horses in these dusty 
corrals where you have got hundreds and hundreds of them packed 
together, that is not a good life for them either. We can do 
better. That is the bottom line. And we look forward to working 
with you.
    Mr. Chairman, thank you. I yield back.
    Mr. Calvert. I appreciate it. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thank you for 
being back with us.
    You have some history representing a very large rural 
district. Yours was a bit bigger than mine, but I think you 
probably understand that for a lot of rural communities and for 
Indian Country, this budget has a lot of challenges. And to 
that end, it was hard to decide what to focus on today. A 
number of my colleagues addressed some of the issues, whether 
it be stewardship programs, or climate programs, or investments 
in Indian country. So, I wanted to just focus on two issues in 
particular: public safety and jobs.

                              EARTHQUAKES

    Let me start with public safety. A couple years ago, The 
New Yorker did an article about the Cascadia subduction zone, 
and the article was entitled, ``The Really Big One.'' It 
suggested that when a significant earthquake hits along the 
Cascadia subduction zone, it will be absolutely devastating. It 
could be the biggest natural disaster in the history of our 
continent.
    I brought you a map and a copy of the article. I encourage 
you not to read it at bedtime because literally it has caused 
me sleepless nights. I am going to hand that to you if that is 
all right.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Kilmer. And you can see from the map the district I 
represent is really ground zero.
    I guess I will give you the good news. The good news is 
that there are really smart people that are working on an 
earthquake early warning system to give people time to take 
cover, to shut down rail systems and power plants, to alert 
hospitals so if someone is in the middle of surgery, they can 
put down the scalpel and secure their patient, to open fire 
house doors so first responders can actually get deployed.
    We have been making real progress on this. In fact, this 
April we were able to connect sensors in Washington, Oregon, 
and California to create a unified West Coast network because 
earthquakes do not know State boundaries. So I honestly do not 
know how to explain to my constituents why the President's 
budget zeros this out.
    The Seattle Times, after interviewing the folks who are 
running and working to deploy that system, ran an article with 
the headline ``Trump Budget Would Likely Kill West Coast 
Earthquake Early Warning System.'' The experts on this say that 
if the Federal government commitment goes away, this gets shut 
down.
    So, I am hoping you can help me understand the rationale 
for suspending this program, not to mention other hazard 
monitoring programs, like the Advanced Lahar Warning System on 
Mount Rainier, when there are literally millions of lives at 
stake.
    Secretary Zinke. I also attended the University of Oregon. 
Again, this budget is what it would look like to have a 
balanced budget. Obviously, you have the last say on it. 
Overall, it makes some very tough choices. It funds the core 
and, USGS does a lot of volcanology, and they do sensitive 
programs on the high side, too. It funds the core monitoring, 
but the expansion of that program is not in this budget. If you 
look at it, it funds about $54.9 million in this budget, and 
that is down about $9 million. Not all of the Earthquake 
Program is cut but the early warning program is, looking at it, 
I think it is bare bones on it.
    I will be glad to work with you on it. I understand it is 
important. My alma mater, the President came, and certainly 
that system goes all the way down the west coast. Your Chairman 
has talked to me about it as well, expressed his support for 
that system. Glad to work with you on it.

                               EMPLOYMENT

    Mr. Kilmer. Thank you, and I thank the chairman for that, 
too. If I can switch gears, I would like to talk to you about 
how this proposal would impact jobs in my district and other 
rural communities across our country.
    I think everyone at this table knows that national parks 
are not just about recreation and enjoyment. They also create a 
lot of jobs. I am conscious of that. My grandfather was a road 
paver and helped pave the road up Hurricane Ridge in the 
Olympic National Park.
    Last year we saw a record number of visitors, 3.3 million, 
who infused $280 million into the local economies around 
Olympic National Park, and it is just a huge economic driver. 
You have talked with us before about some of the challenges in 
terms of maintaining existing facilities to support that growth 
in visitation, and to make sure the visitors have a good 
experience. I think in responding to Ms. Kaptur you talked 
about the maintenance backlog of $11 and a half billion. Well, 
over half a billion dollars of that backlog is for repairs 
needed in my home State.
    There are more than 60 miles of road in Olympic National 
Park, and some places have become completely inaccessible due 
to maintenance issues. Drivers who head down Olympic Hot 
Springs Road have to navigate a single lane, temporary bridge 
because of frequent washouts. A lot of the visitor centers have 
aging water and wastewater systems, and they simply cannot 
accommodate the number of visitors. I know these are concerns 
that you share.
    I recently introduced a bill with Will Hurd from Texas to 
address that maintenance backlog. I think previous 
Administrations, both Republican and Democrat, have supported 
creating a dedicated funding stream to address the maintenance 
backlog. I would love to get your view on this Administration's 
stance on Congress providing a dedicated funding stream to 
address that maintenance backlog?

                      DEFERRED MAINTENANCE BACKLOG

    Secretary Zinke. Well, I agree on the backlog. I have done 
a couple of things. One is I tasked, internally, a review on 
the best revenue options, the most flexible, or the ones at the 
gate on that. But when about half the parks do not charge at 
all, it is very inconsistent what we do charge. A lot of our 
passes are more or less are free. Whether or not we are going 
to take the same or propose the same model as Canada does, U.S. 
citizens, non-U.S. citizens.
    Does it affect the value, but also does it affect people, 
families that do not have a lot of disposable income, because 
we do not want to make the parks exclusive. We are conscious of 
that. We are looking at that.
    When you drop $15 and a half billion in revenue, life is a 
lot happier when we have money. We are looking at our revenue 
stream, and we are looking at direct revenue to address our 
infrastructure. Offshore revenue, for instance, funds LWCF. But 
the mechanism of the LWCF is it goes into Treasury, and the 
fund builds up to, currently around $20 billion. Would it not 
be nice if you could direct some of that into infrastructure, 
and onshore, we basically do not touch.
    Mr. Kilmer. That is the plan.
    Secretary Zinke. Onshore we do not touch. It is not just 
oil and gas. I am all-of-the-above. I do not favor oil and gas 
over coal, over wind, over nuclear. I am just all-of-the-above 
because I think being energy independent and, in some cases, 
energy dominant is in our best interest of the country. We all 
want clean, affordable, reliable, abundant energy.
    But that is part of our royalty review, too, is that are we 
getting a fair value on our royalties? We will make a 
recommendation to you on how to fund our infrastructure. I do 
not think there is anyone on this committee and anyone on my 
leadership team that does not recognize that our infrastructure 
affects jobs. Our lack of roads when we shut down a road that 
natively impacts the experience in our parks.
    I care about the experience of a park. You drive in, the 
rangers going have the right uniform, the bathrooms are clean, 
the facilities are great, the trails are marked. I want to 
protect the experience of the park so the next generation holds 
it in as a high esteem as we do. And the experience in the 
parks also is not just the parks anymore. When we have 330 
million visitors through our parks, it is time to look at 
public property around the parks and make sure those trail 
systems connect, the wildlife corridors connect, the watersheds 
make sense.
    The camp grounds are not just in the park anymore, and the 
camp grounds, quite frankly, were developed in the Eisenhower 
years when most people camped in a tent with a station wagon. 
The RV business is booming, and people have larger cars, and so 
our campgrounds have to be reconfigured to what people really 
use, and not all of it is going to be in the parks. There are 
some parks already looking at that. Yosemite as an example--I 
have never been there--I was shocked how small Yosemite 
actually is, the valley. The experience at Yosemite for many 
people anymore is an I-5 traffic jam.
    Now, it is time to look at how to move people through. That 
is probably partnering with somebody who can really think of 
transporters and that kind of thing. That is an opportunity to 
make additional income and have someone else run that 
transportation system, but I am open. I am going to ask to work 
with you because we both care about it enough. But we have to 
address and have a mechanism to do it.
    We are not going to make it at $500 million a year on 
infrastructure. We are not going to make it on $750 million 
when we are $11.3 billion behind. There is going to need to be 
a national push to address the infrastructure, and then put a 
stream in place so we do not constantly run behind. And, again, 
I leave it at this. This is not a partisan issue. This is a 
bipartisan issue. I think the American public demands 
rightfully that we take care of our parks.
    Mr. Kilmer. Thank you. Thanks, Chairman.
    Mr. Calvert. Thank you. Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman. Mr. Secretary, it is 
good to see you. I want to publicly thank the ranking member 
for coming out to sage hen country a couple of months ago to 
see firsthand what was going on at the horse sorting facility 
north of Reno, and then out into the central area of the State, 
hunting visually for chickens.
    The reason that Mr. Stewart, the record should reflect, has 
horses and I have sage is because I got first pick. [Laughter.]

                              SAGE GROUSE

    And so, let us just start with that briefly. And I want to 
thank you for your effort to get together beforehand, but I 
know schedules are what they are. What I would like to do is 
just kind of hit on some areas that we can then schedule before 
we go through this committee's work to visit with you or your 
folks that are appropriate for those subject areas. And the 
first one kind of gets to your deal yesterday.
    Obviously, I am concerned about, it sounds like a great 
idea. We are going to be interested in what the timelines are 
for that, or generally, or whatever, or if there are none. We 
are certainly concerned about the focal area establishments 
since you have mentioned the courts earlier, and a judge in 
Nevada who is not exactly known as being in the tank for any 
side of the issue, and has referred the focal area finding back 
because there was not any in the process. And so, kind of want 
to talk to your folks about, listen, if we need to protect 
certain areas more than others, that is fine, but let us talk 
about what criteria go into that instead of just having that 
come out between draft and final EIS.
    The same issue with the mineral entry stuff that is going 
on. There is on the books in your existing regulations a fairly 
specific process that provides due process for that. And so, 
the main concern will be if you are going to follow that, 
great. But if it is going to be a hurry up thing, then we have 
obviously got concerns about that.
    The final thing, Mr. Secretary, on that is during the 
previous Administration, some of us had challenged your 
predecessor to, hey, with all this sage hen stuff going on and 
tasking private owners in States to do their parts in the 
stuff, you folks had not even asked for money. Not, hey, we 
asked and those jerks in Congress did not give it to us. And to 
her credit she asked for it, and this committee initiated 
giving $65 million, and it is, like, okay. And the discussion 
on that, I may need some tune up on history.
    But, so we followed up on that and said, okay, so how did 
you do that? What States did, we then go to this State and that 
State and see how you did it, and we got back a document that I 
am going to leave with your folks that says of the $65 million, 
$35.8 stayed in D.C.
    Mr. Amodei. Now, there may be a real good reason for that, 
and I would love to hear it. But when we are talking about, at 
least at that point in time, it was habitat loss and 
fragmentation. All the court orders, all the Fish and Wildlife 
stuff, habitat, not numbers, to get a document, I think this is 
from BLM, but we will certainly give it to you. So, to say that 
$35 million of it stayed in D.C. is, I will just pick the word 
``surprising'' and leave it at that.
    So, those are kind of the three areas on the sage hen 
update. And, by the way, you are willing to come to us. I would 
love to come there if it is either after lunch or before lunch 
because the cafeteria, as you can tell from my figure, at the 
basement of the Department of Interior building is a great one. 
So, I would be happy to do that.
    Secretary Zinke. For the record, I think you look great. 
[Laughter.]
    Mr. Amodei. I am glad you finally said it publicly instead 
of----
    [Laughter.]
    Mr. Joyce. Mr. Chairman, I would like to move. [Laughter.]
    Mr. Amodei. What you do not know is that Mr. Simpson is 
looking for somebody to sit on his other side. [Laughter.]

                            REALTY STAFFING

    Mr. Amodei. Do not tell Mr. Cole. The second thing is kind 
of an operational thing in terms of my district has an urban in 
western Nevada, Reno Sparks, Truckee Meadows, that sort of 
stuff. And so, in the district office there, you have got a 
fairly active real estate portfolio in terms of government's 
right of way, stuff like that. And, quite frankly, and this 
maybe gets back to the budget discussion; we have got incidents 
where we have got a 20-year airport lease that they are being 
told because there is one person in an office that is slated 
for four, and no help on the horizon because you cannot just 
tap somebody and create a realty specialist. You have got to 
send them to BLM land university or whatever I think is in 
Phoenix.
    But, I mean, we have got folks with right-of-way requests 
that lie within existing rights-of-way that the Bureau has 
granted to the Department of Transportation to put utilities in 
there, and the existing grant says, well, it is only for 
highway. And they are saying, hey, we cannot look at that for 2 
years. And so, you sit there and look at that stuff. And, I 
mean, I can do some more, but I will not take your time up.
    But I would say that it is something where for routine and 
things that have categorical exclusions that clearly apply, and 
they are saying we cannot even look at that for 6 months. You 
are sitting there going, hey, this is a bottleneck. It is not 
NEPA skirting or anything else like that, but it is something 
that, quite frankly, we want to talk with you with your folks 
about. Now, this is a BLM issue, but to say, hey, we have got 
to staff these things.
    I am not a guy who thinks money is the answer to 
everything, but, quite frankly, when you talk about the budget 
overall, probably--do not tell anybody I said this--but I am 
thinking maybe the last resource administration was Teddy 
Roosevelt. And so, when we talk about cuts in an area, 
especially as a westerner, and I do not have any maps like the 
Great Lakes people do or pictures like my colleague from Utah.
    But when you talk about the importance of the majority land 
homeowners not being funded to take care of things, like 
grazing, or minerals, or real estate stuff, it gets to be a 
point where I think the Department is being given a rap that is 
avoidable when we talk about that stuff. So anyhow, that is one 
of the areas we would like to talk about.

                      FEDERAL REGISTER PUBLISHING

    The other couple real quick are the Federal Register 
publishing has always been a struggle in terms of when you 
folks get ready to do an action. You had indicated concerns 
about the process, and that for NOAs to be published, maybe put 
that down to the State level or something like that. So, we 
would be interested in seeing how that is going just because it 
is something that we have talked about at the Federal level. 
Sometimes it is pretty good, sometimes it is not, but it is 
recurring.

                             LAND TRANSFERS

    And the last one that I would like to put on your radar 
screen, if I could, Mr. Secretary, is the whole idea of land 
transfer bills, because the discussion started out with this 
Administration of opposition to wholesale transfer. And it is 
like, you know what? In my neck of the woods, those people 
heard that. And so, those ideas of saying, hey, we want to 
transfer a bunch of stuff to the State just because are done, 
and they are over with.
    But I have a concern, and especially when a budget seeks to 
sweep the Southern Nevada Public Lands Management Act Fund when 
we talk about budget challenges, where on the one hand, we are 
happy to take the money from land transfers, transferring half 
of it to the U.S. Treasury, which is an awful place to put it, 
that is otherwise available to the Department to do good work, 
resource related, up and down your jurisdiction, and then to 
have, for instance, a county lands bill that is supported by 
the resource community, the sportsman's community, everything 
else, and get what I think--maybe I am wrong--was if we come 
testify, we are going to have to oppose it because of a 
philosophical issue.
    I would only say I look forward to that discussion because, 
just like you mentioned in climate change where it is like I 
want this to be based on facts, and I want this to be based on 
science and empirical stuff, I think land bills ought to be 
judged on that, too, since the history in Nevada is pretty good 
in terms of bipartisan support, and creating wilderness areas, 
and bringing on the sportsman's community, and doing the right 
thing on a scale that is, quite frankly, pretty tiny compared 
to the Federal 56 million acres ownership.
    The last fact I will leave you with, when we talk about 
facts, Southern Nevada Public Lands Management Act is going to 
be 20 next year. Some of us think it is the most successful 
public lands legislation in the history of the West. And 
obviously that transferred at public auction, completely 
transparent from the Bureau of Land Management to private 
developers, land in and around Las Vegas to allow the Clark 
County folks to grow and do what they wanted to as they grew. 
And when we look at that experience and say, oh my god, it is 
Las Vegas, and it is growth, and it is all this stuff. And it 
is, like, the total transferred in almost 20 years is 68,000 
acres.
    So, I would submit to you in the hot real estate market of 
Las Vegas, in a State that was one of the top two or three in 
growth in the last 20 years in the Nation percentage wise, if 
they can absorb 68,000 in 20 years, it is not a threat to the 
Federal ownership picture in the State of Nevada. And by the 
way, I do not want anybody to lose sight of the fact that that 
was for value, which, unless it is stripped, creates funding 
for your Department to do some pretty good resource work in 
areas around that State.
    And with that, I yield back, Mr. Chairman. I look forward 
to seeing you, and let me know what color you like. I will make 
sure and wear the right color outfit when I come. [Laughter.]
    Mr. Calvert. I thank the gentleman.

                         LAND TRANSFER AND SALE

    Secretary Zinke. Just a couple. On the Southern Nevada 
Public Land Management program, there is a balance of $542 
million in it. What was proposed to take is just a portion. We 
just did a sale on that program, 17 parcels. I do not know what 
the income was on it, but we just did a sale. But the thoughts 
were about the funding balance and the reduction, there is 
enough money there to continue historically in the last 10 
years what has been offered. There are enough balances in there 
to continue the program. If we are wrong, I would love to work 
with you on it. I talked to Senator Heller about it, and we 
just had a release on, I think was 17 parcels on that.
    You know, philosophically, I am just not an advocate for a 
sale or transfer of public land, but I am an advocate for good 
stewardship programs. Within the Department of Agriculture 
there was a bipartisan effort that transferred management as 
long as all parties agree with what that management would look 
like. I think that is on the table.
    In some places you are stacked up. You have local 
management, State management, and the Federal management on the 
same piece of property. Is that really in the best interest of 
the country on how you manage the property? I think that is 
always an open dialogue.

                             PERMIT PROCESS

    The permit processes is universally broken considering that 
Boy Scout troops are not going in the wilderness in some places 
and the monuments because the monument permit process does not 
allow more than 11 people to go in. It should be just for such 
things or groups going in, if you want to film a documentary, 
why is it so difficult to get a permit for our filming industry 
to film documentaries on public property? It should be more or 
less on a website going online, pay a small fee if you are a 
Boy Scout troop or you are an organized troop, where you are 
going to go so someone knows you are in there. Where are you 
going to camp? Have you ever done this before? Do you have a 
compass, you know? [Laughter.]

                              RIGHT-OF-WAY

    These type of things, we should be able to do online rather 
than make it so difficult where a lot of people are being 
restricted, I think, too much to use our public lands just on 
the simple permits. Then you get on a right-of-way. We did add, 
by the way, $16 million in it to address some of the right-of-
way issues. But you are right, it is just not putting more 
people behind a desk.
    If it is a Cat. Ex, then who should be able to sign off? At 
the lowest level, the office should be able to sign these 
things off. But I can tell you the policy has been, and there 
is a lot of frustration, believe me, out in the field. You 
would think being a park ranger or superintendent would be the 
best job ever. Among our employees, we are ranked 11 out of 18 
Departments, and the bureaus were ranked about 300 out of 320 
or so. These are our employees. Is it because they have just 
been micromanaged too much? I think we are too short in the 
field, and we are too heavy in middle management and upper 
management.
    We have got to push more resources to the front line, give 
them the authority in a lot of cases. And these permits, they 
should just be signed at the local level, especially if they 
are Cat. Ex and if it is a right-of-way issue, they just need 
to be renewed. Why are they coming up to me?
    Mr. Calvert. Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman. Mr. Secretary, it is 
great to be with you. As you and I both know, the class of 2014 
in Congress is maybe the best class ever.
    Secretary Zinke. With some exceptions. I got kicked out. 
[Laughter.]
    Mr. Jenkins. I am wondering what you did right and I did 
wrong. Congratulations.
    Thank you for your love of country. So many people around 
this table have acknowledged your incredible service to our 
country, our safety, and thank you for all you have done. And 
we are very excited about your new capacity.

                             CLIMATE CHANGE

    I want to thank you, like so many around this table, for 
the clear articulation of why the Paris Accord was such a bad 
deal. I think many, many people, just because of the way it was 
labeled, because of the way it was sold, it has taken on a 
different life and perception than reality, and we know in many 
respects perception is reality. Your clarity, this 
Administration's clarity, of describing those 20 pages, 
describing what is and, most importantly, what is not in it, 
and why it is a bad deal is critical. Thank you for the clarity 
with which you have brought to this decision to withdraw. I 
think it was the right decision, and I thank you and the 
Administration for that.

              WHITE SULPHUR SPRINGS NATIONAL FISH HATCHERY

    Like so many also around this table, we all have incredible 
assets in our State. I invite you to come to the National Fish 
Hatchery. 9.2 million rainbow trout eggs are spawned, in White 
Sulphur Springs. We had a devastating flood, a thousand-year 
event, last June, and the National Fish Hatchery was 
devastated. But working with Fish and Wildlife, working with 
the Federal Highway Administration and other resources, it is 
back, it is open, and it has a great history to build on that 
we have already enjoyed since 1902.
    There still are some funding needs to fully return to its 
true capabilities and capacities. And I invite you to visit 
this treasure. The eggs from this hatchery go to and are 
shipped to 26 other Federal and State hatcheries around the 
country. So, again, literally, millions of rainbow trout start 
in little White Sulphur Springs, West Virginia.

                           AML PILOT PROGRAM

    In addition to the fish hatchery and your continued 
support, I want to associate myself with the comments from 
Chairman Rogers relating to the AML pilot project that I had 
the honor of working with him and Chairman Calvert over these 
last 2 years. And Chairman Rogers said in no uncertain terms 
how he feels about the zeroing out of that program. I, again, 
associate myself with his feelings and sentiments, and will 
fight tooth and nail to make sure that that program continues. 
I am also a proud co-sponsor of the RECLAIM Act he talked 
about.
    Virtually everybody around this table has described a 
project, a program, an initiative in their State. And with all 
the compliments to you and your leadership style, and this 
Administration and the new direction that we have from this 
Agency, one of the issues is staffing. I want to give you the 
opportunity to talk about your efforts for a culture change.
    My frustration with the OSM has been on this AML pilot 
program where we had very clear directive from Congress on how 
that was to be administered. And OSM took it a 180-degree 
different route and applied AML standards when we were not 
dealing with AML funding. It just happened to be used as an 
entity to administratively handle it, but we got shouldered 
with all AML criteria when it was not AML funds, simply because 
we ran this through the Office of Surface Mining.

                             REORGANIZATION

    So, my question is, Mr. Secretary, what are you able to do, 
and what is your process moving forward, to take these 
incredible leadership skills that you have displayed on the 
battlefield and now bring to this administrative capacity, to 
bring about a culture change where we can get at the staff 
level the kind of support, the actions that you are 
demonstrating on the administrative leadership level in this 
Administration?
    Secretary Zinke. Well, I agree with you, and the issue is 
that one size does not fit all. As a former SEAL commander, I 
view much of my job at Interior as just one big command of 
70,000 folks divided in different services. By and large we 
have good people, and, without question, we have great assets. 
So, I am actually an optimist.
    What has occurred over time is every cost-cutting measure 
has regionalized assets up. And a lot of it was for the right 
idea. The priorities have become too D.C.-centric and not out 
in the field.
    For the restructuring and reorganization, we are looking at 
taking the super regions and about this 6,500 people we have in 
D.C., and pushing those assets to smaller units out there. 
Quite frankly, we think based on watersheds and population, it 
is hard to do an ecosystem approach because there is a lot of 
variables to it. There are wildlife corridors. There are 
watersheds. There are terrain temperature States. But we have 
done a map, and we were looking at about 13 areas we think of 
these as you divide the country.
    We want to focus more on the efforts in those ecosystems so 
we can, when money is given by Congress and it is for a purpose 
for an area, we want it to be executable in that priority area. 
Carp is an example. Again, if you are in Nevada, you do not 
really care about the Asian carp, because you do not live with 
it every day. But in that area in the Great Lakes, you care 
about carp all the time. The same thing with wild horses and 
burros. If you are in the area, that is what you really care 
about.
    And somehow, we have got to push to get the priorities out 
of D.C. and focus on a smaller unit so you address the problems 
that are there. We are diverse country. We are a large country. 
We are a great country. But sometimes when it is moved just 
from D.C., again, the one-size-fits-all sometimes does not fit 
everybody. We are trying to push more of the authority out in 
the field and redesign Interior.
    I guess, in a Teddy Roosevelt analogy, the last time 
Interior really was reorganized was about a hundred years ago. 
When Roosevelt put a park system in place and made some really 
large changes on how we view public land in the West. I think 
it is time to have a look, a visionary look at what Interior 
should be the next hundred years. Think about what Interior 
should be a hundred years from now, because our public lands, 
there is going to be continued stress on our public lands, and 
it is going to change.
    We have 330 million visitors through just our park system. 
I surmise it will probably increase over a period of time. 
Recreation is going to be a bigger piece of our public lands 
experience, and we are going to have to coordinate the classes 
of public lands better so the water systems connect, the sewer 
systems connect, the wildlife corridors are connected. Wildlife 
corridors do not just stay in a park. They go out to State 
land, and they go out to private land. They go sometimes into 
different jurisdictions, and we are going to have to figure out 
on the government side how to make them more joint, and have 
the State also at the table early on these projects.
    That is what the reorganization is doing, and we intend to 
do it with your help. The power of the Secretary, I can 
reorganize the troops pretty much, but I am committed to work 
with you. The funding should not really matter because the 
Forest Service does not have to walk over. On these JMAs, we 
just have to have an MOU to work together. But we should have 
this discussion because it matters to us all to make sure we go 
ahead and do it right. One can argue the current system is not 
working as well as it should.
    Mr. Jenkins. Thank you.
    Mr. Calvert. Thank you. I appreciate it. I know we have 
been here for a while. I have a couple of questions that maybe 
I can ask you that are short, and then we can submit the rest 
for the record.

                GAO HIGH RISK PROGRAM IN INDIAN COUNTRY

    One issue I want to bring up is the GAO High Risk Program 
in Indian Country. It is a real problem. I hope you take a very 
close look at that report and get back to us, to commit to 
making these programs one of your top priorities in the 
Department, because this is something that has to be dealt 
with.

                         ENDANGERED SPECIES ACT

    The other issue, of course, the Endangered Species Act. We 
did not get into that too much, but obviously it has not been 
reauthorized in some time. Obviously, you know the act as well 
as anybody, and we need to deal with that as far as what is the 
future of that.

                    EARTHQUAKE EARLY WARNING SYSTEM

    I mentioned payments in lieu of taxes. Obviously, and you 
mentioned it in your testimony, that is something that is very 
important in the West especially. And I want to also double 
down on what Mr. Kilmer commented on, the USGS earthquake early 
warning system. We have invested a substantial amount of money 
into that program. California is very concerned about this, and 
I am, too. I live pretty close to a fault myself, so I 
certainly care about what we are going to do on that.
    Secretary Zinke. How could you not live to close to one 
when you are in California?

                          SCHOOL CONSTRUCTION

    Mr. Calvert. There are faults everywhere. And Mike Simpson, 
and I share this concern, on school construction and the BIE. I 
have talked to you privately about this. Some of these schools 
you cannot fix. There is no amount of maintenance you can put 
in there to make it work. I mean, these schools are just old 
and decrepit, and some of these tribes, are very remote and 
have no resources. And so, I hope we can work together to find 
revenue for these schools.
    You know, as you know in your experience with DOD, we went 
through a program to rebuild all the schools throughout the 
Department of Defense. It was very successful. We had a public/
private partnership on that program. A little more difficult in 
Indian Country I know, but if we could put our minds together, 
hopefully we can find a solution to this problem, because it is 
not going to go away.
    And so, I will submit this record, and we will get that all 
to you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Calvert. And with that, Ms. McCollum, I understand you 
have----
    Ms. McCollum. Well, thank you, Mr. Chair. And let me wish 
you happy birthday again, and I hope you enjoy your little 
piece of cake later.
    Mr. Calvert. I will, yeah.

                               BEARS EARS

    Ms. McCollum. I have a couple of comments, and we can move 
forward on getting answers with staff. One of the letters that 
I mentioned when we handed you the lists of letters was a 
letter from Mr. Lujan and I about Bears Ears National Monument, 
and it addresses tribal sovereignty. I take you at your word 
that you want to be respectful of tribal sovereignty, so I look 
forward to a response from that latter.

                              BWCA MINING

    Another thing I am going to touch on just briefly and 
follow up with is when Secretary of Agriculture Perdue was 
here, we talked about the BWCA mining threat. I understand from 
Secretary Perdue's comments that he had met with you about the 
issue, and that you are looking to have the study go forward to 
have sound science guiding the outcome.
    I have a few more questions, and I will submit those for 
the record to you.

                      GRAND CANYON URANIUM MINING

    Additonally there has been discussion about uranium mining 
in the Grand Canyon, and this is an issue that I started 
working on--cleanup in the Grand Canyon--when I first came to 
Congress on the Oversight Committee. That was bipartisan, 
bicameral work. Mr. Udall is over in the Senate working on it, 
because the past mining has left polluted sites in Arizona that 
are inhabited by Native Americans. The Navajo unwittingly let 
their livestock drink from pools of water that were 
contaminated, their children playing in mine debris pile sites. 
There is a lot of concern about that, and a lot of people have 
died due to kidney failure.
    So, until we clean that up, I am very hesitant about 
looking at doing any more expansion of mining in that area 
because of legacy pollution that has not been addressed yet. 
Now taxpayers are on the hook for it. In my area, the Great 
Lakes Restoration, it is legacy mining from taconite tailings. 
We have learned a lesson. We do not dump our taconite that way 
anymore, but there are still people cleaning up the pollution 
from that.
    That is where I come from when I am talking to you about 
mining. It is taxpayers on the hook for legacy cleanup. And I 
know you have got a big backlog of that that we could talk 
about.

                             CLIMATE CHANGE

    Lastly, could you direct me to who in the staff I can work 
with to understand better what you are doing with climate 
change? You talked about how you were consolidating things, and 
then I just heard you talk about how you were trying to take 
things out of Washington. Let me tell you why I want to know 
who I should be speaking with.
    For USGS, you go from eight climate centers to four, so 
that is more centralization, or maybe it is not. I need to 
understand. You are not funding carbon sequestration. That has 
been cut. You are not funding climate research development. 
That is out. Fish and Wildlife, you eliminate funding for the 
LLCs. You eliminate funding for adaptive strategies. You 
eliminate funding for science support. Bureau of Land 
Management takes a $5 million cut in ecosystem assessments. You 
do not fund $2 million in adaptation strategies.
    So, I want to understand what was left over that you are 
consolidating. I agree with you about having agencies be in the 
lead. When Mr. Joyce and I worked on the Great Lakes 
Restoration Initiative for some of the funding on that, we had 
all the partners at the table, including the White House, and 
we said what makes the most sense here. I had been kind of 
inclined to think, we should have USGS be in charge, and other 
people thought it should be the Army Corps. But all of us when 
we were done around the table realized it needed to be Fish and 
Wildlife working on it because that is what made the most sense 
in the Great Lakes region.
    So, I get the idea of what you are saying about how to pull 
things together, but I just see all these negative numbers on 
climate change and the work and the research that needs to be 
done on it. I take you at your word that you are going to 
continue to research and work on it. I need to understand what 
is going on so that where we can be supportive of one another 
on these issues, we can be supportive.
    So, Mr. Chairman, thank you, and we will follow up on that. 
Thank you so much. You have been just very, very thoughtful and 
very accommodating with all the questions. So, I want to thank 
you for being here.
    Mr. Calvert. Thank you. Ms. Pingree, you have a brief 
question?

                             CLIMATE CHANGE

    Ms. Pingree. 2-second question? Well, thank you again. I 
agree you have put in a lot of time here with the committee 
this morning, and I will be brief. I want to echo the concerns 
many of my colleagues have already raised about both the 
changes to the climate accord, the Paris Accord, and also just 
the cuts at the Department, and the ranking member listed them 
very well.
    But coming from a State where we have so much coastline, 
and our fishermen are already worried about ocean warming. Our 
residents are worried about inability to get insurance and 
mortgages on sea level rising, ocean acidification which hurts 
our shellfish industry. We just cannot walk away from these 
issues, and the USGS is an important part of the science and 
the monitoring.
    So, while I know there has been this talk about 
consolidating and making sure it all comes, to one place, I 
think we observe in the President's budget something very 
different, and that is just everything is cut everywhere. It is 
not clear where that consolidation is coming together, so we 
will look forward to talking with you more about that.
    I want to again say I am very happy that you are coming to 
Maine, and I think you are going to have a great experience 
visiting our national monument. I think you will see that the 
infrastructure development to make it a good experience for the 
visitors has already started. I will send them an email and say 
make sure the bathrooms are clean before the Secretary gets 
there. [Laughter.]
    Secretary Zinke. That now precedes me.
    Ms. Pingree. Get your uniforms pressed. [Laughter.]
    I think I should warn you, this is black fly season in 
Maine. I do not know if you have that in Montana, but just come 
prepared because we do not want to see you with all kinds of 
scars and bumps when you come back.
    Mr. Calvert. Thank you. Mr. Secretary, as you can tell, 
this is going to be a challenge. This budget season is going to 
be a challenge, not just for this committee, for a number of 
committees that I am on. And we have a short time, short window 
here that we have to solve this. And so, we are going to be 
working hard on this committee. We certainly thank you for your 
time.
    We are adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
      

                                           Thursday, June 15, 2017.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

SCOTT PRUITT, ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
HOLLY GREAVES, SENIOR ADVISOR TO THE ADMINISTRATOR, ENVIRONMENTAL 
    PROTECTION AGENCY

                  Opening Remarks of Chairman Calvert

    Mr. Calvert [presiding]. The committee will come to order.
    Good morning. Today we continue to keep all those affected 
by yesterday's events, including our colleague, Steve Scalise, 
in our thoughts and prayers. We applaud the Capitol Police for 
their continued efforts to be the first line of defense to 
serve and protect all members, public servants, and visitors 
here to the Hill. We have a few of them here today with us. 
Thank you for all the work that you do. We thank you.
    Now, turning our attention to the hearing, we are joined by 
the 14th administrator of the Environmental Protection Agency, 
Scott Pruitt. On behalf of all our members, congratulations on 
your confirmation. You have joined a distinguished group. We 
look forward to hearing your vision and working with you to 
provide the resources necessary to manage an important agency.
    We are also joined by Holly Greaves, senior advisor to the 
administrator. I believe this is your first time testifying 
before the subcommittee as well. Welcome to both of you.
    Before we dive into the specifics, Administrator Pruitt, 
you have a tough job here today. Overall, the President's 
Fiscal Year 2018 Budget proposes to shift $54 billion from non-
defense spending to the defense side of the ledger. Those are 
tough, tough top lines to meet, and many tough choices were 
necessary in order to meet those targets.
    Earlier this morning, I, along with Chairman Frelinghuysen, 
Ranking Member Lowey, Ms. McCollum, and other members of the 
subcommittee discussed the defense budget at the hearing with 
Secretary Mattis. That conversation further underscored the 
need for additional funding to support our troops and overall 
U.S. readiness. I certainly wholeheartedly support that goal.
    However, enacting $54 billion in non-defense program cuts 
in one Fiscal Year is an untenable proposition. To propose cuts 
of this magnitude puts agencies and important tasks at risk. I 
suspect that may be a common critique that you probably hear 
from other cabinet officials and may hear from Congress through 
the budget process. And that is why it is necessary, I hope at 
some point, that the Administration, Senate, and the House come 
together and come up with a budget agreement where we can have 
a common goal that we can work with.
    Nonetheless, we appreciate your being here today to defend 
a budget that proposes to reduce the Agency's funding by $2.4 
billion. In many instances, the budget proposal proposes to 
significantly reduce or terminate programs that are vitally 
important to each member on this subcommittee. For example, the 
Diesel Emission Reduction Grants, or DERA, are essential to 
improving air quality in my home State of California. So, too, 
are the target air shed grants, but the budget fails to support 
the targeted air shed grants, and DERA grants are proposed to 
receive an 83 percent reduction.
    The Superfund Program, while considered an infrastructure 
priority for the President, is reduced by 31 percent. This 
reduction will most certainly impact new clean ups and slow 
ongoing clean ups. These are all proposals that we are unlikely 
to entertain.
    Further, the budget proposes to significantly reduce other 
important State grants while asking States to continue to serve 
as principal leads to implement delegated environmental 
programs. Finally, most geographic programs are proposed for 
termination. This is perhaps not how you personally would craft 
EPA's budget, but it is the budget you have to defend here 
today.
    I am pleased the budget supports a healthy investment in 
water infrastructure, a priority of the subcommittee. The 
budget maintains funding for the Clean Water and Drinking State 
Revolving Funds at current levels, and continues to fund the 
new WIFIA program. These are both programs that create 
construction jobs in every State and every congressional 
district. As you know, I strongly support the WIFIA program 
given the ability to leverage additional sources of funding. It 
could be a game changer to stem the growing backlog of needs 
for improved water quality and a nice complement to the SRS.
    Turning to policy, we all want clean air and clean water, 
and a strong, robust economy. My constituents in California 
command both a healthy environment and job creation. It is not 
an either/or proposition. In southern California, we have made 
tremendous improvements in our air quality over the past number 
of decades. It is important that we continue to look for ways 
to clean our air.
    I supported EPA's decision last week to recalibrate the 
implementation of the 2015 ozone standards so that we can 
ensure our clean air efforts are carried out in an effective 
manner. I remain as committed as ever to providing resources to 
support proven programs that actually reduce particulate matter 
and ozone, and in doing so, improve outcomes in the impacted 
areas.
    At last year's EPA budget hearings, the subcommittee raised 
concerns that statutory obligations were given insufficient 
attention while new regulations were prioritized. I think it is 
fair to say that you bring a refreshing new perspective to that 
position. We look forward to hearing that perspective today. It 
is my hope that moving forward we can work together in 
coordination with our State, local, and tribal partners to find 
sound solutions to tackle the challenges before us.
    I know all members are eager to discuss various issues with 
you, so I will save additional remarks for the period following 
your testimony.
    I am pleased now to yield to my friend and distinguished 
ranking member, Ms. McCollum.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman, and good morning, 
Administrator Pruitt. The Environmental Protection Agency is 
responsible for protecting human health, the environment, 
ensuring clean air and clean water for families and children. 
The budget you have come before us today to support would 
endanger the health of millions of Americans, jeopardize the 
quality of our air and water, and wreak havoc on our economy.
    The Trump Administration's Fiscal Year 2018 budget abandons 
EPA's responsibilities to the American people by proposing a 
$2.4 billion cut, a 30 percent cut. The last time EPA 
appropriations was this low was 1990. The Administration would 
set the Agency back 30 years, ignoring the complex 
environmental challenges we face today.
    Mr. Trump campaigned last year on an agenda that included 
allowing companies to pollute our air, and our water, and our 
land. He embraced climate deniers, ridiculed science, and 
promised to surrender America's global leadership on climate 
change. Now Mr. Trump is President Trump, and he is putting his 
anti-environment agenda into action.
    Executive orders have directed the government to ignore 
significant costs of pollution and climate change to our 
economy. Republican passed legislation was signed into law that 
stops the EPA rule to keep coal mining waste out of our water, 
and that waste is toxic. The most recent and most reckless 
action, in my opinion, was the withdrawal from the Paris 
Climate Agreement, which has made the United States a 
environmental rogue Nation when it comes to working on the 
planet's climate challenge.
    This budget is the latest expression of the 
Administration's willful denial of climate science. The EPA's 
website, and I quote from it, ``The earth is currently getting 
warmer because people are adding heat trapping greenhouse gases 
to the atmosphere.'' That is the end of the quote. Yet this 
budget ignores that science and cuts funding for climate change 
programs 91 percent. This budget also includes cuts so deep 
that 47 programs are eliminated. Many are widely supported and 
relied upon by industry.
    One example is Energy Star, which has saved customers an 
estimated $430 billion on their utility bills since 1992. 
Realtors, manufacturers, builders, retailers, they all want the 
EPA to continue this program. The budget also promotes 
eliminating enormously successful geographic programs, as the 
chair mentioned, like the Great Lakes, Puget Sound, Chesapeake 
Bay, which are economic generators for local communities. For 
every $1 invested in Great Lakes restoration, there is $2 
returned in benefits. These programs give the American taxpayer 
a great deal in return, and they also protect their resources 
while creating jobs and promoting growth.
    The Trump Administration has shown its contempt for science 
both through this budget and through policy decisions. The 
budget proposes to cut the EPA's Office of Research and 
Development by $237 million, or 46 percent. This office 
provides the foundation for credible science to safeguard human 
health from environmental pollution.
    Administrator Pruitt, under your leadership, the EPA 
dismissed work done by scientists in the Office of Research and 
Development when you canceled the ban on harmful pesticides. I 
have a letter from the American Academy of Pediatrics in which 
they asked the EPA to protect vulnerable children and pregnant 
women from exposure to this pesticide because this pesticide 
damages children's brains. Yet the evidence was disregarded, 
evidence from doctors and scientists, and now this budget would 
stifle the very office that provides the scientific analysis 
within the EPA.
    The budget also cuts State agencies' funding, proposing 
that the categorical grants be cut 44 percent. That is $469 
million. These cuts will cripple States' ability to implement 
core environmental programs that protect public health.
    But I would be remiss if I did not call attention to the 
Agency's workforce. This budget proposes to cut nearly 3,800 
employees. These are frontline scientists, experts, and 
enforcement officers who protect the American people from 
toxins, carcinogens, radioactive waste, lead in water, and 
other dangerous chemicals. We tend to forget that we owe them a 
debt of gratitude. Every time we turn on the tap water which we 
drink from, it is safe.
    As we know, Mr. Chairman, President Trump can propose this 
destructive budget, and Administrator Pruitt can come here and 
defend or promote it. But it is Congress and this committee who 
will determine EPA's funding.
    On May 5th, President Trump signed into law a Fiscal Year 
2017 omnibus appropriation bill. 178 Democrats and 131 
Republicans voted together to fund the EPA at a level which 
sustains the Agency, supports a skilled Federal workforce, and 
protects public health. Mr. Chairman, I want to thank you for 
working with Democrats to achieve that very positive outcome 
for our Nation. And as we move forward, I know we will once 
again rely on each other to have a positive working 
relationship, and I know I can count on you.
    However, I want to be clear. I will not support an interior 
environment appropriations committee that funds the EPA below 
the 2017 current level. And let me close with this example of 
why I feel so passionately about that.
    Radon is responsible for about 21,000 lung cancer deaths 
every year. Radon is the number one cause of lung cancer among 
nonsmokers. Mr. Pruitt, this budget proposes to eliminate 
funding for the EPA's radon program, which educates Americans 
and saves lives. And this committee, both Democrats and 
Republicans, have always worked together to support radon.
    As a member of Congress, I believe we cannot allow harm be 
done to American people that this budget would inflict, and I 
thank the chairman for the time. And I yield back.
    Mr. Calvert. I thank the gentlelady. Mr. Frelinghuysen is 
going to be here shortly, but in the meantime, I'm going to 
recognize Ms. Lowey. Thank you.

                      Opening Remarks of Ms. Lowey

    Ms. Lowey. Thank you thank you very much, Mr. Chairman, and 
Ranking Member McCollum, for holding this hearing, and welcome, 
Administrator Pruitt. I have been eagerly awaiting your 
testimony before this subcommittee.
    I will get straight to it. The Fiscal Year 2018 budget 
request for EPA is a disaster. You requested $5.655 billion, a 
staggering $2.4 billion below the Fiscal Year 2017 enacted 
level, a cut of more than 30 percent. While you claim most of 
these cuts will be part of a substantial reduction in 
workforce, it would surely impact EPA's ability to fulfill its 
critical mission of protecting the air we breathe and the water 
we drink.
    Between your disturbingly close ties to the oil and gas 
industries, your past work to directly undermine the EPA, and 
skepticism that human activity plays a role in climate change, 
I suppose it is surprising you did not propose to eliminate the 
Agency all together. Let us be clear. Members of Congress from 
both sides of the aisle, scientists, business leaders, and the 
vast majority of Americans agree manmade climate change is 
real, and it poses a threat to our planet that must be 
confronted quickly and seriously.
    Here are the facts. Carbon emissions are creating holes in 
our ozone layer and contributing to changing and often 
dangerous weather patterns around the world. Climate change has 
manifested as catastrophic events that threaten our national 
security and the livelihoods of American families. Yet this 
Administration is burying its head in the sand. And according 
to a new poll conducted by Washington Post/ABC News, 59 percent 
oppose President Trump's decision to withdraw from the Paris 
Agreement, which has ensured a unified global response to 
combat rising carbon dioxide levels in our atmosphere. A 
substantial 55 percent of people surveyed feel this decision 
has hurt U.S. leadership in the world.
    Your budget request further demonstrates a willful 
ignorance to the pressing threat that climate change poses. 
Among the most egregious reductions and eliminations are a 
reduction of over $300 million for the Hazardous Substance 
Superfund, the elimination of over a dozen regional programs, 
including the Long Island Sound Geographic Program, and a 
nearly 50 percent reduction in scientific research and 
development.
    We have a moral responsibility to safeguard our planet and 
ensure that our children and grandchildren have a healthy 
future. This budget would fall short of this objection. I do 
hope that Congress will reject in a bipartisan way this 
dangerous budget, and instead adopt spending bills that would 
invest in combatting climate change, keeping our air and our 
water clean, and creating jobs creating jobs--creating jobs--
for the 21st century economy, especially green jobs of the 
future.
    Thank you, Mr. Chairman.
    Mr. Calvert. Okay. Mr. Pruitt, Administrator Pruitt, thanks 
for being here today. And please, you are recognized for your 
opening remarks.

                Opening Remarks of Administrator Pruitt

    Mr. Pruitt. Well, good morning, Chairman Calvert, Ranking 
Member McCollum, members of the subcommittee. It is good to be 
here with you this morning, and I thank you for the opportunity 
to discuss the EPA's proposed budget. I am joined at the table, 
as you indicated, Mr. Chairman, by Holly Greaves. She serves as 
a senior advisor to me on budget and audit.
    I do want to join you, Mr. Chairman, in expressing my 
prayers for your colleagues with respect to what occurred 
yesterday. I pray for the recovery and the protection as we go 
forward, and I just wanted to share that with you and the 
members of the committee.
    Mr. Calvert. Thank you.
    Mr. Pruitt. With the budget being the focus of our 
discussion today, I thought it was important to note the very 
important work we are doing at the Agency to bring it back to 
its core mission. Specifically, as part of our back to the 
basics agenda, we are focused on air attainment and improving 
air quality, clean water, and fixing our outdated 
infrastructure, cleaning up contaminated land through Superfund 
and Brownfields programs, and carrying out the very important 
updates that this Congress passed last year, the TSCA statute, 
getting rid of the chemical backlog that existed with which you 
are very familiar.
    More generally, when I began at the Agency, I set three 
core principles by which we were going to operate and make 
decisions. The first is to focus on rule of law. We are 
reversing an attitude and an approach that one can simply 
reimagine authority under statutes passed by this body.
    I firmly believe that Federal agencies exist to administer 
laws as passed by Congress. It is Congress who has the 
constitutional authority to pass statutes and give agencies the 
direction on the environmental objectives that we seek to 
achieve as a Nation. Any action by the EPA that exceeds that 
authority granted to it by Congress, by definition cannot be 
consistent with the Agency's mission.
    Along with the respect for rule of law, we are focused on 
process. Over the last several years, the Agency has engaged in 
rulemaking through consent decrees, sue and settle practices, 
guidance documents. Regulation through litigation is something 
that we will not continue at the EPA, and we will make sure 
that process is respected and implemented so that people across 
the country can have voice, due process, as we adopt 
regulations and impact the environment in a very positive way.
    And finally, we are emphasizing the importance of 
cooperative federalism, respecting the role of the States. As 
you know very, very well, a one-size-fits-all strategy to 
achieve environmental outcomes does not work. What may work in 
Arizona may not work in Tennessee. And I recognize that the 
States have unique environmental challenges and needs, and I 
will continue to engage in meaningful discussion with you about 
how shared environmental goals related to these outcomes can be 
achieved.
    With respect to the budget and these principles and 
priorities that I have outlined, I believe we can fulfill the 
mission of our Agency with a trim budget, with proper 
leadership and management. We will work with Congress, Mr. 
Chairman, Ranking Member McCollum, to help focus on national 
priorities with respect to the resources that you provide. We 
will continue to focus on our core missions and 
responsibilities, working cooperatively with the States to 
improve air, water, and land.
    As I have indicated, clean air goes to the heart of human 
health, and we are focused on increasing air attainment through 
compliance, and assistance, and enforcement. We have made 
tremendous progress as a country through significant 
investment, regulations, and industry, and citizens across this 
country working together. In fact, since 1980, total emissions 
of the six criteria pollutants that we regulate under the NAAQS 
program have dropped by almost 65 percent, and ozone levels, as 
you know, have dropped 33 percent.
    We should celebrate this progress, but we should also 
recognize that there is work to do. Presently in this country, 
about 40 percent of our citizens live in nonattainment with 
respect to ozone, roughly 120 million people. So, we do have 
much work to do, and it should be the focus of the EPA to find 
ways to help increase the number of people living and working 
in areas that meet those air quality standards.
    The President has made it clear that maintaining 
infrastructure is critical to this country. At EPA, that means 
ensuring to make investments in drinking water and wastewater 
infrastructure. We will continue to partner with the States to 
address sources of drinking water contamination. These efforts 
are integral to infrastructure because source water protection 
can reduce the need for additional water treatment and avoiding 
unnecessary cost. And like President Trump, I believe that we 
need to work with States to understand what they think is best 
on how to achieve these outcomes, and what actions they are 
already taking to do so. The EPA should only intervene when 
States demonstrate an unwillingness to comply with the law or 
do their job with regard to keeping water safe and clean.
    With regard to contaminated land, we are going to punish 
bad actors, and that means that our job is to punish those who 
violate the laws to the detriment of human health and 
environment. EPA's enforcement efforts have produced billions 
of dollars in clean up commitments from violators, and billions 
of pounds of pollution have been prevented as a result of those 
enforcement activities. As States are the primary implementers 
of the many enforcement action programs, we will work with our 
State partners to achieve compliance and enforcement goals, and 
we will focus our resources on direct responsibilities.
    When we do not stay within the law, we create inconsistency 
and uncertainty for the regulated community. Regulatory 
certainty is key to economic growth. We need to outline exactly 
what is expected across this country because when we do our job 
well, we create good environmental outcomes.
    Mr. Chairman, Ranking Member McCollum, members of the 
committee, I appreciate the opportunity to share briefly these 
priorities, and I look forward to working with you as we move 
forward through this budget process to protect human health and 
ensure that we have clean air, land, and water. I thank you, 
and I look forward to your questions.
    [The statement of Mr. Pruitt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Calvert. Thank you for your opening Statement.
    Before we move to questions, I would like to remind 
committee members that we have a full committee markup of the 
MilCon bill scheduled for 2:00 p.m. this afternoon. Therefore, 
in order for us to finish hearings by 1:00 and allow for a 
break between now and the MilCon markup, I encourage members to 
abide by the 5-minute rule for questions and answers today.
    With that, I know that Mr. Simpson needs to leave by noon 
to go to our friend's funeral, Bill Hecht. If it is okay with 
Mrs. McCollum and other committee members, I would like to 
recognize Mr. Simpson so he can ask his questions.
    Ms. McCollum. I think that is very appropriate, Mr. 
Chairman.
    Mr. Calvert. Thank you.

     PESTICIDE REGISTRATION IMPROVEMENT ACT REAUTHORIZATION (PRIA)

    Mr. Simpson. I thank the chairman, and I thank the ranking 
member. And thank you, Administrator Pruitt, for being here 
today.
    First, I have got a couple of specific questions. One of 
them is that the EPA has jurisdiction and oversight over 
pesticide review processes through the Office of Pesticide 
Programs. Last year, Congress passed the Pesticide Registration 
Improvement Act.
    In recent years, we have seen lower levels of funding 
leading to an erosion of timely reviews, while on the positive 
side the OPP was not cut as much in this budget as other 
programs within the EPA. The President's budget proposes to cut 
well below the congressionally-mandated minimum. With a strong 
Office of Pesticide Programs, job creators in my district and 
other places in this country, such as the potato industry, 
would not have the access to essential crop protection tools. 
How can we ensure that OPP has the revenues to run effectively 
and within the PRIA timelines under your current budget 
proposal?
    Mr. Pruitt. Well, thank you, Congressman. And you are 
right, the budget does not increase fees or impose any new 
pesticide fees. It expands the scope of activities that can be 
funded with current PRIA user fees. But the reauthorization of 
PRIA, I think, is very important as we head into this budget 
discussion.
    I mentioned in my opening comments that with the update to 
TSCA last year, there are three new rules that we are obligated 
to issue this year. Those rules are on track, just to let you 
know. Secondly, there was a backlog of chemicals that existed 
when I came into this position. We are going to have the 
backlog of chemicals entirely addressed by the end of July. 
That was a priority that I set when I came into the position. 
We reassigned FTEs to really focus upon that. There were 
members of our team both at ORD as well as in the Chemical 
Office that worked very diligently. And I want to commend their 
efforts to reduce this backlog.
    But your question is very important with respect to PRIA 
and these fees that are necessary for us to carry out those 
very important functions, and I agree with your assessment 
there.

                RURAL WATER TECHNICAL ASSISTANCE PROGRAM

    Mr. Simpson. I appreciate that. One other program that has 
been proposed to be eliminated in this budget, the Obama 
Administration proposed to eliminate it, too, and we have kept 
it funded at a level of about $12.7 million, and that is the 
Rural Water Technical Assistance Program. As you know, coming 
from Oklahoma, like Idaho, there are many rural communities 
that do not have the access to technical assistance for their 
water systems and the Rural Water Technical Assistance Program 
is very important to these communities for being able to get 
that assistance that they would not be able to afford 
otherwise.
    Mr. Pruitt. When we look at water infrastructure across the 
country, it is clear that in rural communities and in tribal 
communities that the partnership that has existed historically 
between the EPA, the U.S. government, and those communities is 
very, very important to ensure safe drinking water 
prospectively. That is something as we go through this process 
I look to work with you on that very issue.

                   STATE IMPLEMENTATION PLANS (SIPS)

    Mr. Simpson. Okay. One final question, and this is the real 
question. Many western States face undue hardship from 
overreaching or duplicative Federal regulations, including the 
proposed WOTUS rule, the proposed CERCLA financial assurance 
rule for hard rock mining, the arsenic standards, which are 
below background levels in many western States, and the State 
regional haze standards implemented under the Clean Air Act.
    I am pleased that the Administration has taken steps to 
provide relief from the WOTUS and CERCLA financial assurance 
rule. It is very much appreciated in my part of the country. 
For regional haze, western States have had a very hard time 
getting the EPA to approve their State implementation plans. 
Instead, EPA would overrule them and impose a Federal 
implementation plan. How do you view the EPA's role in working 
with the States on these important issues? What can we expect, 
and what is your perspective on the arsenic standard?
    Mr. Pruitt. This is a very important question as we look at 
the statutes that Congress has enacted. Clean Water Act, Clean 
Air Act, the partnership that you have actually put into 
statute in my estimation has been disregarded the last several 
years, and it is not particular to one Administration. I think 
it has just evolved in that direction.
    You have given specific authority to States to partner with 
the EPA to achieve good air quality and good water quality. We 
have committed to making sure that those SIPs are properly 
reviewed, and their answers provided in a meaningful timeframe. 
We actually have a backlog, and this is something that I 
mentioned the chemicals to you. We have a backlog of over 700 
State implementation plans that have not been responded to at 
all by the Agency. That is unacceptable.
    We need to provide input to those States across the country 
on the SIPs that they have submitted in every category of the 
Clean Air Act or otherwise, and provide answers in that regard. 
And we will work very diligently to achieve that, Congressman.
    Mr. Simpson. Thank you. I appreciate that, and we look 
forward to working with you. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. I thank the gentleman. Ms. Lowey.

                     ENDOCTRINE DISRUPTORS PROGRAM

    Ms. Lowey. Thank you very much. Administrator Pruitt, the 
budget proposes to eliminate the Endocrine Disruptors Program.
    Mr. Pruitt. Sorry?
    Ms. Lowey. It is called the Endocrine Disruptors Program. 
Are you aware of it?
    Mr. Pruitt. Yes, ma'am. I just didn't hear you very well. I 
apologize. Yes.
    Ms. Lowey. No problem. I am happy to discuss it. Through 
this program, EPA screens pesticides, chemicals, and 
environmental contaminants to determine their potential effect 
on human hormone systems, altered reproduction function in 
males and females, abnormal growth patterns in 
neurodevelopmental delays in children, increased incidence 
breast cancer and changes to immune function. I knew Theo 
Coburn. She has recently passed, but I would not be surprised 
if hearing cuts in this program, she comes back up to talk to 
us.
    Her work truly changed the way we consider chemical safety. 
Because of endocrine disruptor research, BPA is banned in baby 
bottles, and PCBs have been dredged out of the Hudson River in 
New York. This is the perfect example of senseless cuts that 
will cost us more in the long run with threats to public health 
and safety, that are costlier in treasure and possibly in 
lives.
    We have so much more to learn about what chemicals in the 
environment are doing to us. How do you justify eliminating 
funding for this program? Are you not alarmed by the link 
between exposure to chemicals in the environment and consumer 
products, and changes to hormones, health, and development of 
people and animals? What should EPA's role be?
    Mr. Pruitt. Congresswoman, I do share your concerns. In 
fact, as we have studied this particular proposal, our hope is 
that we can absorb the remaining functions of the EDSP, you 
know, within the office of the existing Chemical Safety and 
Pollution Office we have, using currently available tiered 
testing, battery systems and models to achieve that.
    But you raise a very, very important question, and it is 
that the program was established in 1996, as you know, and has 
had a significant impact. It is something that as we study the 
proposal and talk with Congress, this is our approach 
presently. But we look forward to your input on how maybe this 
can be restored and/or addressed in a different way.
    Ms. Lowey. That is great news, and I will not even ask my 
next question. I want to thank you for your consideration. This 
is such an important program. And I do hope that you will 
address all of our concerns today, so that we can continue----
    Mr. Pruitt. Well, I will endeavor to.
    Ms. Lowey [continuing]. To have an EPA that protects us. I 
want to tell you as a mother and grandmother of eight, I really 
worry about issues like this. And it would be so irresponsible 
if we do not continue to move forward. So, thank you so much. 
Thank you, Mr. Chairman.
    Mr. Pruitt. If I could, that office, as I indicated, the 
TSCA updates that Congress provided last year, the work that 
has been going on in our chemical office has really been 
extraordinary since having come into this position. There was 
the backlog that I mentioned to you on the new chemicals, 
Congresswoman, that they have worked extremely diligently to 
address.
    It is quite something that in about 120 or so days that 
backlog is going to be entirely addressed. That sends a good 
message, I think, to citizens across the country that it is a 
priority. I think it also provides certainly to industry that 
as new chemicals enter the flow of commerce, that the EPA is 
going to do its job within the timeframe set by this body, and 
provide confidence that we can get those things done in an 
efficient way.
    Ms. Lowey. I am delighted to hear about your focus on 
efficiency, but why would you recommend cutting the Endocrine 
Disruptors Program that saves lives?
    Mr. Pruitt. Well, as I have indicated, Congresswoman, our 
objective and goal is to address it in the way that I have 
shared, and I look forward to working with you in that regard.
    Ms. Lowey. I hope we can work together and make some 
changes in these recommendations. Thank you.
    Mr. Pruitt. Thank you.
    Mr. Calvert. I thank the gentlelady. Next, the chairman of 
the full committee, Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Secretary, we have not made 
acquaintance.
    Mr. Pruitt. Good morning.

                            SUPERFUND SITES

    Mr. Frelinghuysen. But it is a pleasure to meet you, and I 
want to thank Mr. Calvert for the time. I am here just to 
remind everybody that the power of the purse is here on Capitol 
Hill. We obviously respect the proposal for your Department, 
but ultimately it will be this committee and our Senate 
counterparts that will determine the final outcome.
    May I say I share at times some of the animus that is aimed 
at your Agency by a variety of different groups. I sort of 
share some of that frustration because of the huge bureaucracy, 
but I also come from the Nation's most densely populated State, 
New Jersey. And we are home to a historical background which 
shows us to have more Superfund sites than any other State in 
the Nation. I am probably one of the few members of Congress 
that actually highlights our history.
    I visit the sites in my district. I work very closely with 
the New Jersey Department of Environmental Protection, and you 
have a good team that comes out of Region Two in New York. I 
know there has been a proposal here to reduce substantial 
funding for this program. I think you are aware that 70 percent 
of the program, money for the program comes from the polluters, 
the polluters pay. About 30 percent comes from the American 
taxpayer.
    I would just like to say that I think it is good to sort of 
move with precaution and caution before you take too many 
dramatic steps.
    Mr. Pruitt. This area of Superfund is absolutely a priority 
for this Administration. I think there is a significant amount 
of opportunity that we can achieve for the benefit of citizens 
in cleaning up contaminated sites.
    I think as I have gotten into the Agency and evaluated the 
entire portfolio, when you look at the roughly 1,330 Superfund 
sites across the country, there are many that have been on that 
National Priority List for decades, languishing for direction, 
leadership, answers in some instances about how we are going to 
remediate sites.
    I mean, one example that I have highlighted quite 
extensively is a site just outside of St. Louis, the West Lake 
facility that was listed on the National Priority List in 1990. 
The site is very unique in the sense that it has 8,000 pounds 
of uranium commingled with about 38,000 tons--I am sorry--8,000 
tons and 38,000 tons of solid waste. And it has been 
distributed over a fairly large geographical area.
    It was listed in 1990, and here we are 27 years later, and 
there has not been a decision on whether to cap the site or to 
excavate the site and to remove the uranium. That is just poor 
leadership. That is not serving the citizens in the St. Louis 
area at all or this country. What we are doing with respect to 
the portfolio is renewing our focus to provide clear direction 
on how we are going to remediate and achieve good environmental 
outcomes.
    Funding could be an issue, and it is something that I look 
forward to talking to Congress about. But you have indicated 
that the CERCLA statute, the objective is to hold potentially 
responsible parties accountable to make sure that they fund the 
remediation effort. Our goal is going to be to get 
accountability from those PRPs, to provide certainty on the 
type of cleanup, and make sure that those timelines are met as 
we try to get sites cleaned up across the country.
    But if funding ever becomes an issue with respect to orphan 
sites, as an example, because we have orphan sites that exist 
within the portfolio, we will address those with you and make 
you aware of those concerns.
    Mr. Frelinghuysen. I look forward to working with you. We 
have a lot of people in a narrow space, and we are committed to 
clean air and clean water. And this is one of the issues that 
is important to our entire delegation.
    Thank you, Mr. Chairman.
    Mr. Pruitt. Thank you.
    Mr. Calvert. Ms. McCollum.

                         PROPOSED PROGRAM CUTS

    Ms. McCollum. Thank you, Mr. Chair. Mr. Pruitt, I take your 
sincerity in answering Ms. Lowey's question about wanting to 
look into answering her question about how the endocrine 
disruptors are going to be funded for the research in the 
future. But I am quite baffled about how you are going to have 
any tools in the toolbox to do that.
    Once again, the EPA is reduced by $2.4 billion, 30 percent 
below 2017. Endocrine disruptors, zeroed out. Radon, zeroed 
out. Superfund slashed. Brownfields slashed. So, you can have a 
conversation with us and say you are going to look into this 
and you are going to make sure that these things are going to 
happen, but I do not see how it can happen when you are cutting 
the EPA's overall budget by $2.4 billion.
    For example, the pesticide ban, which I mentioned in my 
opening statement, and it's called chlorpyrifos. Everybody says 
it differently because nobody knows how to say it right, right? 
But it is important that we do learn how to say it right 
because this chemical is very dangerous.
    In December 2014, the EPA completed a human revised health 
risk assessment, and it was very highly sophisticated. It was 
thoroughly peer reviewed. I know you said one of your goals is 
rule of law, but I think when science is looking at what to do 
about pesticides and toxins in these chemicals, they have to do 
no harm as their first goal.
    The EPA determined that there is serious concern for long-
term and neurodevelopment effects as a result of prenatal and 
possibly early life exposure. The Agency could not come up with 
any level that was safe on this toxin, and they do come up with 
some toxins that they find safe levels with. But on this one, 
they could not find anything.
    So, I am curious to know how it happened that you were 
there a month, and then this is reversed. How did you come to 
find yourself disavowing, going backwards, not looking at any 
of the scientific peer review on this pesticide? And with all 
the other cuts to the Agency and the cuts in research, how am I 
going to have confidence that the best science is being used, 
that we ``do no harm'' to women who are pregnant, we do no harm 
to children who are born possibly having all these toxins 
lingering in their systems?
    Mr. Pruitt. You mentioned several programs that you were 
concerned about, Superfund and others. I think there are some 
of those programs from a management perspective that will be 
easier for us to address the proposed cuts than others.
    I mean, with the Superfund program, as we were just talking 
about, 70 percent of that portfolio approximately is privately 
funded. We have collected over billions of dollars since the 
inception of the program to address cleanup. My estimation at 
this point on that kind of program, Ranking Member McCollum, is 
that it is more about decision making, leadership, and 
management than about money presently. Now, that is that 
particular program. There are others that you have cited that 
it may be more funding than management and leadership.
    With respect to the decision on chlorpyrifos, the USDA had 
a completely different perspective, and, in fact, had made the 
EPA aware of that as the process was ongoing. We based that 
decision, like we base every decision, on meaningful data and 
meaningful science. It was a decision that we felt was merited 
based upon that, and a collection of information that we 
considered.
    Ms. McCollum. Could you provide this committee with the 
peer-reviewed science from the other agency as well as the 
science from this Agency?
    Mr. Pruitt. The USDA. We will provide that, yes.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
                              RULE OF LAW

    Ms. McCollum. I want their peer-reviewed science by 
comparable scientists, not just someone's opinion. Okay.
    Can you go back to the cuts that I mentioned, and with the 
questions that you are being asked, how will you stand up and 
make sure peer-reviewed science is happening? With the cuts to 
over 3,000 employees, how does that happen? I mean, I can wish 
for a lot of things, but in reality, I have to figure out how I 
make those things happen with using real dollars, real 
employees.
    You told me rule of law was your first and foremost 
concern. I have to tell you rule of law is very important. I am 
a person who obeys the law. But the EPA's mission is to protect 
public health first and foremost, in my opinion. Do you 
disagree with that?
    Mr. Pruitt. Not at all, and I think with respect to the 
science at our Agency, ORD, and the program offices, it is 
important that we prioritize the mission of those respective 
offices insofar as how we are going to use the science. The 
science should be in support of rulemaking.
    The primary function of the EPA is to carry out statutory 
requirements and mandates that Congress has required, from the 
Clean Water Act, to the Clean Air Act, to TSCA, and across the 
board, and engage in rulemaking and administration of those 
statutes.

                               RULEMAKING

    Ms. McCollum. So, does this go to the change that has 
happened on EPA's website before January 30th, 2018. Standards 
were science-based, peer-reviewed science, safe levels of 
pollutants. That language has disappeared from the mission 
statement, and now it states, ``What is economically and 
technology available standards.'' So, that is a significant 
change for me. Is that what you are talking about with new 
rulemaking?
    Mr. Pruitt. No, what we have a responsibility to do in 
rulemaking is build a record and base a decision on informed 
decisions from science to those across the country that engage 
in the APA process to make us aware of how rules are going to 
impact them. That is going to continue in each of our 
respective program offices, from clean water to clean air, the 
Air Office, across the board.
    I mean, science is going to be key to what we do. It is 
going to be key to informed rulemaking. Each of the program 
offices, Congresswoman, actually have scientists embedded in 
those program offices as well. So, with the proposed cuts to 
ORD, we are going to be able to carry out our core mission of 
supporting rulemaking that is based in sound science, that is 
transparent and peer-reviewed, and is based upon real data that 
is not monitored, but actually collected--excuse me--is 
monitored and collected.
    Ms. McCollum. Thank you, Mr. Chair. I know that there are 
others that have questions. I have two other questions I need 
to get to later, but at this point, I will yield back my time.
    Mr. Calvert. I thank the gentlelady. Next, Mr. Rogers.
    Mr. Rogers. Thank you. Mr. Administrator, and welcome to 
the hearing. Most people do not know that the administrator is 
a native Kentuckian, a native of Danville, Kentucky, and a 
graduate of Georgetown College in Georgetown, Kentucky. He then 
ran off to Oklahoma, where he was educated in Tulsa law school. 
But welcome, and we are proud of you, Mr. Pruitt.
    Mr. Pruitt. Thank you.

                              RULE OF LAW

    Mr. Rogers. I want to talk to you about the culture of 
overreach in that Agency. Time and again over the last 2 years, 
Federal courts have held that the Agency was overreaching its 
legal authority, engaging in activities that are not authorized 
by the United States Congress. And that became a practice that 
repeated itself time and again. It had devastating impacts on 
certain parts of the country, including mine, in the coal 
fields where the war on coal, led by the EPA, resulted in some 
12,000 miners losing their jobs and their homes in my region 
alone. So, we do not take kindly to that type of thing.
    What will you be doing to change the culture of overreach 
in that Agency, where the employees, both career and political, 
engaged in overstepping their authority time and time again? 
What can we expect?
    Mr. Pruitt. Well, the ranking member made reference to this 
as well, and I think that when I mention rule of law, it is not 
intended to be something that is academic at all. When you 
disrespect rule of law, and that fundamentally is when you take 
statutes passed by Congress and act in a way that is not 
authorized, it creates uncertainty.
    You mentioned the litigation that resulted from many 
previous actions over the last several years. We can go from 
the Clean Power Plan to others, the WOTUS Rule as an example, 
subject to stays by the U.S. Supreme Court and the 6th, 
respectively. What that creates in the marketplace, again, is 
uncertainty to know what is expected of citizens and industry 
to achieve good environmental outcomes.
    So, when we talk about rule of law, it is not intended to 
be, again, academic. It is intended to be practical because 
when the Agency carries out its functions consistent with the 
authority that you have provided, those types of lawsuits go 
away, and you can actually provide the kind of certainty to 
citizens in working together and partnering to achieve good 
environmental outcomes.
    So, when I mention that, we are going to stay within our 
lane. We are going to stay within the authorities provided by 
Congress. If you have not spoken to an issue, if you have not 
given authority to the Agency, we are not going to reimagine 
it. We are not going to create it. We are going to let you know 
when those deficiencies arise.
    We have talked about Superfund a couple of times here 
today. If there are concerns that we have as far as being able 
to carry out our responsibilities under the CERCLA program and 
the Superfund program, and we think that there is a legislative 
response that is necessary, we will advise you because we need 
the help of Congress to achieve these good environmental 
outcomes as well.

                          PERSONNEL REDUCTIONS

    Mr. Rogers. What about your staffing size? In your budget 
request, you indicate quite clearly about the reduction in 
personnel. Can you elaborate on that?
    Mr. Pruitt. Well, I think with respect to the proposed cuts 
on personnel, that is something that we plan to achieve through 
attrition, continuation of the hiring freeze, and the 
initiation of voluntary buyouts. About 20 percent of the Agency 
is eligible for retirement today. That is going to increase 
over the next several years. As you know, we have talked about 
this budget having up to $25,000 per employee that seeks to 
retire, and so that is how we are going to address the proposed 
cuts to personnel.
    About half our employees are in the regions across the 
country, half the employees approximately are in Washington, 
D.C. The regional concept is very important because you want 
offices dispersed across the country partnering with States, 
and those across the country to ensure that we are working 
together in a partnership format, so this regional concept is 
very important. But as far as the personnel reductions, those 
are the steps we are taking to address the proposed budget.
    Mr. Rogers. Thank you.
    Mr. Calvert. I thank the chairman. Mr. Kilmer.
    Mr. Kilmer. Thanks, Chairman, and thanks for being with us.
    Mr. Pruitt. Good morning.
    Mr. Kilmer. Good morning. I actually appreciate the 
chairman's comments and the ranking member's comments at the 
opening of this hearing raising concerns about some of those 
proposals and how it affects your Agency's mission to protect 
the environment and human health. I could spend 500 minutes 
talking through some of the concerns I have in that regard, but 
I only have 5. [Laughter.]

                              PUGET SOUND

    My hope and my expectation is that this committee will do 
better, and we will do that in a bipartisan way.
    I am not going to ask you to defend what I consider to be 
indefensible proposals. Rather, I want to talk about a specific 
issue. My colleagues on this committee often talk about the 
role that EPA plays in affecting local economies. In my region, 
we actually want the EPA to be engaged both from an economic 
and an environmental perspective. We cannot afford to let the 
EPA check out on Puget Sound recovery.
    Our region has 3,200 people whose livelihoods are tied to 
shellfish growing along the Puget Sound. Those are jobs that 
generate over $180 million in revenue in our State. They depend 
on clean water. They depend on Puget Sound. You talked about 
going back to basics, and part of that is a focus on clean 
water. They depend on that, and this budget jeopardizes that.
    Our marine industry, which includes the fishing fleets and 
our seafood processors, generates billions of dollars of 
revenue and over 57,000 direct jobs in our region, not to 
mention tourism and recreation dollars. People come to our area 
to fish. They come to see orcas. They depend on clean water and 
a healthy Puget Sound. And I would also add, money spent on 
Puget Sound recovery has a direct impact on jobs and the 
economy in my State. Democrats and Republicans, business 
leaders, the conservation leaders, all agree on that.
    Every dollar the EPA invests on Puget Sound leverages $24 
in State, and tribal, and local funding. So, if the 
Administration is committed to growing the economy and 
bolstering jobs in rural areas, what I would say is that is not 
reflected in this budget.
    You have said this is a back to basics approach intended to 
return responsibility to the States. And I want to remind you 
of the obligations of the Federal government in this regard. 
There are 19 tribes with treaty reserved rights to fish in 
Puget Sound. Do you acknowledge that obligation?
    Mr. Pruitt. Yes.
    Mr. Kilmer. There are multiple federally protected species, 
including orcas and chinook salmon, that call Puget Sound their 
home. Do you acknowledge the presence of those protected 
species in Puget Sound?
    Mr. Pruitt. Yes, and as you know, there was an application 
for a no discharge zone for the entire Puget Sound. I actually 
am very sympathetic and sensitive to that application because 
of the things you are describing.
    Mr. Kilmer. The EPA also has obligations under the Clean 
Water Act, the Federal Water Pollution Control Act, and 
multiple other statutes. Do you acknowledge that those are 
statutory obligations of your Agency?
    Mr. Pruitt. Absolutely.

                      STATES AND RURAL COMMUNITIES

    Mr. Kilmer. So, listen, I am all for partnership with the 
States, and I agree with the fact that there is not a one-size-
fits-all approach. But my question is this. Why should States 
and rural communities be stuck holding the bag for the Federal 
government?
    Mr. Pruitt. They should not, and that is something, as we 
have seen over the last several years. This cooperative model 
goes back decades, as you know, to achieve good environmental 
outcomes. We need to rely upon the expertise, the information, 
the resources of those at the local level and the State level 
to partner with the EPA. But the EPA has a very important role, 
a very important role.
    There are air quality issues that cross State lines. There 
are water quality issues that cross State lines. There are 
responsibilities that you have identified that are statutory. 
We are going to carry out those responsibilities along with the 
States and ensure that there is a partnership.
    You know, literally my first weekend, after I had been 
sworn in, we had 18 to 20 governors, Democrats and Republicans, 
in my office on a Sunday. We talked about these very issues 
from Superfund, to air attainment, to remediation. How do we 
achieve those things together? And from Democrats and 
Republicans, they said to me, thank you for listening so we 
could have a voice in the process. It has not happened for a 
number of years. We can learn, but we should not abdicate 
responsibility, to your point, and we will not abdicate 
responsibility.

                          PUGET SOUND--FUNDING

    Mr. Kilmer. The budget you have produced zeros out funding 
to support this effort.
    Mr. Pruitt. More specifically, which effort?
    Mr. Kilmer. Puget Sound recovery.
    Mr. Pruitt. Well, as I indicated, the Puget Sound 
application for no discharge is something I am very, very 
interested and concerned about, but also the grant program is 
similar to others. The Great Lakes Initiative, the Long Island 
Initiative that was mentioned earlier, those are important. 
Those are important partnerships that have existed for a number 
of years. As we go through this process together, I want to 
work with you to achieve good outcomes in each of those areas.

                   STATE IMPLEMENTATION PLANS (SIPS)

    Mr. Kilmer. So, I would just emphasize I think it is 
important the Federal government not leave States holding the 
bag. Between a quarter and a third of State environmental 
agency's budgets depend on Federal support. I do not know how 
we can expect States to take on more of your Agency's 
obligations with less money.
    Mr. Pruitt. Let me say, too, we need to also recognize that 
with respect to SIPs. We were talking about this earlier. A 
backlog of over 700 where States have done their job, where 
they have actually submitted to the Agency a plan to achieve 
better air quality, and the Agency simply has not responded. 
So, we can do better in many areas to improve that partnership. 
You mentioned some, but I think that is important as well.
    Mr. Kilmer. Thanks, Chairman. I yield back.
    Mr. Calvert. Thank you. Mr. Joyce.

                         FY 2018 BUDGET REQUEST

    Mr. Joyce. Thank you, Mr. Chairman, and welcome again, 
Administrator Pruitt and Ms. Greaves.
    I want to tell you that I am concerned also about the 
impact of the Mulvaney budget on the efforts to clean up the 
Great Lakes and leverage them as an economic asset for our 
region. I say that in jest for Mr. Mulvaney having been a 
former member. [Laughter.]
    For example, in my home State of Ohio, 3 million people 
receive their drinking water from Lake Erie, and tourism along 
the lake generates more than $14 billion in spending annually 
and nearly 125,000 jobs. Forty million tons of cargo are 
shipped annually through Ohio's eight federally authorized 
ports on Lake Erie.
    We see these types of benefits in other States that border 
on the Great Lakes, and for this reason, our Great Lakes 
delegation has strongly supported the Great Lakes Restoration 
Initiative. This program has been highly successful. It is 
facilitating collaboration among our States and the Federal 
government, local communities, and industry, and is making real 
progress in solving some of the most serious problems facing 
our lakes.
    It is also helping communities revitalize degraded 
waterfront areas, creating jobs and new economic development. 
For example, in my district, cleaning up the contaminated 
sediments in the Ashtabula River allowed for the return of 
normal commercial shipping and recreational boating, and 
sustained the economic viability of the city's port. For us, 
cleaning up the Great Lakes is not just about correcting 
mistakes from the past, but creating new opportunities and a 
brighter future for our shoreline communities.
    The President's budget--sorry, I misspoke there--the 
Mulvaney budget, if enacted, would cripple our collective 
efforts, halt the progress we are making, and undermine the 
investments we have made to date. Funding under the GLRI has 
been instrumental in implementing costly cleanup projects, such 
as in the Ashtabula River. Simply put, this work would not 
happen without Federal support, which has leveraged financial 
contributions from States, industries, and communities.
    For example, more than 40 percent of the costs of the 
contaminated sediment cleanups has been provided by non-Federal 
partners. This money will be left on the table and many cleanup 
projects will not move forward if the GLRI is eliminated. In 
addition, the bulk of our efforts to prevent the introduction 
of Asian carp would cease, and targeted nutrient reduction 
actions would not be possible, likely resulting in millions of 
pounds of phosphorous entering the Great Lakes and contributing 
to harmful algal blooms.
    It is clear that funding is vital to sustain an effective 
Federal, State, and local partnership to restore the Great 
Lakes. However, equally important is the EPA's role as the 
coordinator of the overall restoration program. Federal 
leadership is indispensable in addressing problems that cut 
across State and national borders; coordinating work among 
multiple Federal, State, and tribal agencies; providing 
technical support; establishing science-based goals; and 
managing binational efforts with Canada. EPA has played this 
role over the past several years and it has been key to the 
success of the GLRI.
    Can you explain to us how these functions will be 
maintained if the GLRI is eliminated?
    Mr. Pruitt. You have said it well, and thank you for your 
comments and your summary. This body for a number of years has 
recognized the importance of the initiative, and we at the 
Agency have recognized that as well. As we start and continue 
this process, we look forward to working with you to address 
the objectives, the water quality objectives, and you mentioned 
invasive species as well. We want to make sure that the States 
affected, the commerce that is a part of the Great Lakes is 
preserved, and we address that going forward in this budget.
    Mr. Joyce. Will the Great Lakes Interagency Task Force and 
Great Lakes Advisory Board be maintained?
    Mr. Pruitt. I think, Congressman, as we go through this, I 
think what is important is to recognize the priority of the 
initiatives that have been historically prioritized by this 
body. We are going to work with you to ensure that those 
priorities are addressed in whatever form it takes.

             GREAT LAKES LEGACY ACT--CONTAMINATED SEDIMENTS

    Mr. Joyce. Will the cost-share approach to cleaning up 
contaminated sediments under the Great Lakes Legacy Act 
continue?
    Mr. Pruitt. You know, I think that from a State 
perspective, you know, we have talked to many of the governors 
that are impacted by these issues. We are engaged in 
discussions with them on how we can have a shared and more 
vibrant approach. But as far as the funding that has been 
proposed to be reduced and/or eliminated under this budget, I 
will just echo what I have already shared with you, 
Congressman. We recognize the importance of the Great Lakes, we 
recognize the importance to the citizens in that region, and we 
are going to work with Congress to ensure that those objectives 
are obtained.
    Mr. Joyce. We can appreciate the fact that your Agency has 
provided leadership in what I think is the way government 
should work: agencies all working together on a common goal, 
sharing information, and getting to an end result. The money 
that we have there was needed over a period of years. Last year 
in the water bill, we managed to pass $300 million for 5 years 
so that the agencies will not have to worry about the stop/
start approach of having to, you know, not know what money is 
coming in next year, so why start the research this year.
    That has moved us backwards. From the 70s to where we are 
now, the Great Lakes has made a tremendous difference, and your 
leadership or your Agency's leadership in that is tantamount to 
making it happen.
    Mr. Pruitt. I think you said it well in your summary and 
your comments. It is the money, but it is also the 
facilitation. It is the coordination that the Agency has 
provided historically to each of those interested parties and 
stakeholders, both private as well as States. It is important 
that we recognize that and continue it.

                              GREAT LAKES

    Mr. Joyce. Simply put, the Mulvaney budget appears to 
largely remove the Federal government as a partner in our work 
to restore and manage the Great Lakes. Is that fair?
    Mr. Pruitt. I think there are functions that the Agency can 
perform outside of, again, the funding and appropriations. We 
have cited some of those. As an example, the Chesapeake Bay 
TMDL, you know, that is an example of States coming together to 
address non-point source, and the Agency provided leadership, 
and management, and facilitation in that area. I think that is 
similarly true to the Great Lakes area as well. Obviously, 
money is important, but I think this leadership role is 
important as well, and that is going to continue.
    Mr. Joyce. It is not just Lake Erie, of which we are proud. 
Congresswoman Kaptur, I am sure, will be following up with 
questions regarding this. But the Great Lakes, I do not view it 
as just a lake or a series of lakes. I view it as a national 
treasure. And so, given the national significance of the Great 
Lakes, is it fair to expect the States and local communities to 
shoulder the burden of caring for them?
    Mr. Pruitt. We view those States as partners and 
stakeholders, and we will continue to view them in that fashion 
as we go forward. And it is important that we facilitate and 
show leadership, but work with each of those stakeholders to 
achieve good outcomes.
    Mr. Joyce. I appreciate you moving me up in line, Mr. 
Chairman. I know I have exceeded my time. Thank you very much 
for your time.
    Mr. Calvert. Thank you. Next, Ms. Pingree.

                 FY 2018 BUDGET REQUEST: PROPOSED CUTS

    Ms. Pingree. Thank you very much, Mr. Chair. Thank you, 
Administrator Pruitt, for being with us here today. It is my 
first chance to get to know you a little bit, and I hope we can 
find ways to work together, although you have heard a lot of us 
on the Committee have deep concerns with the President's 
budget. So, I hope we can coerce you into making some changes 
in this budget as we move along.
    I need to say, like some of my colleagues have before me, 
we certainly disagree with the Administration's stand on the 
Paris Accord. I come from the State of Maine where people have 
a lot of concerns about climate change, and it has an effect on 
our lives every day.
    I also want to just mention I was with a bipartisan group 
of my colleagues in Germany a couple of weeks ago when the 
announcement was made, and a lot of our colleagues in the 
Bundestag and the government over there were just so shocked 
that we would make this decision, and also worried that they 
could not trust the United States anymore to keep with an 
agreement. I want to echo those sentiments.
    But I want to get into a little more specifics because 
sometimes I think we put these environmental issues and talk 
about them as sort of the idea of it is environmental 
extremists against businesses. As someone who comes from the 
State of Maine and understands the importance of the 
environment and the economy working together, and how much I 
hear about it from my constituents, climate change to us is 
very real. It is not an environmental platitude.
    I live in a lobster fishing area. In fact, I would say 
probably that the highest lobster landings in the world are in 
Penobscot Bay where I live. So, I see lots of fishermen every 
day, and they look at me with this fear in their eyes of 
saying, what are we going to do. The ocean is warming around 
us. We are watching the migration of lobsters up into the 
coast, and once they get to Canada, they are going to belong to 
them, not us. We do not get them back. We have seen the 
disappearance in the shrimping industry.
    And as my colleague, Mr. Kilmer, said, between the fishing 
industry and tourism, these are important to our identity. They 
are important economically. And I cannot go home and say to 
people this is not really happening. I cannot go home and say 
to the people in the shellfish industry ocean acidification 
does not exist. ``You know, do not worry about it, it is going 
to go away.'' And we may sometimes disagree on this Committee 
about the causes of climate change, but doing something about 
it is critical, and we cannot back out of these agreements.
    I also represent a huge coast line, and with sea level 
rising, we may not see it every day just the way they do in 
Miami Beach, but we see it when people try to get a mortgage, 
or sell their home, or get insurance. These are economic 
issues. When you talk about uncertainty in the marketplace, 
whether it is fishermen, or farmers, or people who live in 
coastal communities, these are the people I deal with every 
day, and they are looking at this with fear and concern. And 
they are saying to me, and I am saying to myself, what am I 
going to tell my grandchildren if we do not do something about 
it. So, that is my first concern.
    The second one, and I feel a little bit like Mr. Kilmer. I 
could go on for 500 minutes, and I feel confident the chair 
will not let me do that, kind as he is. But there is the 
economic question for tourism States, for fishing States, for 
natural resources States. And maybe you say one size does not 
fit all, and it is the not the same in Oklahoma, and I 
understand. It is different when the fossil fuel industry is in 
your backyard. But I represent one of those States that is in 
the tailpipe of the fossil fuel industry, and I want to talk a 
little bit about clean air.
    We have deep concerns about the cuts in this budget and 
your approach to this. I am looking for any way I possibly can 
to work with you, but people in my area have deep concerns. You 
were an attorney general that sued the Environmental Protection 
Agency, that disagreed with these ideas, that was the head of 
the Republican Attorney Generals Association that got a lot of 
money from the Fossil Fuel Association. And I know we all get 
criticized at times for who supports the work that we do, and I 
want to take you at your word.
    So, I want you to hear in my State, this does not work so 
well. We are the most oil dependent State in the Nation, so we 
know how hard it is to get over our fossil fuel dependence. We 
are deeply concerned about cuts potentially to energy 
independence, because if we cannot have more solar and more 
wind, we cannot have a healthy balance. We are deeply concerned 
about the rollback of clean air rules and the cuts in this 
Administration.
    We have one of the highest rates of childhood asthma, and 
that is just a tragedy, the fact that so many people in our 
State have to deal with the impacts of being at the end of the 
tailpipe about coal-fired power plants and the dirty air coming 
to our State. What do you think it is like to see the highest 
rate of emergency room admissions because of asthma, or to have 
ozone alerts in the middle of our tourism season? We just 
cannot say to people do not come visit our State because the 
air is going to be dirty right now. Again, you talk about, you 
said uncertainty in the marketplace. This creates a lot of 
uncertainty.
    You have heard a lot of our concerns. You said we should 
celebrate the downturn in CO<INF>2</INF> levels. Well, those 
are because we have had higher fuel efficiency standards and 
because we have invested more in clean energy, but your budget 
does all the opposite. It also cuts your commitment to our 
States, and we cannot leave States holding the bag. About a 
hundred employees at our Department of Environmental Protection 
are funded through the Federal government. We do not get that 
money back if you take it all away.
    So, obviously I have piled on you with a million concerns, 
and it is only a few, but I think I represent what I am hearing 
every day. I do not see how more cooperation or more efficiency 
replaces those 4,000 employees you are about to cut or put some 
of the money back into these programs we care about.
    Mr. Pruitt. Let me say first that I look forward to us, as 
you indicated, working together. I appreciate you saying that, 
and it is something that I endeavor to do as well with respect 
to attainment issues. It actually is a priority of our 
Administration to focus on achieving better attainment 
outcomes.
    As you know, when you look at asthma, you mentioned asthma, 
the two criteria pollutants that we regulate under the NAAQS 
program, there are six, but two of them predominantly impact 
asthma, particulate matter and ozone. The PM2.5 standard is 
better than any that are in Europe, and we are making, I 
believe, tremendous progress toward achieving good health 
outcomes for our citizens.
    But, Congresswoman, I really believe that we can do more. 
When I say ``celebrate progress,'' I just think we have to 
recognize that we have prioritized it as a country, that we 
should recognize the success that we have achieved, but it does 
not mean that we stop. It means that we work with the States to 
get better data, not model better, but monitored data, real-
time data, and then focus on compliance and assistance with 
those States to achieve better outcomes in the attainment 
program.
    With respect to CO<INF>2</INF>, you know, I want to say to 
you, the President when he announced withdrawal from the Paris 
Accord, said something else as well. He said that he wanted to 
continue engagement on this issue. I just left the G7. I spent 
four days in Bologna with my counterparts, and we started 
bilateral discussions. I started bilateral discussions with 
them with respect to our continued leadership with respect to 
CO<INF>2</INF> reduction. That is another area that we need to 
recognize that progress has been made.
    You mentioned the progress we have made through government 
regulations, predominantly in the mobile source area. But 
innovation and technology have brought about a tremendous 
amount of CO<INF>2</INF> reductions, particularly hydraulic 
fracturing and horizontal drilling, a conversion of natural gas 
that powers our power grid. What we should be focused upon as a 
Nation as we generate electricity using various forms of 
energy, from coal, to natural gas, to oil, to hydro, to 
renewables, we need to focus on using the latest technology 
that reduces emissions in a very meaningful way, and focus on 
leading an international discussion and exporting that type of 
innovation and technology.
    This is not a sign of disengagement. The President made 
that clear. It is a sign of saying that we are going to 
approach it from a way of demonstrating real action to reducing 
CO<INF>2</INF> through the implementation of what we have done 
in the past several years.

                    CARBON DIOXIDE (CO<INF>2</INF>)

    Ms. Pingree. I appreciate your thoughts, and I hope it is 
not a sign of disengagement, and that we are going to continue 
to be focused on CO<INF>2</INF>. I am not at all clear how we 
do that if we reduce funding for all these areas, and I hope 
you can continue talking to me about that because----
    Mr. Pruitt. If I may, I mean, in this regard. I mean, it is 
very important that Congress does not address this from a 
stationary source perspective. I mean, we have tremendous 
regulation in the mobile source category. The auto sector has 
taken significant steps to reduce GHG emissions, and has done 
an extraordinary job. But as far as stationary sources, when 
you look at the Clean Air Act, I do not know how many of you 
were here in 1990 when the Clean Air Act was amended. But if 
you ask members that amended that act in 1990, including 
Congressman Dingell, he described regulation of CO<INF>2</INF> 
and GHG under the Clean Air amendments of 1990 as being a 
glorious mess. That is how, you know, that framework is used.
    We have to ask the question at the EPA, and this is the 
reason I mentioned this in my opening comments. We cannot just 
make up our authority. We cannot just make up processes to 
address whatever objectives that have been identified. We have 
to receive authority, and direction, and process from this 
body.
    So, as we evaluate steps that we are going to take at the 
Agency, it will be focused upon what are the tools in the 
toolbox that we have, and if there is a deficiency of those 
tools, we will let you know and advise you accordingly because 
I think it is very important that we recognize that.
    Mr. Calvert. I thank the gentlelady.
    Ms. Pingree. I just hope that we can discuss the Clean 
Power Plan again because that was about stationary clean air. 
Thank you, Mr. Chairman.

                             CLEAN AIR ACT

    Mr. Calvert. I thank the gentlelady. I am going to 
recognize Mr. Cole, but since we brought up clean air, I am 
going to briefly say that the Clean Air Act is very important 
to me, and certainly my State, and certainly my area. In fact, 
as you know, Mr. Administrator, California was the first State 
to start cleaning up its own air. Before 1963, before the Clean 
Air Act was even envisioned, California had already started 
stepping forward to clean up its air and to step up with 
pollution rules.
    As a matter of fact, there is a history of bipartisan 
cooperation. It was Jerry Lewis, who is a former chairman of 
this committee, who helped create the South Coast Air Quality 
Basin. Certainly there are a lot of concerns about clean air. 
These concerns were shared by Governor Reagan back when he was 
governor in 1966. One thing that is important to California is 
our waiver. We have had these waivers for over 50 years.
    I want to ask the question, do you plan to continue the 
Clean Air Act preemption waiver that the Agency granted to 
California?
    Mr. Pruitt. Currently the waiver is not under review. You 
are right, this has been something that has been granted going 
back to the beginning of the Clean Air Act because of the 
leadership that California demonstrated. It was actually 
preserved, as you know, in the original writing of the Clean 
Air Act. So, it is important we recognize the role of the 
States in achieving good air quality standards, and that is 
something that we are committed to in the Agency. The waiver is 
not currently being reviewed by the EPA.
    Mr. Calvert. Thank you. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. I am going to 
start with a point of personal privilege, if I may, because I 
think I have probably known the administrator longer than 
anybody on this panel for well over 20 years. I was secretary 
of state when he was elected to the State Senate in 1996, if I 
remember correctly, and then, frankly, was one of many people 
that urged him to run for attorney general in Oklahoma in 2009. 
He won that campaign, and he did the job so well that nobody 
filed against him for reelection as either a Republican or 
Democrat. So, I can just assure my colleagues on the panel, we 
may have disagreements over budgets or policies or what have 
you, but you will find the administrator is unfailingly 
professional, is unfailingly courteous, will look for ways to 
work with you, not against you, and will handle himself in an 
absolutely above board and ethical manner.
    And he has got some pretty good people around him, too. I 
see his chief of staff back there. I have known Ryan for a lot 
of years, too. He worked for Senator Inhofe and was his chief 
of staff. He has got a good team. He will do a tremendous, 
tremendous job. It is a privilege to see you in this position, 
my friend.
    Speaker. [Off audio.]
    Mr. Cole. No, I am not actually. Everybody on this table 
knows I am not kind, and I will show you in a minute how unkind 
I can be. [Laughter.]
    But I want to begin by also congratulating you on the Paris 
Accord. You know, we had Secretary Zinke in here not too long 
ago testifying about his budget, and he made the point I 
thought very succinctly. It was a bad deal for the United 
States. It just simply was, with all due respect to my friends 
that have a different opinion. If it was a good deal, they 
would have put it in front of the United States Senate and 
actually turned it into law rather than run the risk of having 
it overturned, which, again, President Obama chose to do that, 
and that was his choice. But when he had a successor with 
different views, that evaporated pretty rapidly.
    And I want to commend the President for making it crystal 
clear, as you did in your testimony, that he is ready to 
engage, ready to sit down, but we are going to have to have a 
deal that is better for the United States, the American people, 
than the one we had. So, I know you have caught a lot of flack 
for it. I know you played a big role in it. I am proud of the 
role you played. I am proud of the advice that you gave the 
President, and, frankly, I am very proud of how ably you have 
defended that decision. I have seen you on television and in 
print. You clearly know your stuff, as you always did as a 
legislator and as attorney general in our home State. So, very, 
very proud of you.
    Now, that is enough praise for a minute. I actually want to 
congratulate you on one other thing. I can assure you, you are 
going to be the first EPA administrator that has come before 
this committee in 8 years that actually gets more money than 
they ask for. [Laughter.]

                       TRIBAL ASSISTANCE PROGRAMS

    And that does not mean you will get as much as you have 
had, but you will do better than you have asked for.
    Look, my friend, Mr. Joyce, alluded to it, and my friend, 
the chairman, and I were upstairs a minute ago talking to 
Secretary Mattis about the defense budget, and we understand 
budget wars and budget games. And the decision was made, 
appropriate in my view, to plus up defense, and a decision was 
made to take all of that out of nondefense. I think was an 
appropriate decision.
    You know, President Obama used to have a linkage of 
spending one-to-one. Any increase in defense, we had to 
increase domestic. That is a false narrative, you know. I 
actually think defense has the priority, but there is no such 
relationship. That is just as false as every one we do, we are 
going to cut one. You look at each individual function, and you 
try to make the right decision.
    Now, your job is to do exactly what you are doing. You work 
for the President of the United States. I would expect you to 
defend the budget of the President of the United States. I 
suspect your private counsel to the Office of Management and 
Budget may have been a little bit different. I know some of 
your colleagues in the Cabinet. I can tell you they did not 
agree with every decision, but when the decision is made, it is 
your job to go defend it.
    But the final decision rests here. The Constitution is 
pretty clear, and I would never advise you about the 
Constitution of the United States. You know it better than I 
do. But in the end, we have the spending authority, so we will 
look at this. And it is important that we have the President's 
priorities, but at the end of the day, Congress will make the 
decision, and I think you are going to do better than you asked 
for. So, that might be a good thing.
    I will tell you I am concerned. I will give you three 
areas. My colleagues, we all have our particular areas of 
concern, but you will find one of the great common themes on 
this subcommittee is the bipartisan cooperation on Native 
American affairs. So, when I see the Indian Environmental 
General Assistance Program cut by $19.6 million, and I see 
State and tribal assistance grants cut by $678 million, and I 
see a $69 million cut in the Pollution Control Grant Program of 
the Clean Water Act, which, you know, has a section on tribal 
guidance, that worries me. And I want to ask you this in a 
serious way because we have talked about burden sharing, and 
that is, you know, that is fine, and I think that is 
appropriate, frankly. And I know that you will approach that 
seriously because I know who you are.
    But there is a big difference between States and localities 
that have taxing powers and Indian tribes that do not. You 
know, they may or may not have revenue, but they cannot tax. We 
do not give them that power. So, when you make these cuts, how 
will they make up that money, particularly given the biggest 
recipients tend to be the poorest tribes, and the most isolated 
land masses and areas with the most limited economic tools 
available, and with citizens that by any measure in terms of 
their economic opportunities, their educational opportunity, 
their employment prospects, are at the very bottom of the heap 
as we measure those sorts of things.
    Mr. Pruitt. Well, first, thank you for your kind comments, 
and I have known the Congressman for a number of years, and he 
is a friend. He is someone I have partnered with on many 
endeavors, and he, too, is serving the State of Oklahoma and 
his country in a very, very wonderful fashion, and I appreciate 
your leadership.
    With respect to the issues that you have raised, I think it 
is particularly important with respect to rural communities 
across the country in addition to tribal communities, as you 
have indicated, the tribal nations, Congressman, that we 
recognize the very important role the EPA plays in water 
infrastructure, air attainment, facilitation around those, and 
also the technical assistance. As we go through this budgeting 
process, I look forward to working with you, the chairman, and 
the ranking member to address those concerns.

                               GLYPHOSATE

    Mr. Cole. We will, and, again, I know you will be open to 
that. We have worked on Native American issues before in our 
home State. But I will also remind you that, as one of my 
colleagues referred, these are treaty obligations. They are not 
generous grants. We have made certain commitments, so 
maintaining those commitments and advancing them, as this 
committee has, is something we are awful serious about.
    I will ask you one last question because I have taken a lot 
of time, if I may, and it is not a question I know a great deal 
about, I want to preface it. It is something that was brought 
up to me by constituents actually in light of this hearing. But 
it is my understanding you are currently doing a review of 
glyphosate, but I understand it is a pesticide or herbicide, 
sold as something called Round Up, and in the past, it, I 
think, had a label that it might have carcinogens in it. But I 
understand there is a new study that has not yet been released 
called the Agricultural Health Study. It is over at Health and 
Human Services. But for some reason, it has been held for 2 
years, and it comes to a very different conclusion.
    So, I am just curious, as you do your review, could you 
look into that and could you see if that study is there, and 
just make sure that your people as they make their 
determination have access to that data?
    Mr. Pruitt. I will, and I will say that I have had 
interagency discussions with Secretary Perdue at the Department 
of Agriculture, Secretary Price, as you mentioned, at HHS. It 
is important that we collaborate and work together around these 
issues, and we will do that and report back.
    Mr. Cole. Okay. I appreciate that. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Cole. I look forward to working with you.
    Mr. Calvert. Thank you. Mr. Stewart.

                            PARIS AGREEMENT

    Mr. Stewart. Thank you, Mr. Chairman. And, sir, we look 
forward to working with you. I know that people who know you 
have tremendous respect for you, and we think that we are lucky 
to have you in the position you are.
    I have to mimic what Mr. Cole said, if I could, and I will 
do so quickly, and that was in regards to the Paris Agreement, 
and it was exactly the right decision. And I say if someone is 
serious about climate change, if they really feel that it is an 
existential threat that faces our country, you cannot defend 
the Paris Agreement because it was not a serious effort. It was 
not a serious document. It had no compliance. It cost trillions 
of dollars to every country except for China. There was no 
enforcement mechanism. And as I am going to get to in a minute 
when I get to my question, the negative impacts of it actually 
had impacts on us here in the U.S., which I will show you in a 
moment.
    I did a media interview earlier in the day, and I said I 
felt like the EPA had their boot on the throat of America. If 
not their boot on the throat, please at least just be on our 
chest, and that is all we are hoping for here is a little bit 
of a relief from what we believe, as the chairman said, the 
sense of regulatory overreach.
    One more premise, if I could, and that is I think many 
times when people start a conversation with me, they say you 
are a Republican, therefore, you do not care about the 
environment. I think that is just a nutty premise. I mean, 
there is a reason I live out West, because I love to rock climb 
and ski. I love to sit in my backyard and look out at the 
mountains. I do not want to look through ozone. I do not want 
to look through haze. I think all of us are committed to try to 
protect this beautiful place that God has given us. The 
question is how to best to do that and what cost.
    Now, to my question, if I could. Administrator, you know 
that while the country has made significant progress in 
reducing pollution, especially ozone levels, those of us in the 
West are kind of hosed by this whole thing. I represent 
downtown Salt Lake City, but I also represent very rural parts 
of Utah, Zion National Park, Bryce National Park, for example. 
These are very remote places, and yet they are out of 
compliance with ozone, and there is not a thing in the world 
they can do about it. It is not like there are factories 
spewing or a lot of cars that are driving through there and 
creating the pollution and the particulate matter. It is 
naturally occurring.
    And the second thing, coming back to the Paris Agreement 
now if I could, Princeton and NOAA have said that 65 percent of 
the particulate matter is coming from overseas, which is why it 
was nuts to allow China to continue to spew until 2030 while we 
pay the price for that.
    So now, here we are, we have these rural communities who 
are not compliant with ozone and cannot get compliant. There is 
not a thing in the world they can do. The Native Americans 
living there 500 years ago would not have been in compliance 
with the rules that have been proposed by the previous 
Administration.
    My question to you is, will you work with us on that? You 
cannot punish us for something that we cannot control.
    Mr. Pruitt. You know, it is a very, very important question 
because when you look at background ozone levels, as an 
example, our ability to measure with precision background ozone 
is very important because what we ought to be focused upon with 
respect to our NAAQS program, around ozone as an example, is 
the margin above the background. As you have indicated, there 
are certain communities across the country that if you took out 
all activity, all economic activity, it still would be in 
noncompliance and nonattainment under the Clean Air Act. That 
is something that we are reviewing administratively.
    But I will say to you that we may need the help of Congress 
to address that, and we will advise you accordingly on the 
ability to baseline ozone or background ozone, and then focus 
on areas above that that I think are important to address 
attainment issues.
    And one other thing. The Cross-State Air Pollution Rule and 
the ability to make sure that States are sharing, you do not 
want one State contributing to the nonattainment of another 
State. You want to make sure that there is accountability, and 
that steps are being taken in one State to address it downwind. 
So, that is a very important objective and role that we have as 
an Agency.
    The Agency has endeavored to do that in the past, and that 
Cross-State Air Pollution Rule was actually stricken by the 
courts, and so we are trying to make sure that that does not 
happen again. But you mentioned that as a very important 
priority, and it is because we do not want the process of one 
State contributing to the nonattainment of the other. We want a 
shared responsibility there.
    Mr. Stewart. I will just conclude by saying, A, we do not 
want one State contributing to another, nor do we want one 
nation contributing to another, which is clearly happening. 
Then the second thing is if you say you may need the help of 
Congress, well, all hope is lost then----
    [Laughter.]
    Mr. Stewart [continuing]. Because I am pessimistic about 
being able to, convince some of my colleagues that, because the 
narrative will be, Republicans want to weaken clean air 
standards, and that is not true. We are just simply trying to 
reflect the reality that there is nothing these communities can 
do.
    Mr. Pruitt. You know, it is interesting. It is not just 
air. You mentioned trans-boundaries with other nations. It is 
not just air that we have those challenges, but it is also 
mercury in our fish. There are many issues around our 
environmental standards that we need more cooperation and more 
partnership from our neighbors to the south and our neighbors 
to the north.
    Mr. Stewart. Thank you. And, Mr. Chairman, I yield back.
    Mr. Calvert. I thank the gentleman. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, and also Madam Ranking 
Member. I apologize for being late. We had a concurrent hearing 
which I also had to be at. So, Administrator Pruitt, welcome.
    Mr. Pruitt. Good morning.

                           LAKE ERIE: HEALTH

    Ms. Kaptur. My first question, I want to follow on 
Congressman Joyce's excellent remarks, and say would you accept 
an invitation to travel east of the Mississippi to the Great 
Lakes, and join Congressman Joyce and myself with a bipartisan 
group of elected officials to discuss the compromised health of 
Lake Erie?
    Mr. Pruitt. It would be a pleasure to join you and a 
bipartisan effort to do that. In fact, I have spent some time 
in Region 5 already around other issues, the Superfund issue 
there in East Chicago. But we talked about the Great Lakes 
Initiative and the importance of that while I was in Region 5, 
and look forward to the continued discussion with you and 
others on the committee.
    Ms. Kaptur. Thank you very much. We will make it 
convenient, and we will make it easy. We will not serve you 
Asian carp. We will serve you perch or pickerel.
    Mr. Pruitt. Thank you.
    Ms. Kaptur. Let me just say that----
    Mr. Calvert. Walleye is better. [Laughter.]

               GREAT LAKES RESTORATION INITIATIVE (GLRI)

    Ms. Kaptur. America really cannot afford to shortchange our 
environment and human health. I would assume you share that 
belief. The budget submission, however, that is before us is 
simply unacceptable, and it cuts environmental protection by, 
if one adjusts for inflation, by over a third, and it is the 
lowest budget request we have had in 40 years.
    And our part of the country is experiencing threats to the 
Great Lakes, the largest body of fresh water on earth. Lake 
Erie is the shallowest, so it is experiencing these threats 
first. It drains the largest watershed in the Great Lakes. And 
we have an increasing population in our country now. We are 326 
million. The world is 7.5 billion. They are not making any more 
fresh water. But we understand what environmental stress is all 
about and why the Environmental Protection Agency is so 
important to the future of this country. So, we thank you for 
your service.
    In your confirmation, you committed to support the Great 
Lakes Restoration Initiative, so the following questions you 
can answer ``yes'' ' or ``no.'' We can make it easy. Can you 
please clarify, when you sent EPA's 2018 budget submission to 
the White House and OMB, did your budget leave EPA with the 
$300 million in funding for the Great Lakes Restoration 
Initiative whole or zeroed out?
    Mr. Pruitt. You know, that process, Congresswoman, as far 
as the submission to the Agency and the pass back, that is 
something that it has been a little while since I looked at 
those numbers. But we in our discussions with OMB talked about 
the importance of the Great Lakes Initiative.
    Ms. Kaptur. I had a hunch. Okay. Your budget submission 
recommends also taking out $50 million of the GLRI's current 
Fiscal Year funding for 2017 that we just passed, and giving 
that back to Treasury. $50 million. Does that mean you will not 
be able to complete work, and you probably cannot answer this, 
to complete the cleanup of the area of concern at Lorraine, 
Ohio on the Black River, because I am quite concerned if the 
Administration is going to zero out GLRI and then take $50 
million away from this year's budget, that really could stop 
work on the adjoining river that flows into the Great Lakes 
that was terribly damaged.
    Mr. Pruitt. Yeah. So, we will look at the ongoing work and 
the particular focus on that area, Congresswoman, and get 
information to you.
    [The information follows:]

                      Black River Area of Concern

    The Black River Area of Concern currently has six remaining 
management actions that must be completed in order to delist it. Grant 
funding has already been awarded in an amount expected to be sufficient 
to fund two of those management actions. EPA is in the process of 
awarding $7,975,000 from unobligated FY2017 funding this year in order 
to fund remaining work related to the other four management actions. If 
this funding is provided in FY2017, all remaining actions items for the 
Black River AOC will have been fully funded by the end of FY2017. 
Ultimately, in order to delist the AOC, additional funding and 
technical support will be required in future fiscal years to evaluate 
the status of the remaining Beneficial Use Impairment after completion 
of the planned management actions.
    EPA is working expeditiously to make these awards before September 
30; however, if awards have not been made by then, this funding could 
be subject to rescission and progress in removing beneficial uses at 
this Area of Concern will be slowed.

    Mr. Pruitt. But the rescission that you are referring to, I 
think, is around $369 million, which includes the $50 million. 
That carryover typically is there, and that is not intended to 
be punitive towards the Great Lakes. It is just an overall pass 
back or rescission of the entire amount. But we will look at 
that particular area that you have identified, and make sure 
that the ongoing work as far as contracts that have been let, 
that work can continue during the pendency of the budget 
discussions.

                  REGION 5--GREAT LAKES OFFICE CLOSURE

    Ms. Kaptur. Thank you. We were guaranteed that that would 
happen, so that really scared us. We have heard it is your 
intention to permanently shut down the Great Lakes Region 5 
office in Chicago, and move it out of the Great Lakes to west 
of the Mississippi River to Kansas. Could you confirm for me 
whether EPA intends to do that?
    Mr. Pruitt. That is pure legend as far as the discussion 
about moving. There is no consideration presently with respect 
to any regional offices about moving them, one location or 
another. I am not sure where that came from.
    Ms. Kaptur. Right.
    Mr. Pruitt. I actually was visiting Region 5, the East 
Chicago Superfund site, and when I went into Region 5, there 
were media reports that somehow Region 5 was going to be moved. 
That has not been something we had discussed up until that 
point, and it is not something that is currently under 
discussion presently.

                 PROPOSED CUTS TO CINCINNATI, OHIO LAB

    Ms. Kaptur. Thank you. EPA's second largest research lab is 
located in Cincinnati, Ohio and employs 1,700 scientists. Since 
you are proposing a 33 percent cut in your science budget, does 
this mean you will pink slip over 500 EPA scientists located in 
Cincinnati, Ohio serving our country?
    Mr. Pruitt. You know, we will not. In fact, as I indicated 
to the chairman earlier, the proposed cuts to personnel in this 
budget will be achieved through attrition, through voluntary 
buyouts, and through the hiring freeze that currently is in 
place. We have, as I indicated, 20 percent of our workforce 
that are retirement age today, and that number increases 
substantially over the next 3 to 5 years.

                   LAKE ERIE--TRI-STATE BODY OF WATER

    Ms. Kaptur. Thank you. I want to ask your help in a very 
specific situation that is why we want you to come to Ohio. 2 
years ago, Toledo, Ohio's freshwater supply was shut down over 
an entire weekend due to toxic algal blooms from Lake Erie that 
crept into the water treatment facility. The amount of money 
required to fix this tristate binational environmental threat 
was enormous, and the responsibility for purifying the water 
should not simply rest with the City of Toledo, a community of 
250,000 people that sits inside the largest watershed in the 
Great Lakes of over 2 million people and about 11 million 
animals.
    Further, Michigan has declared Lake Erie is impaired, but 
Ohio has not declared that Lake Erie is impaired. Indiana has 
said nothing, and Canada sits out there on the other side of 
the lake. EPA has incomprehensibly accepted both of the State-
level determinations, Ohio saying nothing, Michigan saying Lake 
Erie is impaired, and Indiana saying nothing. In your 
federalist view of EPA's role, is a tristate binational and 
disputed body of water not precisely where EPA is statutorily 
mandated to take action?
    Mr. Pruitt. You know, Congresswoman, it is my understanding 
that the Ohio EPA has not assessed the open waters of Lake Erie 
just yet. But this is an area that we are committed to working 
with the State, all States, in that region to ensure water 
quality standards are advanced and protected.
    With respect to algal blooms, EPA currently serves as the 
co-chair of the Harmful Algal Bloom and Hypoxia Research and 
Control Act Interagency Working Group, and we understand the 
importance of non-point source discharge into our waters. 
States have the primary responsibility, as you know, with 
respect to non-point source regulation. It is important we 
provide facilitation and technical assistance as we work with 
them, but it is very important that we work together in that 
regard.

                               GLRI CUTS

    Ms. Kaptur. Well, I will tell you this, and I will end with 
this, Mr. Chairman. The cuts that you have recommended to GLRI, 
whether it is OMB or some of your advisors there, on top of the 
cuts to the State Implementation grants, means that Ohio EPA 
will have a 30 percent cut to its budget, and with the cuts in 
GLRI and so forth and the lack of clarity on what we can do to 
handle this massive water threat. This is why we want you to 
come to Ohio.
    Mr. Pruitt. I look forward to visiting with you.
    Ms. Kaptur. Thank you.
    Mr. Calvert. Thank you. Mr. Jenkins.

                             ENERGY POLICY

    Mr. Jenkins. Thank you, Mr. Chairman. Administrator Pruitt, 
thank you for being here. Thank you for your leadership in your 
new role. A lot of very nice things have been said about the 
leadership from you and this Administration, from the Paris 
agreement to right-sizing the Agency, and I want to associate 
myself with those accolades and compliments.
    A couple of quick things. I think you have heard very 
clearly around this table, and I know you feel it as well, we 
all appreciate, we want, we love clean air and clean water. In 
West Virginia, our mountains and forests are second to none. 
But we are also an energy State in West Virginia. We have coal, 
natural gas, oil. We are also a human resource State with the 
hardest-working people I would put up against anybody in this 
country.
    And your predecessor, candidly, and the prior entire 
Administration did everything it could to put West Virginia out 
of business and put West Virginians out of work. I respect my 
colleague from across the aisle from Washington worrying about 
his 3,200 employees from Puget Sound at risk of losing their 
jobs. In West Virginia, as a result of the prior 
Administration, we did lose over 10,000 direct jobs of coal 
mining, good jobs. We put so many people on the unemployment 
line because of the actions of the prior Administration and the 
prior EPA administrator.
    So, as Chairman Frelinghuysen mentioned a moment ago, it is 
about the power of the purse. I have been working here in this 
committee to try to use the power of the purse to influence the 
direction and the work of the EPA and it's policies. I simply 
want to say thank you for creating signs of hope and 
opportunity for the hardworking people of West Virginia. We do 
have coal mines that are opening up. We have got people going 
back to work to create a sense of hope and opportunity in their 
lives. So, I want to thank you for that.
    A couple of questions. Number one, I just want to make sure 
it is clear for all to hear and see and listen, does this 
Administration make it a priority of having an all-of-the-above 
energy policy?
    Mr. Pruitt. Yes, Congressman. I think what is important as 
you look at how we generate electricity in this country, we 
need to truly have fuel diversity because as we have 1 percent 
growth in our GDP, there is not as much concern about grid 
stability and grid security. But as we see 3 to 4 percent 
growth, it is important that utility companies across this 
country actually have diverse portfolios in which to generate 
electricity. And that includes the solid hydrocarbon of coal.
    Because you can actually store, and this is important with 
respect to energy security. You can store solid hydrocarbons on 
site. There is only so much natural gas you can get through a 
pipe, and if there is an attack on the transportation system, 
it puts your ability to generate electricity at risk if you 
have a heavy reliance on any particular fuel source in 
generating electricity.
    It may be like a business, Congressman, having one client 
or two clients, and then if you lose that client, your business 
goes away. It is important that the American citizens know that 
our price per kilowatt compared to Europe, compared to other 
nations, is very, very competitive. In fact, it provides us the 
ability to grow a manufacturing base, and the stability of our 
grid is important.
    And so, our focus should be on using innovation and 
technology as decisions are made, whether it is hydro, or 
nuclear, or coal, or natural gas, or oil in the generation of 
electricity, that we use innovation and technology to achieve 
the lowest emission standards possible in each of the areas 
that we regulate under our NAAQS program or otherwise.

                             FUTURE OF COAL

    Mr. Jenkins. So, this Administration and you in your 
leadership role the EPA do see a future for coal.
    Mr. Pruitt. I believe it is absolutely essential that, 
again, we have a very robust fuel diversity in how we generate 
electricity in this country, and we already see the optimism 
across the country. You cite that. And so, it is absolutely an 
all-of-the-above strategy.

                  CLEAN POWER PLANT WOTUS, 2015 OZONE

    Mr. Jenkins. Thank you. Three quick areas: Clean Power 
Plant, WOTUS, 2015 Ozone. Thanks to the leadership of this 
subcommittee, we put riders in the funding bills to make sure 
CPP did not continue to be further implemented under the prior 
Administration. We helped halt funding for implementation of 
WOTUS using that power of the purse. I proudly sponsored an 
amendment adressing ozone standards and the funding mechanisms 
through this process to bar the EPA from moving the goalpost.
    Does the work we have done in this committee resonate 
moving forward with this Administration and the EPA, 
understanding that we are matching up in priorities on those 
issues and others?
    Mr. Pruitt. Yes, and let me say because there have been a 
couple of questions and discussion points about Clean Power 
Plant specifically. I think it is important to recognize that 
with respect to WOTUS and CPP, that the U.S. Supreme Court in 
the latter issued a stay against the actual implementation of 
the rule. You do not get a stay, as you know, from the U.S. 
Supreme Court or any court unless there is a likelihood of 
success on the merits.
    So, the uncertainty that was created with respect to the 
steps taken by the EPA to regulate under the Clean Power Plan 
and also under WOTUS, the environmental objectives were not 
achieved. We are in the process of withdrawing each of those 
rules, both the 2015 WOTUS rule in addition to the CPP that was 
issued as well, and we will take steps on WOTUS. We will have a 
final rule that will provide a definition for waters of the 
United States by the 4th quarter of this year, no later than 
the 1st quarter of next year because that is the job of the 
Agency.
    And so, Congressman, I would just say to you that that goes 
to the heart of my comments in my opening statement, that when 
an Agency acts in excess or inconsistent with the statutory 
framework, lawsuits occur, it creates uncertainty in the 
marketplace, and the environmental objectives that are focused 
upon are not achieved.

                           NEW SOURCE REVIEW

    Mr. Jenkins. One very brief. New source review. We have a 
number of coal-fired power plants across the country that would 
like to invest in their plants for improved efficiency, keep 
that baseload available, enhance grid security. I am working 
with Congressman Griffith to develop legislation to bring some 
predictability for those power plants that continue to operate 
that we can improve efficiency. I welcome the opportunity to 
work with you and your office. Do you have any thoughts about 
reforming new source review to encourage investment to give the 
predictability our power generators need to make investments 
today, knowing that the rules will not be changed on them in 
the future?
    Mr. Pruitt. It is a very important area because you have 
businesses and industry across the country that literally want 
to invest, in some instances, hundreds of millions of dollars 
in existing facilities to produce better outcomes on emissions. 
But as they do so, it triggers new Source Performance Standards 
requirements that actually disincentivizes that. So, we should 
work together to provide clarity to encourage that kind of 
investment because it is good for the environment, and it is 
good to provide that certainty to those that want to invest to 
achieve those outcomes.
    Mr. Jenkins. I look forward to working with you on that 
legislation we are drafting. Thank you.
    Mr. Calvert. Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman. Mr. Administrator, it 
is good to see you again. I had not planned on this, but I do 
want to straighten something out that my colleague from the 
Buckeye State had talked about. Actually Region 5 is not going 
to move to Kansas. It is going to move to Winnemucca, Nevada. 
[Laughter.]
    But the water from Lake Erie when it is drained is going to 
be treated in Kansas before it is delivered to Nevada to 
facilitate the cleanup of the lake bed of Lake Erie. 
[Laughter.]
    Mr. Pruitt. We have not had this discussion. [Laughter.]
    Ms. Kaptur. Will you clean up all the arsenic at the bottom 
of Lake Erie? Will you take care of that?
    Mr. Amodei. I think that is Yucca Mountain, and we are 
going to help you on that, too, so it is all good. Thank you 
very much. [Laughter.]
    Mr. Administrator, I want to echo the comments of my 
colleague from the Sooner State in terms of there has been a 
lot of discussion about the budget. And as a history guy, I 
think it is important to note that the Congress has cut the 
Agency quite a bit before you got there, and quite a bit 
recently in relative terms. And so, speaking only for myself, I 
would expect to take those cuts into account and echo my 
colleague's sentiments about how you may be the first person to 
get more than you asked for because, quite frankly, as many 
people have made the point, nobody is standing on the rooftops 
begging for dirty water, and dirty air, and dirty soil, and 
those sorts of things.
    So, and I cannot help but give a shout out to, and I hate 
to do this publicly, but referring to the budget by the name of 
the director of OMB I think is beautiful and appropriate and, 
if anything, kind compared to what he probably deserves. 
[Laughter.]

                     ADMINISTRATIVE PROCEDURES ACT

    So, I like that in terms of giving you a pass on that. 
Beyond that, I will tell you this. I have got some issues that 
I want to talk, but we have had some success dealing with your 
Agency through your liaison folks and with the folks out in 
Region 9 actually. And so, we will look forward to getting on 
the calendar of the appropriate folks in the Agency and dealing 
with those specifically in the coming days.
    So, thank you very much. I appreciate the fact that on 
several occasions you have made the point that you are a 
process person. And so, when these things go forward, whether 
it is the Paris Accords or a rule that is supposed to go 
through there, that public opportunity is important stuff. And 
when that has gone through, things tend to take care of 
themselves.
    So, thank you very much. I appreciate your help working 
with us on water from Ohio, and we will talk with you offline.
    Mr. Pruitt. If I might, I really appreciate the reference 
to process. There is a reason why Congress has said the 
Administrative Procedures Act sets forth very strict guidelines 
on how we do rulemaking, that we introduce a rule, we propose a 
rule, we take comment from citizens, and States, and industry 
across the country. Our job as an Agency is to take those 
comments and respond to them on the record, and make an 
informed decision as we finalize a rule.
    The reason that process matters is how you reach consensus. 
I mean, that is how you reach an informed decision that 
actually takes into consideration all the various regions 
across the country, the impact of a rule economically, the 
impact of the rule on the environment. When that process is not 
respected, it actually contributes to bad outcomes. And so, I 
mentioned that to you in my opening comment because it matters 
to, I think, the success of working together. We are going to 
do that and refocus our attention there. We should not regulate 
the litigation.
    You know, one of the things that was a very, very, and 
still remains, a very difficult challenge, is we inherited a 
host of consent decrees. Those consent decrees actually 
sometimes changed the very statutes that you have passed, 
timelines that you have established, substantive obligations 
that you have put into statute, and that just should not be. 
You should not have a court process, litigation, yield to a 
change in statute that Congress has passed.
    And so, this process focus is something that I think will 
yield good outcomes along with a partnership that I have 
mentioned with the States, but also that really key focus on 
what is our authority in meeting the timelines that Congress 
has set. That is the reason the TSCA update, that you passed 
last year, is so important that we meet those deadlines, those 
rules being out, put out, the RFS issue, you know, the RVOs 
that are supposed to come out every November that provides 
certainty to those in the marketplace. That has not been met in 
many years, and so we are going to meet that deadline in 
November.
    So, I appreciate your comments about the process component, 
and it is something that we take seriously.
    Mr. Calvert. Thank you. Ms. McCollum.

                      TIMELY RESPONSES TO LETTERS

    Ms. McCollum. Thank you, Mr. Chair. I just want to restate 
something that was touched on by several members here, that the 
budget cut to the categorical grants to States and tribes of 40 
percent is just going to be a nonstarter here. States rely 
heavily on these grants. So do tribes. Even a report from the 
Environmental Council of the States says that Federal funding 
accounts on average for 27 percent of State environmental 
budgets. That is over a quarter of State budgets. And I think 
it is really important to remember that States have the ability 
to return this responsibility back to the EPA, so we have to 
keep this partnership moving forward.
    You mentioned working together. One of the things that I 
asked Secretary Zinke about is the response to Members. 
Sometimes there are things out there happening, and I heard 
people talking about this, that no one is responding back to my 
letter. So, if you could please tell me, is there a policy or a 
guidance you could share with the chairman and I on what we can 
expect for timely responses to both the chairman and I and 
other members of Congress when we submit letters?
    We are hearing that some committees are only going to 
respond to chairmen, and some are not going to respond to rank 
and file members. Do you have such a policy, and if so, could 
you share it with us?
    Mr. Pruitt. You know, I appreciate the question because as 
I went through the confirmation process, I met with roughly 40 
to 45 senators, both Democrat and Republican, many of whom were 
not on the actual EPW Committee, because I wanted to spend time 
with them and hear their concerns. Since having been sworn in, 
I have actually been on Capitol Hill multiple times meeting 
with both Democrat and Republican members.
    It is my belief that it is my job to respond and serve all 
members of Congress, and I look forward to doing so. I 
mentioned I actually was in East Chicago, as I indicated 
earlier, with Senator Donnelly on that very important Superfund 
site that needs new leadership. So, that is something that 
there is not a policy that recognizes majority versus non-
majority.

                       ELECTRONIC COMMUNICATIONS

    Ms. McCollum. Well, I will call you if I do not think I am 
getting a timely response. Another thing that has just been in 
the news, and I know you saw it, is that there were reports 
that you failed to disclose an email account that you had while 
you were attorney general, the one that is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b0e181b0b2420272a2324262a0a0c652c243d65">[email&#160;protected]</a> 
This is distressing because at your hearing you said you only 
had two email addresses, and now this third one came forward, 
so you were not completely accurate at the time.
    Senator Whitehouse said that you have had several 
opportunities to correct the record on your emails. In fact, he 
has a letter, which I am going to submit for the record, that 
goes on to say that it has been in a public disclosure of your 
emails that Congress has learned of your relationships with 
energy companies that now regulate the EPA.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Ms. McCollum. So, for the record, can you get back to us, 
regarding what you are using for email addresses as EPA 
administrator, and what other forms of electronic communication 
that you are using, because I want to build a level of trust 
between all of us.
    Mr. Pruitt. If I may, both in my oral testimony as well 
there is a letter actually that I submitted to the EPW 
Committee in May that recognized multiple State email accounts, 
so there has been a consistency there. The representations that 
you are citing are not accurate, so we have informed the 
committee. That was consistent with my oral testimony, and we 
will provide you information about current activities as well.
    [The information follows:]

    The Agency maintains a primary email account to contact the 
Administrator, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a3a383f233e3e3929253e3e0a2f3a2b642d253c64">[email&#160;protected]</a> EPA staff has also 
established secondary accounts in the Agency's Outlook email 
system that are used for calendaring, scheduling, and internal 
communications.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    DEVON ENERGY

    Ms. McCollum. Great. One of the things that has come 
forward and that I have been following is, that when you were 
attorney general, you had a different job than you have now. 
You had a lot of correspondence with Devon Energy, who was 
aggressively challenging rules proposed by the EPA. You sent a 
letter to the EPA while you were AG in Oklahoma urging that the 
EPA overestimated air pollution from natural gas wells, and the 
letter very closely reflected lawyers from Devon Energy. This 
is also something that has been in the public.
    The New York Times is now reporting that Devon Energy is 
reevaluating their settlement posture for illegally emitting 80 
tons per years of hazardous chemicals, like benzene, which is a 
known carcinogen. The company, from reports, is now backing 
away from an agreement to install a system to detect and reduce 
leaks of dangerous gas. Additionally, the company now, after 
agreeing and admitting that it violated the law, is backing 
away from a proposed settlement, which has a 6-figure penalty 
claim back to the taxpayers down to $25,000.
    Based on your relationship with Devon Energy when you were 
attorney general, how do you plan on handling this issue? Are 
you going to recuse yourself because now you are at the EPA? Is 
someone else going to be looking at it? Because as you said, we 
want to work together, and so I bring these articles up not to 
play gotcha politics, but to create an honest and open dialogue 
about how the EPA is going to be conducted so that we can work 
together.
    Mr. Pruitt. I appreciate you not making presumptions, 
Ranking Member McCollum. I would say to you that as far as 
enforcement is concerned, I talked about that in my opening 
comments. Enforcement matters to me. You mentioned my time as 
attorney general. We had a grand jury that I led. We had 
significant enforcement activities.
    I understand that there are bad actors in the marketplace. 
There are individuals and companies that discharge toxics and 
pollutants into our water, and they need to be prosecuted. 
There are people that engage in fraud under our RIN system with 
respect to RFS. There are folks that violate permits that we 
have established with respect to air attainment.
    So, all those things--but I am trying to respond to your 
question here.

                          LAWSUITS AGAINST EPA

    Ms. McCollum. I know you are, but at the same time you are 
painting one side of it. You also filed multiple lawsuits 
against the EPA.
    Mr. Pruitt. The lawsuits, it is interesting that the 
lawsuits actually are a topic of discussion. We won those 
lawsuits because the Agency was not acting within the authority 
of this body. The reason lawsuits were filed, 31 States filed a 
lawsuit against the EPA for the WOTUS rule, is because they 
acted outside of their authority. The reason 27 States sued the 
EPA under the Clean Power Plan is the same thing. This body 
ought to be very jealous of any agency of the executive branch 
flaunting the framework that you have established under any 
statute.

                              DERA PROGRAM

    Mr. Calvert. I thank the gentlelady. Real quick. One thing 
I wanted to bring up, and I mentioned this in my opening 
statement, the DERA program. The Agency noted that 10.3 million 
legacy diesel fleet engines are still in use. Also in the 
report, the EPA estimated over 1 million of the oldest and 
dirtiest diesel engines will still remain in use until 2030.
    The Inland Empire in California where I live was part of 
the South Coast Air Quality District, which has been in 
nonattainment for ozone for about as long as a Federal standard 
for ozone has existed, but it is not for a lack of trying. As I 
mentioned, we have been regulating air quality longer than any 
other area on the planet, and implementing some of the most 
stringent air pollution control measures.
    We have done all we can do pretty much to reduce emissions 
from stationary sources. Our issue is the amount of cars and 
trucks, and you mentioned mobile sources. That is the problem. 
And we also have two of the largest port facilities in the 
United States, the Port of L.A. and the Port of Long Beach, 
which are responsible for 40 percent of all U.S. container 
cargo in the United States. These containers are loaded onto 
trucks, which then travel through my district to the rest of 
the country.
    Mobile sources contribute to about 80 percent of the air 
quality in the South Coast region. I think there is about 20-
some, 26, 27 million people who live in the Los Angeles Basin.
    We have made significant progress in improving air quality. 
However, largely due to the topography, a large volume of 
transportation occurs in and around the Inland Empire. We need 
some additional resources to make those improvements. That is 
why we fund the Targeted Air Shed Grant Program, provide 
additional resources to areas across the Nation that need help 
to meet air quality standards. The same is true for DERA 
grants. And as I mentioned in my opening statement, I 
appreciated the announcement with flexibility for 
implementation of the 2015 ozone standard because communities 
are just starting to work to meet the 2008 standards.
    The Fiscal Year 2017 omnibus directed EPA to send a report 
to Congress regarding administrative options for regulatory 
relief as States and communities attempt to comply with both 
the 2008 and 2015 standards. In response, EPA has convened a 
task force, as you mentioned, to examine what options may be 
available.
    So, my question is, in your opinion, how can we accelerate 
the process for some of these communities to reach their 
attainment goals?
    Mr. Pruitt. Well, I do want to address DERA for a second. I 
think it is a very important program. The GAO has found a 
duplication across Federal agencies, and the mission behind 
DERA is right, and we believe it should be funded. I think this 
committee should give direction on how it should be funded, 
that we are committed to that DERA Program and believe it is 
important, however you choose to achieve that.
    With respect to how do we improve attainment, I mean, I 
think a lot of it, Mr. Chairman, is restoring that joint 
cooperation through compliance and assistance, equipping those 
at the local level to achieve better outcomes, but I do think 
some of it may be legislative. I do really believe that 
addressing some of the issues we talked about earlier with 
ozone is something that this body ought to consider.
    But air attainment in our NAAQS program is some of the best 
work we can do as a Nation to impact health outcomes. And it 
should be an absolute priority of our Agency working with 
Congress to achieve those outcomes.
    Mr. Calvert. Thank you. As I mentioned when we started the 
meeting, we were trying to finish this by 1:00 because we have 
a meeting for the full committee I have to attend. So, if any 
real quick comments because we are going to wrap this up. [No 
response.]
    I see none. I appreciate you being here, Administrator 
Pruitt. Very quickly, Mr. Kilmer.

                      GENERATIONAL BURDEN OF DEBT

    Mr. Kilmer. I appreciate it, Chairman. I will keep it 
quick. My colleague from Oklahoma in our last hearing made a 
very thoughtful comment about the generational burden of debt. 
There are a lot of moms in this room who are concerned about 
the generational burden of climate change on the next 
generation, and the inability of our government to do something 
about it.
    I understand that there is going to be a difference of 
opinion on the Paris Climate Accord. What I do not get is the 
complete elimination of some of the programs that are not even 
mandatory, things like the Energy Star Program. You know, there 
is a whole list of them in your budget. The Natural Gas Star 
Program, which is a voluntary program to reduce methane leaks. 
Things like the Combined Heat and Power Partnership to promote 
use of wasted heat, saving both energy and water and reducing 
pollution.
    If you can just take a quick minute to help explain why all 
of those programs are wiped.
    Mr. Calvert. Well, I can answer. I am going to work with 
you to make sure that we address those issues. I suspect he has 
to defend his budget, but I am going to work with you to make 
sure that we work with that.
    Mr. Kilmer. Thanks, Chairman.
    Mr. Calvert. Any other comments? [No response.]
    I appreciate your attendance. Thank you very much.
    Mr. Pruitt. Thank you, Mr. Chairman, Ranking Member 
McCollum.
    Mr. Calvert. We are adjourned.
    Ms. McCollum. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    
    



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Buchanan, Rear Admiral Chris.....................................     1
Church, Ann......................................................     1
Embrey-Arras, Melissa............................................    51
Ferriter, Olivia.................................................   189
Flanagan, Denise.................................................   189
Greaves, Holly...................................................   385
Hartz, Gary......................................................     1
King, Kathleen...................................................    51
Perdue, Hon. Sonny...............................................   117
Pruitt, Scott....................................................   385
Rusco, Frank.....................................................    51
Tidwell, Tom.....................................................   117
Toedt, Captain Michael...........................................     1
Zinke, Hon. Ryan.................................................   189




                               I N D E X

                              ----------                              

                         Indian Health Service
                     2018 Budget Oversight Hearing
                              May 24, 2017

                                                                   Page

Biography--Ann Church............................................    13

Biography--CAPT Michael Toedt, M.D...............................    12

Biography--Gary J. Hartz.........................................    14

Biography--Acting Director RADM Chris Buchanan...................    11

Budget Formulary.................................................    50

Centralized Credentialing........................................    38

Construction Backlog.............................................    34

Current Services.................................................    34

Department of Veterans Affairs: Memorandum of Understanding......    47

Facility Needs Assessment Report to Congress--2016...............    17

Fiscal Year 2018 Budget Request 





Government Accountability Office (GAO) High Risk Report 





Great Plains 




Maintaining Current Services.....................................    15

Maintenance Backlog 





Opening Remarks of Chairman Calvert..............................     1

Opening Remarks of Ms. McCollum..................................     2

Opening Remarks of Acting Director RADM Chris Buchanan...........     4

Opioid Epidemic..................................................    30

Overview--Indian Health Service..................................    40

Patient Wait Times 




Purchased and Referred Care: Allocation Methodology..............    43

Quality Framework and Office of Quality Healthcare...............    43

Questions for the Record from Chairman Calvert...................    33

Questions for the Record from Mr. Kilmer.........................    49

Questions for the Record from Mr. Simpson........................    38

Questions for the Record from Ms. McCollum.......................    40

Recruitment and Retention 




Sanitation Facilities: Backlog...................................    31

Sanitation Facilities: Funding for Construction..................    49

Special Diabetes Program for Indians 




Staffing.........................................................    17

Statement of RADM Chris Buchanan.................................     6

Third Party Payments and Medicare Coverage.......................    44

Urban Indian Health Program......................................    46

          High Risk American Indian and Alaska Native Programs
                    (Education, Health Care, Energy)
     U.S. Government Accountability Office (GAO) Oversight Hearing
                              May 24, 2017

Agency Cooperation...............................................   110

Assistance to Agencies...........................................    98

Biography--Frank Rusco...........................................    92

Biography--Kathleen King.........................................    93

Biography--Melissa Emrey-Arras...................................    91

Bureau of Indian Education: Construction.........................   104

Bureau of Indian Education: Construction Delays..................   105

Bureau of Indian Education: Safety Concerns 




Congressional Action 




Energy...........................................................   113

GAO High Risk Report.............................................   108

GAO High Risk Report: Tribal Programs............................    97

Health Care......................................................   114

Indian Loan Guarantee Program....................................   103

Leadership.......................................................   102

Medicare Rates...................................................   104

Offshore Accounts................................................    99

Opening Remarks of Chairman Calvert..............................    51

Opening Remarks of Ms. Emrey-Arras...............................    53

Opening Remarks of Mr. Frank Rusco...............................    94

Opening Remarks of Ms. Kathleen King.............................    96

Opening Remarks of Ms. McCollum..................................    52

Questions for the Record from Chairman Calvert...................   108

Recovery of Funds................................................    99

Staffing and Training............................................    99

Staffing: Turnover...............................................   102

Statement of the U.S. Government Accountability Office (GAO).....    55

                          U.S. Forest Service
               Fiscal Year 2018 Budget Oversight Hearing
                              May 25, 2017

2017 Consolidated Appropriations Act Directives..................   131

Aviation Assets 





Bark Beetle......................................................   154

Biography--Chief Thomas L. Tidwell...............................   130

Biography--Secretary Sonny Perdue................................   129

Budget: Accountability...........................................   120

California Forests 




Capital Improvement and Maintenance..............................   174

Collaborative Forest Landscape Restoration Program 




Community and Urban Forestry Program.............................   169

Deferred Maintenance, OIG Report.................................   177

Department of Labor: Overtime and Minimum Wage...................   147

Drinking Water...................................................   179

Ecosystem Services...............................................   180

Emerald Ash Borer................................................   150

Fire Funding 







Fiscal Year 2018 Budget Request 




Forest Legacy 




Forest Products Lab 




Forest Restoration...............................................   186

Forest Service Museum............................................   168

Forest Stewardship Program.......................................   139

Grazing..........................................................   145

Groundwater Directive............................................   165

Invasive Species.................................................   153

K-V Authority....................................................   184

Land Management..................................................   135

Legacy Roads and Trails 




Litigation 





Mining Withdrawal................................................   133

Monongahela National Forest: Flood Recovery 





Monongahela National Forest: Timber Sales and Species Habitat 





Olympic National Forest..........................................   185

Opening Remarks of Chairman Calvert..............................   117

Opening Remarks of Ms. McCollum..................................   118

Opening Remarks of Secretary Sonny Perdue........................   120

Outfitters and Guides: Permitting System.........................   178

Proactive Forest Management......................................   182

Program Management...............................................   122

Questions for the Record from Chairman Calvert...................   156

Questions for the Record from Mr. Amodei.........................   169

Questions for the Record from Mr. Jenkins........................   170

Questions for the Record from Mr. Kilmer.........................   182

Questions for the Record from Mr. Simpson........................   166

Questions for the Record from Ms. McCollum.......................   173

Questions for the Record from Ms. Pingree........................   181

Recreational Access 




Reorganization of USDA 




Roads............................................................   122

Staffing.........................................................   164

State and Private Forestry Program 




Statement of Chief Tom Tidwell...................................   126

Statement of Secretary Sonny Perdue..............................   123

Terrestrial Condition Assessment (TCA)...........................   156

Urban and Community Forestry 




USDA Mission Areas...............................................   150

Volunteers.......................................................   178

Watersheds 




                       Department of the Interior
               Fiscal Year 2018 Budget Oversight Hearing
                              June 8, 2017

Abandoned Mine Land (AML) Economic Grants........................   215

Abandoned Mine Land (AML) Fund...................................   329

Abandoned Mine Land (AML) Pilot Program 




Accessibility to Data and Data Acquisition.......................   336

Algal Blooms.....................................................   234

American Battlefield Protection Program..........................   332

Antiquities Act 




Aquatic Drug Approval Program Cuts...............................   376

Arctic National Wildlife Refuge..................................   348

Asian Carp 





Bears Ears National Monument 




Biography--Denise A. Flanagan....................................   214

Biography--Olivia Barton Ferriter................................   213

Biography--Secretary Ryan Zinke..................................   211

Budget Reductions: Economic Impacts..............................   334

Bureau of Indian Education (BIE): Construction 




Bureau of Land Management (BLM): National Conservation Lands.....   340

Bureau of Land Management (BLM): Pilot Office Program............   319

Bureau of Land Management (BLM): Realty Staffing and Specialists. 



Bureau of Ocean Energy Management (BOEM): Management and Planning   377

BWCA Mining......................................................   277

Chesapeake Bay...................................................   357

Climate Change 













Coal.............................................................   356

Colorado River Basin.............................................   321

Congressional Inquiries..........................................   372

Earthquakes 




Elwha Water Facilities...........................................   379

Employment.......................................................   264

Endangered Species Act 





Endangered Species Recovery......................................   368

Energy 




Energy: Offshore Workforce Safety................................   345

Energy: Regulation...............................................   228

Facilities.......................................................   224

Federal Register Publishing 




Fiscal Year 2018 Budget Request 










GAO High Risk Indian Programs: Education 




GAO High Risk Indian Programs: Indian Energy.....................   309

Grand Canyon Uranium Mining......................................   277

Grants and Cooperative Agreements 




Great Lakes 





Great Lakes Restoration Initiative (GLRI) 




Indian Affairs 





Infrastructure...................................................   196

Katahdin Woods and Waters........................................   237

Land and Water Conservation Fund (LWCF) 




Land Transfers and Sales 




Landscape Conservation Cooperatives and Science Support..........   368

Law Enforcement 




Lead Ammunition..................................................   353

Letters of Inquiry 




Maintenance Backlog 





Mill Springs Battlefield: Special Resources Study................   332

Minimum Wage and Overtime Rules..................................   241

National Heritage Areas..........................................   224

National Monuments...............................................   317

National Park Foundation.........................................   317

National Park Service (NPS): Centennial 




National Park Service (NPS): Operations..........................   282

National Park Service (NPS): Outsourcing.........................   371

Native American Programs 




Native Plants and National Seed Strategy.........................   297

Oil and Gas Development..........................................   301

Opening Remarks of Chairman Calvert..............................   189

Opening Remarks of Chairman Frelinghuysen........................   193

Opening Remarks of Mrs. Lowey....................................   194

Opening Remarks of Ms. McCollum..................................   191

Opening Remarks of Secretary Zinke...............................   195

Paris Agreement..................................................   191

Partnerships 




Payments in Lieu of Taxes (PILT) 







Permitting and Permit Process 




Public Lands.....................................................   358

Public Lands in Utah.............................................   240

Questions for the Record from Chairman Calvert...................   280

Questions for the Record from Mr. Amodei.........................   324

Questions for the Record from Mr. Jenkins........................   328

Questions for the Record from Mr. Kilmer.........................   379

Questions for the Record from Mr. Rogers.........................   332

Questions for the Record from Mr. Simpson........................   316

Questions for the Record from Mr. Stewart........................   319

Questions for the Record from Ms. Kaptur.........................   382

Questions for the Record from Ms. McCollum.......................   334

Questions for the Record from Ms. Pingree........................   374

RECLAIM Act......................................................   216

Recreation.......................................................   364

Regulation Review................................................   352

Renewable Energy 




Reorganization 





Revenues.........................................................   369

Right-of-Way.....................................................   270

Sage Grouse 









Science..........................................................   192

Scientific Advisory Boards and Scientific Integrity..............   340

Scotty's Castle..................................................   283

Sexual Assault...................................................   342

Staffing and Employment 





Staffing: Offshore 




Statement of Secretary Ryan Zinke................................   199

Superior National Forest & Boundary Waters: Mining Withdrawal....   373

Trust Responsibility.............................................   350

Unmanned Autonomous Vehicles: USGS/BLM Habitat Mapping...........   326

USGS: Earthquake Early Warning System 





USGS: Geomagnetism Program 




USGS: Whooping Crane Program.....................................   368

Well Control Rule................................................   303

White Sulphur Springs National Fish Hatchery 




Wild Horses and Burros 






Wilderness.......................................................   364

Wildland Fire....................................................   190

Wildlife Refuges.................................................   375

World War II Memorial 




                    Environmental Protection Agency
               Fiscal Year 2018 Budget Oversight Hearing
                             June 15, 2017

Accessibility to Data and Data Acquisition.......................   503

Administrative Procedures Act....................................   429

Air Pollution....................................................   502

Alternative Dispute Resolution: Elimination......................   534

American Energy Jobs.............................................   553

Biography--Administrator Scott Pruitt............................   399

Biography--Holly Greaves.........................................   400

Black River Area of Concern......................................   424

Brownfields......................................................   540

Carbon Dioxide (CO<INF>2</INF>)..................................   417

Categorical Grants for States and Tribes.........................   510

Chesapeake Bay...................................................   518

Children's Health: Environmental Impact..........................   537

Chlorpyrifos 




Clean Air Act....................................................   410

Clean Power Plan.................................................   534

Clean Power Plant, WOTUS, 2015 Ozone.............................   427

Clean Water Act (CWA): Impaired Water of Lake Erie...............   546

Climate Change...................................................   552

Climate Change: GAO High Risk Area...............................   534

Combined Heat and Power Partnership..............................   533

Comprehensive Environmental Response, Compensation, and Liability 
  Act (CERCLA)...................................................   485

Congressional Inquiries 




Devon Energy.....................................................   470

Diesel Emissions Reductions (DERA) Grants........................   471

Drinking Water...................................................   526

Ecolabels 




Electric Communications..........................................   431

Endocrine Disruptors Program.....................................   403

Energy Policy 




ENERGY Star Program 





Enforcement 




Environmental Justice 




Environmental Monitoring.........................................   533

Fiscal Year 2017 Enacted Budget: Implementation..................   492

Fiscal Year 2018 Budget Request 






Funding to States................................................   548

Generational Burden of Debt......................................   472

Glyphosate.......................................................   421

Great Lakes 




Great Lakes Legacy Act: Contaminated Sediments...................   413

Great Lakes Restoration Initiative (GLRI): Proposed Cuts.........   426

Great Lakes Restoration Initiative (GRLI)........................   423

Hazardous Substance: Superfund Account...........................   522

Hydrofluorocarbons...............................................   500

Lake Erie: Health................................................   423

Lake Erie: Tri-State Body of Water...............................   425

Lawsuits.........................................................   470

Leaking Underground Storage Tanks (LUST).........................   525

Long Island Sound................................................   557

Marine Pollution.................................................   526

Merging Regional Offices.........................................   532

National Estuary Program.........................................   540

National Institute of Environmental Health Sciences..............   554

National Vehicle and Fuels Emission Laboratory...................   529

New Source Review................................................   428

Office of Water..................................................   502

Opening Remarks of Administrator Pruitt..........................   389

Opening Remarks of Chairman Calvert..............................   385

Opening Remarks of Ms. Lowey.....................................   388

Opening Remarks of Ms. McCollum..................................   387

Ozone 




Paris Agreement 




Personnel Reductions.............................................   410

Pesticide Registration Improvement Act Reauthorization (PRIA)....   401

Pollution Prevention.............................................   525

Proposed Cuts to Cincinnati, OH Lab..............................   425

Proposed Program Cuts............................................   405

Puget Sound 





Questions for the Record from Chairman Calvert...................   473

Questions for the Record from Mr. Amodei.........................   485

Questions for the Record from Mr. Jenkins........................   490

Questions for the Record from Mr. Kilmer.........................   542

Questions for the Record from Mr. Simpson........................   476

Questions for the Record from Mr. Stewart........................   484

Questions for the Record from Ms. Kaptur.........................   546

Questions for the Record from Ms. Lowey..........................   552

Questions for the Record from Ms. McCollum.......................   492

Questions for the Record from Ms. Pingree........................   540

Region 5: Great Lakes Office Closure.............................   425

Regulation Review................................................   513

Renewable Fuel Standards.........................................   486

Renewable Fuel Standards: Blend Wall.............................   487

Research and Development.........................................   529

Rewriting Executive Orders.......................................   473

Rule of Law 




Rulemaking.......................................................   408

Rural Water Technical Assistance Program.........................   401

Schedule and Travel Budget.......................................   499

Science Advisory Board...........................................   504

Science and Research Funding.....................................   550

Serious Non-Attainment Areas.....................................   484

Significant New Alternatives Policy (SNAP) 




Staff Reductions.................................................   512

Staffing and Employee Morale.....................................   511

State Implementation Plans (SIPs) 




State Obligation.................................................   485

Statement of Administrator Scott Pruitt..........................   392

States and Rural Communities.....................................   411

Superfund and Brownfields: Budget Request vs. Needs..............   474

Superfund Program: Hudson River PCBs.............................   554

Superfund Sites..................................................   404

Superfund Special Accounts.......................................   475

TMDL.............................................................   476

Toxics and Peer Review...........................................   521

Toxics Funding...................................................   541

Tribal Assistance Programs 




Tribal Treaty Rights and Tribal Consultation.....................   537

U.S. Global Change Research Program..............................   501

Undisclosed Email Accounts.......................................   493

Voluntary Programs...............................................   500

Water Infrastructure.............................................   547

Water Pollution..................................................   501

Water Sense Program..............................................   541

Waters of the United States (WOTUS)..............................   486

Wood Heater Standards............................................   540

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
